Report No. IE-2008-004              April 15, 2008




         Inspections and Evaluations



DoD Assessment of Contracting With Blind Vendors
   and Employers of Persons Who Are Blind or
         Have Other Severe Disabilities
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
                                DoD Assessment of Contracting With Blind Vendors and Employers of
                                           Persons Who Are Blind or Have Other Severe Disabilities
&!   nspections
     Evaluations                Who Should Read This Report and Why?
                                                                                                                  April 15, 2008


       A Crystal Focus Review   Congressional stakeholders, as described in the John Warner National Defense Authorization
                                Act (NDAA) for Fiscal Year (FY) 2007, Section 856. DoD civilian and military personnel
                                responsible for solicitation and award of contracts for services associated with military dining
                                facilities. Randolph-Sheppard Act (R-SA) and Javits-Wagner-O’Day (JWOD) Act program
                                managers.

                                What We Did
                                We assessed program execution top-down—from the Offices of the Secretary of Defense to the
                                Military Departments. We reviewed competition, arbitration, and litigation. We collaborated
                                with the Department of Education (DoED) Office of the Inspector General and included their
                                review of management procedures in Appendix J. We also included information from nonprofit
                                and independent Federal agencies as it relates to execution of the DoD program.

        VI 10                   As stipulated in the NDAA for FY 2007, Section 856, this report includes:

 We will evolve into the            •	   “Findings of the Inspectors General regarding the management procedures reviewed;”
premier Insp ctions and                  and
Evaluations organization.
                                    •	   “Such other information and recommendations as the Inspectors General consider
                                         appropriate.”
                                What Was Identified?
                                All of the Military Departments contract for military dining facility services under these two
                                Acts and other statutory contracting programs [e.g., Small Business Administration-Section 8(a),
                                HUBZone]. Both Acts provide a legislative preference based on a socio-economic benefit to
       MISSION
                                persons with disabilities.
    The Directorate of
      Inspections and           Policy implementing the JWOD program is adequate. Additional guidance is required from the
   Evaluations conducts         Office of the Secretary of Defense to facilitate implementation of the R-SA.
objective and independent
    customer-focused            Knowledge of these programs existed at all levels reviewed, particularly at installations with a
management and program          previous or existing military dining facility contract under one of the preferential programs.
  inspections addressing        Interpretation and implementation of the two Acts vary, resulting in confusion, inconsistent
    areas of interest to        execution, insufficient contract oversight, and arbitration/litigation.
     Congress and the
 Department of Defense,         How It Could Be Improved
   and provides timely
                                The Under Secretary of Defense for Acquisition, Technology, and Logistics [USD(AT&L)]
        findings and
                                should coordinate to establish a Defense Federal Acquisition Regulation Supplement rule to
recommendations leading
                                govern the R-SA contracting process and for the issue of appropriate procurement policy,
  to positive changes in
                                regulations, and implementing procedures for R-SA contracting in military dining facilities.
          programs.
                                USD(AT&L) should coordinate to publish for public comment and interagency coordination
                                appropriate policy and regulations to implement the joint policy agreed on and reported to
                                Congress August 29, 2006, by the DoD, DoED, and Committee for Purchase. To resolve and
                                clarify issues associated with contracting with employers of persons with disabilities,
                                USD(AT&L) should forward a legislative change request to Congress. We made four
                                recommendations for improvement in these areas.



                                                                              Department of Defense Office of Inspector General
                                                                                                       Report No. IE-2008-004
GENERAL INFORMATION


Forward questions or comments concerning the evaluation of the DoD Assessment of
Contracting with Employers of Persons with Disabilities and other activities conducted by the
Inspections & Evaluations Directorate to:

                                 Inspections & Evaluations Directorate

                    Office of the Deputy Inspector General for Policy & Oversight

                      Office of Inspector General of the Department of Defense

                                         400 Anny Navy Drive

                                    Arlinglon, Virginia 22202-4704

                                        crystalfocus@dodig.mil


An overview of the Inspector General of the Department of Defense mission and organizational
structure is available at http://www.dodig.mil.


TO REPORT FRAUD, WASTE, AND ABUSE, OR MISMANAGEMENT

Conlacllhe DoD 010 Holline by telephone al (800) 424-9098, bye-mail at hOlline@dodig.mil
or in writing:
                                      Defense Hotline
                                      The Pentagon
                                      Washington, D.C.
                                      20301-1900


REPORT TRANSMITTAL

We are providing this report for infonnation and use. We considered management comments to
our findings in preparing this final report. The Under Secretary of Defense for Acquisition,
Technology, and Logistics comments and Military Department comments conformed to the
requirements of DoD Directive 7650.3, "Follow-up on General Accounting Office (GAO), 000
Inspector General (000 1G), and Internal Audit Reports," June 3, 2004. Therefore, additional
comments are not required. The complete text of the comments is in the Management
Comments section of this report. The DoDIG Follow-up/GAO Affairs Directorate will arrange
follow-up aClions on implementing the reports recommendatiO~




                                            m;~~

                                       Assistant Inspector General
                                      for Inspections and Evaluations




                                                           Department of Defense Office of Inspector General
                                                                                    Report No. 1£·2008-004
Table of Contents 


Executive Summary             	                                                                    i


Background and Overview               	                                                             1


   •   The Randolph-Sheppard Act—Description        	                                              1           

   •   The Javits-Wagner-O’Day Act—Description        	                                            3           

   •   The Interaction Between JWOD and R-SA 	                                                     4

   •   Non-Profit Organizations—Roles and Compensation 	                                           6

   •   How Did We Get To Where We Are? 	                                                           7


Observations on Management Procedures	                                                             9


Section 1
   •	 Application of the Randolph-Sheppard Act / Javits-Wagner-O’Day Act to 

      Military Dining Facilities                                                                    9              

         o	 Randolph-Sheppard Act                                                                  10               

         o	 Javits-Wagner-O’Day Act                                                                14               


Section 2
   • The Cost of Food Service and Military Dining Facilities             	                         15                  


Section 3
   • Requirements – Contracting for Best Value         	                                          18


Section 4
   •   Randolph-Sheppard Act Policies – Multiple Sources	                                         23 


Conclusions          	                                                                            30           


Appendixes
       A. Scope and Methodology          	                                                        31               

       B. FY 2007 National Defense Authorization Act, Section 856 	                               35 

       C. Department of Defense and Department of Education Memorandum of 

           Understanding                                                                          39           

       D. Hawaii (Army) Arbitration Report        	                                               43           

       E. Department of Defense, Office of the General Counsel Randolph-Sheppard 

           Act Letter–November 12, 1998                                                           47               

       F.	 State Licensing Agency Set-Asides                                                      53               





                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-004
Table of Contents (Continued)
     G.	 Applicability of the Javits-Wagner-O’Day Act and Randolph-Sheppard Act 

          to Military Dining Facilities – March 16, 2007                           57 

     H1. Total Cost of DoD Food Service Contracting                                59                     

     H2. Summary of DoD Food Service Contracts                                     60                     

     I. 	 Buckley Air Force Base Analysis                                          61 

     J. 	 Department of Education Inspector General Report – July 31, 2007         65 

     K. 	 Department of Defense, Department of Education, and Committee for 

          Purchase Joint Policy Recommendations                                    73 

     L. 	 Legislative Proposal: Enact Joint Policy Recommendations                 85                     

     M. Management Comments                	                                       95                     

     N. Installations Visited 	                                                   103 

     O. Acronym List 	                                                            105 

     P. 	 Report Distribution                                                     106 





                                                      Department of Defense Office of Inspector General
                                                                               Report No. IE-2008-004
Executive Summary
DoD Assessment of Contracting With Blind Vendors and Employers of
Persons Who are Blind or Have Other Severe Disabilities

Background and Overview
Section 856 of the John Warner National Defense Authorization Act for Fiscal Year 2007
(Appendix B) directed the Department of Defense Inspector General (DoD IG) and Department
of Education Inspector General (DoEDIG) to review management procedures under the
Randolph-Sheppard Act (R-SA), sections 107-107f, title 20, United States Code (20 U.S.C. 107-
107f) and the Javits-Wagner-O’Day (JWOD) Act (41 U.S.C. 46–48c).

The Department of Education is the executive agency responsible for overseeing policy
implementation of R-SA activities and procedures within the Federal Government.

The Committee for Purchase from People who are Blind or Severely Disabled (CFP) is the
independent Federal agency that administers the JWOD program, now called the “AbilityOne
Program.”

The Randolph-Sheppard Act. The purpose of the enactment of the R-SA in 1936 and
subsequent legislative revisions in 1954 and 1974 was to:

   •   “…provide blind persons with remunerative employment,

   •   enlarge the economic opportunities of the blind, and,

   •   stimulate the blind to greater efforts in striving to make themselves self-supporting.”

Javits-Wagner-O’Day Act. Enacted in 1938, the original Wagner-O’Day Act provided
employment opportunities for people who are blind by allowing them to manufacture mops and
brooms to sell to the Federal Government. In 1971, under the leadership of Senator Jacob Javits,
Congress amended the Act to include people with severe disabilities and allow the program to
provide services to the Federal Government. The goal of JWOD is to “provide training and
employment opportunities for persons who are blind or have severe disabilities.”

The Interaction Between JWOD and R-SA. JWOD’s mission is to provide employment
opportunities for people who are blind or have other severe disabilities in the manufacture and
delivery of products and services to the Federal Government. The R-SA provides employment
opportunities for the blind with emphasis on management opportunities. Advocates of each Act
have argued their program applies to military dining facilities contracts. The acquisition process
for these contracts has been controversial, requiring court rulings on various aspects of the
relationship between JWOD and the R-SA.


                                                            Department of Defense Office of Inspector General
                                                                                     Report No. IE-2008-004
                                                 i
How Did We Get to Where We Are?
As DoD began outsourcing more food services positions following the Cold War, various groups
sought advantage in gaining contracts under the R-SA and JWOD Acts. Each of the Military
Departments developed different priorities for the use of DoD personnel in support of military
dining facilities, based on Service-unique mission requirements. As military dining facility
contracts evolved and expanded, the two conventions that emerged were legislative R-SA
priority and JWOD preference. Regardless of the type of contract, DoD retains the overall
management role for operation of military dining facilities.


Observations on Management Procedures. To identify findings and develop
recommendations, we examined four issues under R-SA and JWOD Act programs, as they relate
to military dining facilities, their relation to the cost of doing business, and compliance.

   1. Application of R-SA/JWOD to Military Dining Facilities.

   2. The Cost of Food Service and Military Dining Facilities.

   3. Requirements—Contracting for Best Value Without Compromising Mission.

   4. Policies—Multiple Sources.

Application of R-SA and JWOD to Military Dining Facilities. Congress clarified their intent
about R-SA and JWOD relative to military dining facilities in the FY 2007 National Defense
Authorization Act, Section 856(d). The Act defined the term “military dining facility” as “a
facility owned, operated, leased or wholly controlled by the Department of Defense and used to
provide dining services to members of the Armed Forces, including a cafeteria, military mess
hall, military troop dining facility, or any similar dining facility operated for the purpose of
providing meals to members of the Armed Forces.”

Given the applicability of R-SA/JWOD to military dining facilities, 41 U.S.C. Section 418b (a)
requires that DoD develop and issue procurement guidance. The Federal Acquisition Regulation
(FAR) and the Defense Federal Acquisition Regulation Supplement (DFARS) contain JWOD
guidance but no R-SA guidance. The Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics (OUSD[AT&L]) is currently developing a Defense Federal
Acquisition Regulation Supplement (DFARS) case for R-SA contracting.

Recommendation 1. Promulgate DFARS policy, procedures, and guidance, as well as
appropriate solicitation provisions, to govern DoD’s contracting process for operation of a
military dining facility under the R-SA. (Office of Primary Responsibility: OUSD[AT&L]).

The Cost of Food Service and Military Dining Facilities. During interviews for this report,
the consensus among program managers and contracting officials was that application of the
statutory JWOD mandate risks the possibility of monopolistic pricing. Program managers
believe the law impedes competition of food service contracts. Analysis indicates costs vary

                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-004
                                               ii
from a low of $2.14 per meal for a contract awarded to a small business based on competition to
a high of $6.45 per meal for a JWOD contract. The JWOD Act stipulates that a JWOD vendor is
a mandatory source for products and services on the Procurement List.

The DoD total budget for food service contracting is $3.245 billion dollars for FYs 2005–2009.
R-SA prime contracts comprised 45 percent or $1.4 billion of this total. JWOD prime contracts
comprised 15 percent or $493 million and Small Business comprised 12.9 percent or $418
million. Large Business comprised 27.1 percent or $882 million of the total. R-SA and JWOD
food service contractors account for approximately 60 percent of the total value of all such
contracts. Any inflation of costs for these types of contracts will cause a disproportionate
increase in overall contract costs. Because there is currently no DFARS rule for R-SA, tracking
the actual cost of R-SA contracts across DoD is problematic: There is no DFARS-required R-
SA field in the Federal Procurement System Data System-Next Generation.

Recommendation 2. Issue policy directing DoD contracting officers to obtain appropriate cost
or pricing data and supporting information to determine whether any offer for a military dining
facility solicitation presents a fair and reasonable price, as required by 10 U.S.C. 2306 and FAR
Subpart 15.4. This policy should apply to contracts awarded through competitive procedures or
without full and open competition. Coordinate to add an R-SA field to the Federal Procurement
Data System-Next Generation to allow for reporting of R-SA contract actions. (Office of
Primary Responsibility: OUSD[AT&L]).

Requirements—Contracting for Best Value. We identified three management concerns for
complying with the requirement to operate military dining facilities in a cost-effective manner.

      •	 Directed procurement requirements impede competition and the ability to implement cost
         avoidance solutions, such as Base Operation Support and Joint Basing initiatives.

      •	 The introduction of an R-SA or JWOD offer into an otherwise competitive environment
         drives competitors from the field and effectively eliminates meaningful competition.

      •	 R-SA contracts may cost more. The U.S. Army Audit Agency determined that at just
         four installations, the R-SA contracts cost about $2,096,000 more than what non-R-SA
         contracts would cost. 1

R-SA Policies–Multiple Sources. We identified three issues related to R-SA policies, guidance,
and regulations.

      •	 The Randolph-Sheppard Act policies are vague and allow for interpretations that benefit
         the purposes of the interpreter. Clarification is required to strengthen current R-SA
         policies across the board.

      •	 Conflicting R-SA program guidance leads to inconsistent application of the law.
         Noncompetitive statutory preferences and competing priorities (JWOD and R-SA) inhibit

1
    Army Audit Agency, Commentary on Dining Facility Contracts (AA 99-726).
                                                                   Department of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                                      iii
       creative solutions and flexibility in managing the cost of food service delivery. The
       Office of the Secretary of Defense has not sought legislative relief or clarification
       regarding JWOD and R-SA provisions as applied to military dining facilities.

   •	 The Department of Education’s R-SA arbitration policy and processes are unclear to the
      Office of the Secretary of Defense, the Military Departments, and the State Licensing
      Agencies.

Joint Policy Recommendations. As required by Section 848 of the National Defense
Authorization Act for FY 2006, a working group of representatives from DoD, DoED, and the
Committee for Purchase (CFP) submitted their report describing the joint statement of policy to
specified Congressional committees on September 1, 2006 (Appendix K). This report provided a
joint policy statement for the application of JWOD and R-SA to contracts for the operation and
management of military dining facilities. Congress has implemented one of the
recommendations made by the working group. Full implementation of the joint policy
recommendations requires compliance with Administrative Procedures Act requirements and
may require further legislative action by Congress, after appropriate coordination between DoD,
DoED, CFP, and the Office of Management and Budget.

Recommendation 3. Coordinate to publish for public and interagency comment appropriate
policy and regulations to implement the joint policy recommendations as reported to Congress
on August 29, 2006, by DoD, DoED, and CFP. (Office of Primary Responsibility:
OUSD[AT&L])

Recommendation 4. To resolve and clarify issues associated with contracting with employers
or sponsors of persons who have disabilities or who are blind, consistent with military mission
and quality of life programs, USD(AT&L) should forward a legislative change request through
the Office of Management and Budget to Congress. This change request should enact the
provisions of the DoD, DoED, and CFP joint policy recommendations. Appendix L provides
proposed legislative language, originally developed by OUSD(AT&L), for this request. (Office
of Primary Responsibility: OUSD[AT&L]; Office of Coordinating Responsibility: Office of
the Under Secretary of Defense, Personnel and Readiness, DoD Legislative Affairs office, DoD
Acquisition Resources and Analysis, DoD General Counsel).

Management Comments
We provided the draft report to OUSD(AT&L) and the Services for review and comment on
November 21, 2007. Additional coordination resulted in elimination of two of the original six
recommendations and modification of others, as well as expansion of certain parts of the report.

OUSD(AT&L) and the Services concurred with the four recommendations in this report. The
full versions of Management Comments are in Appendix M.




                                                            Department of Defense Office of Inspector General
                                                                                     Report No. IE-2008-004
                                                iv
Background and Overview

Section 856 of the National Defense Authorization Act (NDAA) for Fiscal Year 2007 (Appendix
B) directed the Department of Defense Inspector General (DoD IG) and Department of
Education Inspector General (DoED IG) to review management procedures under the Randolph-
Sheppard Act (R-SA), sections 107-107f, title 20, United States Code (20 U.S.C. 107-107f), and
the Javits-Wagner-O’Day Act (JWOD) (41 U.S.C. 46–48c). This report documents the findings
and recommendations of this joint review.

As required by Section 856, this report includes:

      •	 “Findings of the Inspectors General regarding the management procedures reviewed;”
         and

      •	 “Such other information and recommendations as the Inspectors General consider 

         appropriate.” 


On December 19, 2006, the Inspectors General of the DoD and DoED signed a memorandum of
understanding (Appendix C) to review the program guidance and management procedures for R-
SA and JWOD with respect to the operation of military dining facilities. 1 (See Appendix A—
Scope and Methodology.)

The DoED is the executive agency with responsibility for overseeing policy implementation of
R-SA activities and procedures within the Federal Government. The DoED “. . . shall conduct
periodic evaluations of the program. . . and take such other steps, including the issuance of such
rules and regulations, as may be necessary or desirable in carrying out the [R-SA]
provisions. . . .” 2

The Committee for Purchase from People who are Blind or Severely Disabled is the independent
Federal agency that administers the JWOD program.


The Randolph-Sheppard Act—Description
The R-SA was enacted in 1936 (with revisions in 1954 and 1974) to provide employment
opportunities for blind persons and business management opportunities for blind vendors.




1
    Section 856 of the NDAA for FY 2007 defines the term “military dining facility” as “a facility owned, operated,
    leased or wholly controlled by the Department of Defense and used to provide dining services to members of the
    Armed Forces, including a cafeteria, military mess hall, military troop dining facility, or any similar dining
    facility operated for the purpose of providing meals to members of the Armed Forces.”
2
    20 U.S.C., 107a(b).
                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                          1
The Act was to:

      •	 “…provide blind persons with remunerative employment,

      •	 enlarge the economic opportunities of the blind, and

      •	 stimulate the blind to greater efforts in striving to make themselves self-supporting.”

The 1936 legislation stipulated blind vendors could operate vending outlets in Federal buildings.
This legislation achieved limited success for blind vendors because agency officials had
discretionary authority to approve blind vendor’s operations. The original legislative language
did not specify R-SA had a “priority” provision.

The revisions in 1954 added additional language to cover vending machine operations and
changed “Federal buildings” to “Federal properties.” However, the revisions did not change the
discretionary authority of agency officials.

The 1974 amendment included the following provisions:

      •	 Established the priority for blind vendors to operate vending facilities on Federal 

         properties. 


      •	 Expanded the scope of blind vendor opportunities to include “operation of cafeterias” to
         the list of “vending facilities,” but did not define “cafeteria.” 3

      •	 Designated the Department of Health, Education and Welfare, now DoED, specifically
         the Commissioner of Rehabilitative Services Administration (CRSA) within the Office of
         Special Education and Rehabilitative Services (OSERS), as the Federal Government’s
         executive agent for R-SA.

      •	 Established a Federal-State relationship that increased the role of DoED.

              	   Stipulated that (1) CRSA represents the Federal Government in negotiating with
                   and prescribing regulations affecting the States; (2) State Licensing Agencies
                   (SLAs) represent the individual States and the State-licensed blind vendors.

              	   Required the SLAs to cooperate with the CRSA in carrying out the objectives of
                   the R-SA.

      •	 Directed CRSA to publish regulations ensuring the priority of blind vendors in the
         “operation of vending facilities on Federal property.”

      •	 Directed CRSA to prescribe regulations “to establish a priority for the operation of
         cafeterias on Federal property by blind licensees” when the Commissioner determines, in

3
    20 U.S.C. 107d-3(e).
                                                                Department of Defense Office of Inspector General
                                                                                         Report No. IE-2008-004
                                                   2
       consultation with the head of the affected installation, that such operation can be provided
       at a reasonable cost and high quality.

   •	 Expanded the scope of the R-SA to include management functions previously 

      considered beyond blind vendors’ capabilities. 


The legislative history (Congressional Record - House, November 20, 1974, pages 36614—
36621) recorded the floor discussion that persuaded Congress to override the President’s veto of
the 1974 bill. The winning arguments stressed “the Randolph-Sheppard legislation requires
appropriated funds only for administrative expenses” on the part of the DoED because “the
stands operated by the blind are self-sustaining” (Congressional Record at 33616, third column).
Arguably, no Defense appropriations or nonappropriated fund revenues were to be used to
implement the 1974 amendment. However, such a reservation was not expressly included in the
text of the statute, so it is equally arguable, at this point, that Defense funds can be used (and the
courts have upheld this interpretation). The SLAs were to bear the cost of providing all training,
food inventory, uniforms, equipment, equipment maintenance, and other resources for a licensee
to operate a cafeteria or other vending facility.

With the 1974 amendment, the SLAs became responsible for implementing R-SA policies at the
State level. Consequently, the SLAs and all Federal agencies look to DoED/OSERS/CRSA for
policy, regulations, guidance, and oversight of their R-SA programs. However, each SLA
operates under its own internal set of rules.

The result is that States, Territories, and the District of Columbia have more than 50 separate
SLA programs, operating autonomously with different staffing levels, priorities, and procedures.

In publishing regulations to implement the 1974 amendment, specifically with regard to
“operation of a cafeteria,” the DoED emphasized standards by which to determine whether to
grant a State priority in operating a cafeteria on Federal property. In the Federal Register, Vol.
42, No. 56, Wednesday, March 23, 1977, page 15809, the DoED regulations clearly
contemplated the R-SA would apply only when the agency has decided to issue a solicitation for
a private source to operate the cafeteria. Then, only when the State can demonstrate the “State
licensing agency is capable of directly operating the cafeteria in a manner comparable to the
operation of a cafeteria by a private firm within the food service industry.” Additionally, the
criteria for evaluating the State’s capability included “sanitation practices, personnel, staffing,
menu pricing and portion sizes, menu variety, budget and accounting practices.” (Title 34,
section 395.33(b), Code of Federal Regulations [34 CFR 395.33(b)], July 1, 2002.) Such criteria
ensure State-licensed blind vendors provide cafeteria services at a cost and quality comparable to
that otherwise available to Federal employees.


The Javits-Wagner-O’Day Act—Description

The Wagner-O’Day Act, enacted in 1938, provided employment opportunities for people who
are blind in the manufacture of mops and brooms to sell to the Federal Government. In 1971,
Senator Jacob Javits, sponsored an amendment to this act to include people who are severely
                                                               Department of Defense Office of Inspector General
                                                                                        Report No. IE-2008-004
                                                  3
disabled and allow the program to provide services to the Federal Government. Hence, the
Javits-Wagner-O’Day Act (JWOD), enacted in 1971, provided “training and employment
opportunities for persons who are blind or severely disabled.”

The Committee for Purchase from People Who Are Blind or Severely Disabled (Committee or
CFP) is the Federal independent agency that administers the JWOD program. The Committee is
neither an advisory nor a regulatory entity. The CFP has 15 members appointed by the
President—11 represent governmental agencies and four are private citizens. The Committee has
long standing partnerships with NISH (not an acronym) and the National Industries for the Blind
(NIB), who represents the local nonprofit organizations (NPOs) across the country. NISH and
NIB are jointly referred to as Central Nonprofit Agencies. NISH and NIB provide the interface
between the qualified local NPOs and the Committee. The local NPOs pay NISH or NIB a
percentage of the value of Federal contracts that they receive.

The Committee currently works with over 600 NPOs across the country, as well as in Puerto
Rico and Guam, to provide employment opportunities for people who are blind or severely
disabled. Under the JWOD program, the Committee annually publishes a procurement list of
commodities and services that it considers suitable for purchase by the Federal Government from
qualified NPOs for the blind and disabled. To place any commodity or service on the
procurement list, the Committee must engage in formal rule making under the Administrative
Procedures Act, 4 including public comment and the concurrence of the affected Federal agency.
Commodities and services appearing on the procurement list constitute a mandatory source of
supply for all federal agencies (Title 41, section 51-5.2, Code of Federal Regulations [41 CFR
51-5.2], October 14, 2003).

In the November 27, 2006 Federal Register notice (71 FR 68492), the Committee changed
“JWOD program” to “AbilityOne Program.” During the transition of the name change, the two
terms have been used interchangeably.

The Interaction Between JWOD and R-SA
AbilityOne (JWOD) focuses on providing blind and severely disabled persons with a “sheltered
work environment.” 5 Because of the various “supports” (e.g., training, special equipment,
transportation, medication, close supervision, and on-the-job assistance) provided to AbilityOne
employees, a local NPO performs more services and incurs exceptional costs for “reasonable
accommodation” of the workers’ disabilities under an AbilityOne contract than any other
contractor would with a workforce that does not include persons who are severely disabled. The
degree of disability or blindness covered by JWOD is more profound than under any other
statute. The R-SA provides employment opportunities for persons who are blind with emphasis
on entrepreneurial and management opportunities, with the goal of enabling these persons to
become self-supporting. Since the early 1990s, advocates of each Act have argued their program
applies to military dining facilities contracts. While hundreds of DoD dining facility contracts


4
    5 U.S.C. 553. 

5
    NISH v. Cohen, 247 F.3d 197 (4th Cir. 2001). 


                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-004
                                                     4
perform to standard each year without controversy, a few applications for such contracts have led
to court rulings on various aspects of the relationship between JWOD and R-SA.

For example, litigation proceedings addressed two questions:

   •	 Is the R-SA a procurement statute that applies to military dining facility contracts?

   •	 Which statute governs who gets the contract if a solicitation for “operation of a cafeteria”
      involves offers representing both JWOD and R-SA interests?

In November 1998, an arbitration panel convened by the DoED reviewed the legislative history
of the R-SA and concluded the R-SA was never intended to apply to contracts using appropriated
funds (Hawaii Division of Vocational Rehabilitation Department of Human Services v. U. S.
Department of Defense, Department of the Army, Arbitration Case No. R-S/97-18. [See
Appendix D.]). On November 12, 1998, the DoD General Counsel wrote a memorandum
concluding the R-SA applied to contracts for “operation” of military dining facilities, but did not
apply and could not be applied to contracts for mess attendants and other discrete dining support
services when the DoD operates the cafeteria. (See Appendix E.)

The United States Court of Appeals for the Fourth Circuit, in NISH v. Cohen, 247 F3d 197, 204-
205 (4th Cir 2001) ruled that:
               The provisions of the RS Act clearly fit this sweeping definition of procurement.
               Indeed, it authorizes the Secretary of DOE to secure “the operation of cafeterias
               on Federal property by blind licensees…whether by contract or otherwise.”

The Court of Appeals also noted that:
               The RS Act deals explicitly with the subject at issue—the operation of
               cafeterias—whereas the JWOD Act is a general procurement statute. Because
               the RS Act is a “specific statute closely applicable to the substance of the
               controversy at hand,” it must control.

Section 856(a)(1) of the John Warner NDAA for Fiscal Year 2007, Oct. 17, 2006, P.L. 109-364,
Div A, Title VIII, Subtitle E, section 856(a), 120 Stat. 2347, 2349, provides:
               The Randolph-Sheppard Act (20 U.S.C. 107 et seq.) does not apply to full food
               services, mess attendant services, or services supporting the operation of a
               military dining facility that, as of the date of the enactment of this Act, were
               services on the procurement list established under section 2 of the Javits-
               Wagner-O'Day Act (41 U.S.C. 47).

Therefore, DoD and DoED treat the R-SA as a procurement statute and the Military Departments
can provide a priority for blind vendors when a contracting officer determines the contract will
be for “operation of the dining facility.” However, the JWOD and other socio-economic
preferences govern contracts for mess attendant services, dining support services, or other
services supporting DoD operation of the cafeteria. Further, if there is a conflict between R-SA
and JWOD, then the R-SA provisions are the dominating factors for the overall “operation” of
the cafeterias, but the JWOD is controlling over the general services that support the operation.

                                                                     Department of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                       5
Nonprofit Organizations—Roles and Compensation
As previously noted, the Committee partners with NISH and NIB, who represent local nonprofit
organizations (NPOs). The NPOs under the JWOD umbrella provide both products and services.
The annual “Procurement List” specifies products and services suitable for procurement by
specified entities of the Government. The list provides location-specific options and mandates a
Federal contracting officer to sole source those products and services. Local NPOs can influence
the products and services on the procurement list. For this review, we have restricted our
discussion to JWOD services related to military dining facilities.

The NISH and NIB perform vastly different functions for JWOD than State Licensing Agencies
(SLAs) do for R-SA. Under the JWOD program, the Committee renders decisions on which
products are put on the Procurement List and provides policy guidance. The NISH and NIB
work closely with NPOs to coordinate contracts, market their services, and assist the NPOs in
business decisions. A State licensing agency is simply a governmental agency that processes,
approves, and files paperwork (licenses). The States provide little or no hands-on participation
in helping the blind vendor. Additionally, SLAs are revenue-generated functionaries. They are
not “non-profit” in the same sense as the AbilityOne agency.

Under the JWOD program, the Central Nonprofit Agencies receive compensation under the
provisions of 41 CFR 51-3.5, July 1, 2006. 6 This Part provides that “A central nonprofit agency
may charge fees to nonprofit agencies for facilitating their participation in the JWOD Program.
Fees shall be calculated based on nonprofit agency sales to the Government under the JWOD
Program. Fees shall not exceed the fee limit approved by the Committee.” Currently, NISH
may charge up to 3.75 percent of nonprofit organizations total annual revenue and NIB may
charge up to 3.83 percent. These fees pay for community rehabilitation projects and other
programs to benefit blind or severely disabled persons who are so profoundly blind or disabled
that they cannot work.

Under R-SA, the DoED provides policy guidance while SLAs serve as a nexus between the blind
vendors and the Federal agencies. In 40 states, the SLA also receives a percentage of the gross
revenues from R-SA ventures. These percentages range from 1.5 percent to 50 percent on
certain large contracts (Appendix F). DoD has no oversight of how the State spends or
distributes these profits/fees.

The 1974 R-SA amendments also negatively affect the preferences afforded the small business
community in other legislation, such as the Historically Underutilized Business Zone
(HUBZone) Act, Section 8(a), and other Small Business Administration (SBA) set-aside
programs. Assuming the R-SA applies to appropriated fund contracts, the Government
Accountability Office (GAO) ruled in a bid protest (Department of the Air Force
Reconsideration, B-250465.6, B-250465.7, B-250783.2, 72 Comp. Gen. 241, 93-1 CPD 431,
June 4, 1993) that the R-SA takes “priority” over all small business laws, with respect to a
particular procurement that is of a type to which the Act applies. In that case, the State of
Mississippi displaced the incumbent small disadvantaged business owner from a set-aside under
Section 8(a) of the Small Business Act.
6
    41 CFR, 51-3.5, “Public Contracts and Property Management, Central Nonprofit Agencies,” July 1, 2006.
                                                                      Department of Defense Office of Inspector General
                                                                                               Report No. IE-2008-004
                                                         6
How Did We Get to Where We Are?
Historically, the military Services have operated dining facilities using in-house (active duty or
DoD civilian) personnel. With the end of the Cold War and DoD’s goals to downsize and
reshape force structure, DoD began to outsource some of the services that support the operation
of military dining facilities. The extent of contracted services varies installation by installation,
and even varies among facilities at a single installation, to meet the military requirement to train
and develop an adequate force of deployable food services managers, cooks, and servers.

Despite these contracting efforts, DoD retains the overall management role for operation of
military dining facilities. Regardless of the nature of the contractor presence, Services Squadron
Commanders, Installation Food Service Managers, or Base Supply Officers are ultimately
accountable to their customers and the chain of command for the management of military dining
facilities. The military retains the responsibility to operate the dining facilities primarily as a
matter of troop readiness, carefully controlling the nutritional quality and content of a military
member’s diet. DoD also maintains responsibility to:

   •    plan all the menus; 

   •    obtain raw food or identify the source from which to order raw food at DoD expense; 

   •	   plan the budget; 

   •	   bear the risk of loss associated with the operation;

   •	   respond to customer complaints; and 

   •	   comply with environmental and health safety laws, and so forth. 


Significantly, DoD:

   •	 identifies and restricts those persons who can be served as “customers” in military dining
      facilities;
   •	 issues identification cards or otherwise controls the list of eligible persons;
   •	 saves the contractor from all the expense and effort of marketing the services; and
   •	 performs all the strategic planning (including facility location, size, configuration, and
      upgrade, or replacement) associated with a food operation.

As DoD began outsourcing some of the dining facility services, various groups competed for
contracts under the R-SA and JWOD Acts. Each of the Military Departments developed
different priorities for the use of DoD personnel in support of military dining facilities, based on
Department-unique requirements. During this review, we determined that Services’ priorities
typically resulted in two types of military dining facility contracts.

   •	 Full Food Service (FFS): The contractor can be asked to provide all labor and
      management required to serve food in a military dining facility, including preparation of
      meals. Even in a dining facility where military food specialists and cooks ordinarily
      work, a contract might include a contingency capability to fill food-handling and cooking
      positions on a temporary basis when the military members deploy. If there is even one
      cook available to fill contingencies, the contract is characterized as FFS. Active duty or
      U.S. Government civilian personnel perform contract management and oversight
                                                              Department of Defense Office of Inspector General
                                                                                       Report No. IE-2008-004
                                                  7
           functions, as well as meal planning, strategic planning, and all the other food operation
           managerial functions detailed above.

       •	 Dining Facility Attendant/Mess Attendant: The contractor provides the labor required to
          perform discrete support functions related to military dining facility operations, up to but
          not including meal preparation. Active duty personnel or U.S. Government civilians
          perform meal preparation and other higher-level management functions in-house.

As military dining facility contracts evolved and expanded, the two conventions that emerged
were legislative R-SA priority and JWOD mandate. We note that the SBA programs enjoyed a
set aside only when neither JWOD nor R-SA vendors had interest or capability to respond to a
solicitation.

Because of the 1974 R-SA amendments and the addition of “operation of cafeterias” to the scope
of “vending facilities,” members of the R-SA community are increasing their interest in the
operation of military dining facilities. As previously described, this interest has led to litigation
over the award of these contracts between R-SA and JWOD entities, as the two groups view the
preferences established under the respective statutes as competitive. However, the courts have
ruled that, “to the extent a conflict exists between [the] two statutes, the RS Act must control.”
The R-SA must control as a “specific statute closely applicable to the substance of the
controversy at hand.” 7 The only arguable “conflict” between these statutes is with regard to
“operation of a cafeteria.”

After several rounds of litigation, it is conceivable some contracts for operation of a cafeteria had
been awarded to a JWOD NPO, or contracts for mess attendants may have been awarded under
the R-SA.

The basis for this litigation is the lack of clarity as to the intent of the R-SA as it relates to
military dining facilities. This has led to differences in interpretation of key aspects of the R-SA.

To clarify these issues, Congress recently passed additional legislation.

       •	 Section 853(a) of the NDAA for Fiscal Year 2005 (Public Law 108-36), “Contracting
          with Employers of Persons with Disabilities,” made the R-SA inapplicable to mess hall
          services under existing JWOD contracts. Section 853(b) made JWOD inapplicable to
          mess hall services under existing R-SA contracts. This provision is often referred to as
          the “no poaching” provision.

       •	 Section 856(d) of the FY 2007 NDAA stated “The term ‘military dining facility’ means a
          facility owned, operated, leased, or wholly controlled by the Department of Defense and
          used to provide dining services to members of the Armed forces, including a cafeteria,
          military mess hall, military troop dining facility, or any similar dining facility operated
          for the purpose of providing meals to members of the Armed forces.” This section made
          clear that R-SA applied to military dining facilities.
7	
     NISH v. Rumsfeld, 348 F. 3d 1263, 1272 ( 10th Cir 2003).
     NISH v. Cohen, 247F3d197, 205 (4th Cir. 2001).
                                                                Department of Defense Office of Inspector General
                                                                                         Report No. IE-2008-004
                                                           8
Observations on Management Procedures

This part of the report examines the management procedures under the R-SA and JWOD Act as
they apply to military dining facility contracting.

Application of the laws, policies, and regulations related to these two acts has resulted in
eliminating the discretion of commanders, contracting staffs, and food service management
personnel to execute best-value contracting decisions in the award of military dining facility
contracts.

To identify findings and develop recommendations, we examined four issues under R-SA and
JWOD Act programs, as they relate to military dining facilities, the cost of doing business, and
compliance.

   1. Application of R-SA/JWOD to Military Dining Facilities.

   2. The Cost of Food Service and Military Dining Facilities.

   3. Mission Requirements—Contracting for Best Value without compromising mission.

   4. Policies—Multiple Sources.


Section 1
Application of the Randolph-Sheppard Act/Javits-Wagner-O’Day Act to Military Dining
Facilities. The R-SA and the JWOD Act are among the statutes that can be considered in
developing solicitations for services on Federal property. The R-SA provisions are more
specific, and in the context of this report, apply only to the “operation” of a military dining
facility, if at all. The JWOD Act is more general and the “Nonprofit agencies designated by the
Committee are mandatory sources of supply for all entities of the Government for commodities
and services included on the Procurement List.” (See Table 1.)

                                     Statutory Preference
                      R-SA                                        JWOD
          Priority in operating vending          Mandatory source for products and
          facilities on Federal property         services on Procurement List

     Table 1. Statutory Preference


Randolph-Sheppard Act
This review revealed three management concerns related to military dining facility services
contracting under the R-SA:

                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-004
                                                 9
    •	 Characterization of a military dining facility as a “vending facility” and references to
       “cafeteria.”

    •	 Inconsistent application of the DoED and DoD “Vending Facility Program for the Blind”
       regulations governing the “operation of cafeteria” contracting proposals.

    •	 No procurement guidance as required under 41 U.S.C. 418b (a), “Publication of Proposed
       Regulations.”

Characterization of a Military Dining Facility as a “Vending Facility” and References to a
“Cafeteria.” In a November 12, 1998, memorandum, the DoD General Counsel stated the R-SA
is generally applicable to contracts for “operation” of military dining facilities, but not to discrete
services that support a DoD operation. 8 (See Appendix E.) Several Courts have opined that a
contract for “operation” of a military dining facility could fall within the scope of the R-SA. 9
However, other opinions have determined the R-SA cannot legally apply to appropriated fund
contracts for military dining facilities either because the contracts are not for “vending” (sales to
customers who pay with their own funds) or because the services support a DoD “operation.” 10
To the extent that people are not cognizant of the distinctions in the fact patterns and the courts’
actual reasoning, the variations contribute to perceptions of inconsistent compliance.

The definition of “vending facilities” in the R-SA uses the specific term “for the sale of”
which is contrary to the principal purpose of a military dining facility. For clarity, the
principal purpose of military dining facilities is “to provide meal service for enlisted
personnel who are not receiving either an allowance for subsistence or the meal portion
of per diem.” 11 These personnel are commonly referred to as rations-in-kind or
subsistence-in-kind patrons who do not pay for meals obtained at a military dining
facility. Other authorized patrons can eat in a military dining facility on a cash basis;
however, those sales are neither profit generating nor entrepreneurial activities.

Moreover, there is a distinction between the “operation of a cafeteria” at non-DoD sites
(through a “concessionaire” type arrangement, a permit, or license) and a DoD contract
for full food services or dining facility attendants. An analysis of the R-SA, as it applies
to “vending facilities” and more specifically “operation of cafeterias,” infers that the
intent of these retail operations is to give blind vendors with management experience
entrepreneurial opportunities, and a stake in the management of risks associated with
operating a business. As portrayed in Table 2, the blind licensee absorbs no risk,
financial or otherwise, in operating a military dining facility and there is no requirement
for entrepreneurial expertise. Service appropriations or the actual contracts defray all

8
   General Counsel of the Department of Defense letter of November 12, 1998, subj: Applicability of the
   Randolph-Sheppard Act to DoD Military Dining Facilities.
9
   NISH v. Cohen, 95 F. Supp. 2d 497 (E.D. VA 2000) and NISH v. Rumsfeld, 348 F 3d 1263 (10th Cir. 2003).
10
   U.S. Dept of Education, Office of Special Education and Rehabilitation Services, Rehabilitation Services.
    Administration letter of March 13, 1992.
    Dept. of Education Arbitration Panel Decision Under the Randolph-Sheppard Act of November 17, 1998,
    Hawaii Division of Vocational Rehabilitation, Department of Human Services v. U.S. Dept. of Defense,
    Dept. of the Army (Docket No. R-S/97-18).
11
   DoD Financial Management Regulation (FMR), Volume 12, Chapter 19.
                                                                     Department of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                       10
costs, including the contractor’s labor requirements. Because of these conditions, the
blind community refers to military dining facility contracts as “lucrative,” 12 yet they do
not apply this adjective to other types of Federal agency cafeteria operations.

                                   Factor               Non-DoD                DoD
                       Lease                             No Risk              No Risk
                       Payroll                           At Risk              No Risk
                       Inventory                         At Risk              No Risk
                       Equipment                         At Risk              No Risk
                       Consumables                       At Risk              No Risk
                       Capital Replacement               At Risk              No Risk
                       Utilities                         Maybe                No Risk
                       Pest Control                      Maybe                No Risk
                       Trash Pick-Up               Maybe           No Risk
                        Table 2. Non-DoD “Concessionaire” vs. DoD “Contractor” 

                                        Cafeteria Operations




As noted previously, this confusion prompted Congress to define the term ‘military
dining facility’ as:

                 …a facility owned, operated, leased, or wholly controlled by Department of
                 Defense and used to provide dining services to members of the Armed Forces,
                 including a cafeteria, military mess hall, military troop dining facility, or any
                 similar dining facility operated for the purpose of providing meals to members
                 of the Armed Forces. 13

Inconsistent Application of the DoED and DoD “Vending Facility Program for the Blind”
Regulations Governing the “Operation of Cafeteria” Contracting Proposals. The
Department of Education regulations 14 addressing the R-SA priority in award of contracts for
“operation of cafeterias” do not specify whether they apply to military dining facilities. In
general, the DoED regulations allow qualified R-SA proposals to receive the statutory “priority”
if:
    1. The proposal has been compared through a competitive solicitation against other 

    commercial offers. 


     2. The proposal meets all the quality and performance criteria in the solicitation.

     3. The proposal demonstrates the ability of the blind vendor to operate the cafeteria in a
     manner that will provide food service at comparable cost and of comparable high quality as
     that available from other providers of cafeteria services.


12
   “2005 Resolutions of the National Federation of the Blind,” paragraph 2.

13
   FY 2007 NDAA), Section 856d. 

14
   34 C.F.R., section 395, July 1, 2002, DOE Vending Facility Program for the Blind on Federal and Other 

Property. 

                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                         11
      4. The proposal is within the competitive range.

      5. The proposal has been ranked among other competitive proposals.

      6. The proposal ranking is among those offers that have a reasonable chance of being
      selected for final award, AND;

      7. The DoED consults with the installation commander before directing the agency to grant
      the priority.

Because the DoED regulations are not up-to-date with changes in terminology in procurement
laws and regulations, a debate has arisen about whether an agency must make award without
discussions if the SLA’s initial proposal is put into the “competitive range.” SLAs interpret the
DoED definition to assert R-SA priority if their bid falls into the competitive range at any stage
of a solicitation. Their interpretation would bar DoD from opening discussions with any other
offeror or performing any comparative analysis of quality or price. DOD has asserted, with
DoED and CFP agreement, that the R-SA priority shall be determined upon the evaluation of
Final Proposal Revisions (the final competitive range). 15 Arbitration panels under the R-SA
have upheld the DoD interpretation. After the substantial rewrite of FAR Part 15, the
“competitive range” is established based on initial proposals solely for the purpose of deciding
with whom to open negotiations. The initial proposals have not been ranked or evaluated when
they are put into the “competitive range.” In fact, proposals can be in the competitive range even
if they are technically unacceptable, if the contracting officer wishes to conduct discussions to
see if the proposal can be made acceptable. An initial proposal could get into the “competitive
range” even if it represents a “worst value” and unreasonable price. Qualifying for the
“competitive range” means only that the contracting officer wants to talk to the offeror to find
out if the initial proposal is or can be made acceptable. Cost has not been compared at the time
of setting the competitive range. Therefore, it is not useful to focus on the phrase “competitive
range” to the exclusion of all the other criteria set out in DoED’s regulations and the factors in
the solicitation.

The resolution to the “competitive range” issue lies in the R-SA (rather than a stray term in a
regulation) and in the FAR processes for achieving “best value.” The R-SA states that the SLA
offer will take priority only if it is of “comparable” high quality and reasonable price, and only in
“consultation” with the affected installation head. The installation head has a voice in whether or
not an offer is of sufficient value to have a reasonable chance for final award. Under the FAR,
the contracting officer must hold “meaningful discussions” with all offerors in the competitive
range. After discussions, only the best and final proposal revision among all offers can win the
contract. Therefore, the R-SA priority is established when the SLA’s final proposal revision
(after the conclusion of discussions) is ranked among those having a reasonable expectation of
selection for the final award, after discussions and evaluation (ranking) of the final proposal
revisions.


15
     Joint Policy Recommendations, paragraph 8, “Method of Providing the Randolph-Sheppard Priority," Appendix
     K of this report.

                                                                     Department of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                       12
No Procurement Guidance as Required Under 41 U.S.C. 418b(a), “Publication of Proposed
Regulations.” Because the R-SA is traditionally viewed as an entrepreneurial or educational
program affecting “concessions” or licenses for making sales to private customers, rather than a
statute applying to appropriated fund contracts, procurement regulations do not guide these
contracts.

In NISH v. Rumsfeld, 348 F. 3d at 1271, the U.S. Court of Appeals ruled, “Plaintiffs correctly
note that obtaining mess hall services constitutes procurement action under these statutory
definitions.” This determination by the Court enforces the requirements of 41 U.S.C. 418b(a),
which states:

                  …no procurement policy, regulation, procedure, or
                  form (including amendments or modifications thereto) relating to the
                  expenditure of appropriated funds that has

                  (1) a significant effect beyond the internal operating procedures of the agency
                  issuing the procurement policy, regulation, procedure or form, or

                  (2) a significant cost or administrative impact on contractors or offerors, may
                  take effect until 60 days after the procurement policy, regulation, procedure, or
                  form is published for public comment in the Federal Register….

Under the Office of Federal Procurement Policy Act (41 U.S.C. 405, “Authority and Functions
of the Administrator”), the only legally authorized procurement regulations are contained in
Federal Acquisition Regulation (FAR) and the Defense Federal Acquisition Regulation
Supplement (DFARS). Neither the FAR nor the DFARS contain R-SA guidance.

The Department of Education, Commissioner of Rehabilitative Services, Office of Special
Education and Rehabilitative Services (DoED/CRSA/R-SA) is responsible for issuing policy
guidance to the states and their designated SLAs. DoED is also responsible for publishing
regulations explaining the criteria for establishing the R-SA priority. DoED cannot write
procurement regulations regarding DoD source selection processes, acquisition planning,
contract formation, or contract administration. Under 41 U.S.C. 421, “Federal Acquisition
Regulatory Council,” only DoD can issue procurement regulations unique to DoD contracting
officers and DoD appropriated fund contracts. Under 41 U.S.C. 418b, “Publication of Proposed
Regulations,” no procurement regulation, policy, procedure, rule, or form can take effect unless
it is published and the public has an opportunity to comment. Therefore, policy letters issued by
any other agency without following the rules in sections 418b and 421 cannot bind DoD.

DoD opened DFARS case 2006-D064 in November 2006 to incorporate the agreements reached
in the joint policy statement into the Defense procurement regulations. The DFARS Committee
for this case made significant progress until early February 2007, when the case could not move
forward without the R-SA regulation update, an opinion reinforced by the DoD Office of
General Counsel. 16 The DoED provided draft R-SA regulations pertaining to military dining
facilities in April 2007. The DoD provided comments on the draft R-SA regulations to the


16
     E-mail, DoD OGC, February 28, 2007, Subject: R-S Implementation.
                                                                         Department of Defense Office of Inspector General
                                                                                                  Report No. IE-2008-004
                                                          13
DoED in July 2007. 17 The parties met in August 2007 to discuss the update to the R-SA
regulations and agreed to a version of the draft R-SA regulations. DoED stated they would
proceed with internal DoED coordination of the regulations. 18 The DFARS Committee is
shaping the proposed rule to the DFARS based on DoED's R-SA regulations. The DFARS
Committee is waiting to see the latest DoED version of the update to the R-SA regulations the
parties agreed to at the end of August 2007.

In response to the section 856 of the John Warner National Defense Authorization Act for Fiscal
Year 2007 (Public Law 109-163), the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics (OUSD[AT&L]) issued a memorandum on March 16, 2007, to DoD
procurement officials, directing them to implement section 856. (See Appendix G.) This memo
enacted and addressed the applicability of the JWOD Act and the R-SA to the operation of
military dining facility contracts and military dining support services.

Observation 1. DoD has not published any procurement policy, regulation, procedure or form
related to the obtaining and awarding of military dining facility contracts within the scope of the
R-SA. OUSD(AT&L) is currently developing a DFARS case for R-SA contracting.

Recommendation 1: Promulgate DFARS policy, procedures, and guidance, as well as
appropriate solicitation provisions, to govern DoD’s contracting process for operation of a
military dining facility under the R-SA. (Office of Primary Responsibility: OUSD[AT&L]).

Management Comments: OUSD(AT&L) and the Services concurred with Recommendation 1.
The full versions of Management Comments are in Appendix M.


Javits-Wagner-O’Day Act
This review revealed two management concerns related to military dining facility services
contracting under the JWOD Act:

      • JWOD is a mandatory source of supply, but food services managers think R-SA has
      priority for “operation” of military dining facilities.

      •   The JWOD mandate has led to perceived monopolistic pricing practices.

JWOD is a Mandatory Source of Supply but R-SA has Priority. The Procurement List of
products and services available from qualified JWOD suppliers, mandated under 41 U.S.C.
Section 51-5.2 governs mess attendants, dining support services and all other food-related
services that support the operation of a military dining facility, whether that operation is by DoD
or a contractor. As a matter of policy since November 1978, the DoD has taken the position that
the R-SA took priority over JWOD for “operation of a cafeteria.” Possible “conflict” between
JWOD and the R-SA could have arisen with regard to contracts awarded to a JWOD source, but

17
     E-mail w/attachment OSD-ATL, July 30, 2007, Subject: DoD Revisions to Dept of Education Draft R-SA Regs.
18
     E-mails, OSD-ATL, January 9, 2008, through March 20, 2008, Subject: Status of R-SA Regs.
                                                                    Department of Defense Office of Inspector General
                                                                                             Report No. IE-2008-004
                                                       14
which qualify as “operation” of the dining facility. A similar situation could occur with regard to
contracts that were mistakenly awarded to an SLA for support services on the Procurement List
or suitable for performance by a JWOD NPO. Section 856 of the NDAA for FY 2007 resolved
this potential conflict by establishing a permanent “no poaching” rule to maintain the status quo
with regard to such contracts.

The Courts in NISH v. Rumsfeld, 348 F 3d at 1272 took steps to resolve future conflict:

                  It is a general maxim of statutory interpretation that a statute of specific
                  intention takes precedence over one of general intention…Here the RS Act
                  prescribes a priority for blind vendors in the operation of cafeterias on Federal
                  property, whereas the JWOD is a more general procurement statute. We find,
                  therefore, that to the extent a conflict exists between these two statutes, the RS
                  Act must control.

Case law supports the R-SA priority with regard to operation of military dining facilities, except
for those “status quo contracts” awarded to either a JWOD source or to an R-SA State Licensing
Agency (SLA) if the contract was entered into before September 30, 2005, and either is in effect
on September 30, 2005, or was in effect on November 24, 2003. 19 Attorneys for the Military
Departments use the guidance from the Office of the Secretary of Defense, General Counsel
(OSD/GC) in defending arbitration and litigation. Because USD(AT&L) has already issued
policy memoranda about the “no-poaching” provisions of Section 856 and about the mandatory
subcontract for services on the Procurement List, no further recommended action is needed at
this time, pending the publication of the DFARS rule. (See Recommendation 1.)

Section 2

The Cost of Food Service and Military Dining Facilities
The JWOD Act Mandate has led to Monopolistic Pricing Practices. During interviews for
this report, the consensus among program managers and contracting officials was that
application of the statutory mandate risks the possibility of monopolistic pricing. Program
managers believe the law impedes competition of food service contracts.

Table 3 compares food service contracting costs among various types of contracts, such as
HUBZone, 8(a), a hybrid, or JWOD, in the Air Mobility Command. (Similar data for R-SA
contracts were not available. Upon completion of the DFARS rule, such data will be available
through the appropriate procurement automated databases.)




19
     FY 2005 NDAA, Sec. 853 (a) and (b). Also FY 2007 NDAA, Sec. 856 (a) and (b).
                                                                          Department of Defense Office of Inspector General
                                                                                                   Report No. IE-2008-004
                                                          15
                                                                                      SBA
                                          SBA                      SBA              HUBZone &
                                        HUBZone                    8(a)                8(a)                    JWOD
    Navy Region Southwest                         $2.14
    Malmstrom AFB                                                         $4.14
    Tyndall AFB                                                           $3.62
    Shaw AFB                                                              $2.76
    Dover AFB                                                                                  $2.19
    Scott AFB                                                                                                         $6.45
    Travis AFB                                                                                                        $5.94
    McGuire AFB                                                                                                       $6.45
    Table 3. Average Unit Cost per Meal for Different Contract Types
    Source: Air Mobility Command Food Services Contract Cost Comparison (Est. FY 06 – FY 08)




These costs are not indicative of the total cost of putting a meal on the table. The JWOD
contracts were mandatory, sole-source instruments. The Small Business Administration (SBA)
costs were competitive contract awards.

The cost per meal differential between SBA-managed programs and mandated JWOD programs
Provides insight into the pricing effects of procurement mandates. As illustrated, costs vary from
a low of $2.14 per meal for an SBA competed contract to a high of $6.45 per meal for a JWOD
contract. The JWOD Act provides that:

                     The Committee [for Purchase] shall determine the fair market price of
                     commodities and services which are contained on the procurement list and
                     which are offered for sale to the Government by any qualified nonprofit
                     agency…The Committee shall also revise from time to time in accordance with
                     changing market conditions its price determinations with respect to such
                     commodities and services. 1

On January 26, 2007, the Committee released their latest revision of Pricing Memorandum
Number 3 (PR3). The purpose of the memorandum was to prescribe policies and requirements
for recommending the Fair Market Price for an AbilityOne (formerly JWOD) service contract.
This memorandum should help quell dissatisfaction from the field over pricing discrepancies
between competed and directed procurements.

The Federal Acquisition Regulation, Part 8, establishes JWOD contracting and procurement
policies. When applicable, DoD acquisition and contracting officials comply with the FAR
requirements. In some instances, this compliance has led to significantly higher “per meal”
costs.




1
    41 U.S.C. section 47(b).
                                                                              Department of Defense Office of Inspector General
                                                                                                       Report No. IE-2008-004
                                                              16
The Bigger Picture. DoD’s estimated contracted costs for food service in continental United
States (CONUS—includes Alaska and Hawaii) military dining facilities is projected to be $3.245
billion from FY 2005—FY 2009. Approximately $3.193 billion of that cost results from
multiyear prime (full food service) contracts that were already in place at the end of FY 2005
(most recent available). 2

Figure 1 shows end of FY 2005
costs.                                              '"'"
      •	 R-SA 

                                                    """
          45 percent of total dollars 

            or $1400 million 

                                                 •• """
         	 23 percent of total food 

                                               .Q

                                               ;;;
                                                    ""'"
            service contracts or 46 
          .5 "'"
            contracts 
                        .,•
                                               > "'"
                                               w
      •	 JWOD 
                                     .""
          15 percent of total dollars 

            or $493 million 
                       '''''
                                                       0
         	 28 percent of total food 
                           R-SA        JWOD            Small         Large
            service contracts or 58 
                                                      Business       Business

            contracts 


      •	 Small Business
         	 13 percent of total dollars or
            $418 million                            Figure 1. Value of Food Service Prime Contracts – FY 2005
         	 48 percent of total food                Source: OUSD(AT&L)


            service contracts or 96 

            contracts 


      •	 Large Business 

          27 percent of total dollars or $882 million 

          1 percent of total food service contracts or 2 contracts 


Note: The large business contracts represent the U.S. Marine Corps’ two CONUS regional food
service contracts. The other contracts represent actions awarded at the installation level. (The
information above and in Figure 1 on food service cost was derived from Appendixes H1 and
H2, which were provided by OUSD[AT&L], as of September 2005.)




2
    Total Cost of Food Service Contracting, September 2005, OUSD(AT&L).
                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                            17
In addition to food service costs, there are
operational and maintenance costs for
military and DoD labor, inventory (food),          Contractor                        DoD
consumable supplies, capital equipment,        Contract Labor         Military Labor
phased replacement of capital equipment,                              DoD Civilian Labor
utilities (electricity/gas/water),                                    Inventory (Food)
preventive/corrective maintenance, pest                               Consumables
control, and the brick and mortar. Our                                Capital Equipment
analysis of the available data suggests
                                                                      Phased Replacement
that DoD paid about $1.569 billion in FY
                                                                      Utilities
2005 for these operational costs—above
                                                                      Maintenance (PM/CM)
the cost of the actual food service
contracts. These DoD-paid operational                                 Pest Control
costs represent cost/risk avoidance for the                           Brick and Mortar
                                               Table 4. Cost Factors – DoD Military Dining Facility
DoD food service contractor vice what                         (Who Pays for What)
would be required for a non-
governmental operation.

The DoD, as a steward of public funds, should comply with law, while seeking “best value” in
all of its contracting efforts.

Observation 2. R-SA and JWOD food service contractors account for approximately 60 percent
of the total value of all such contracts. Any inflation of costs for these types of contracts will
cause a disproportionate increase in overall contract costs. Cost or pricing data and supporting
information (for example, per meal costs, executive compensation/overhead) must be considered
during source selection and contract formation. Contract administration should include
monitoring for excess costs, poor cost control, and loss of quality.

Recommendation 2. Issue policy directing DoD contracting officers to obtain appropriate cost
or pricing data and supporting information to determine whether any offer for a military dining
facility solicitation presents a fair and reasonable price, as required by 10 U.S.C. 2306 and FAR
Subpart 15.4. This policy should apply to contracts awarded through competitive procedures or
without full and open competition. Coordinate to add an R-SA field to the Federal Procurement
Data System-Next Generation to allow for reporting of R-SA contract actions. (Office of
Primary Responsibility: OUSD[AT&L]).

Management Comments: OUSD(AT&L) and the Services concurred with Recommendation 2.
The full versions of Management Comments are in Appendix M.


Section 3
Requirements–Contracting for Best Value
DoD is obligated to provide quality, cost-effective in-house food service for military members
and eligible DoD civilians. The Secretaries of the Military Departments, as defined in 10 U.S.C.
                                                              Department of Defense Office of Inspector General
                                                                                       Report No. IE-2008-004
                                                 18
101(a)(9), “have discretion to define requirements and make procurement decisions for
contracting military dining facility support. This support includes the operation of military
dining facilities and the ability to ensure that procurement decisions support the readiness of the
armed forces.”

This review identified three management concerns for complying with the mission requirement
to operate military dining facilities in a cost-effective manner.

   •	 Directed procurement requirements impede competition and the ability to implement cost
      avoidance solutions, such as Base Operation Support and Joint Basing Strategies.

   •	 The introduction of an R-SA or JWOD offer into an otherwise competitive environment
      drives competitors from the field and effectively eliminates meaningful competition.

   •	 R-SA contracts may cost more.

Directed Procurement Requirements Impede the Ability to Implement Cost Avoidance
Solutions. Increasing costs of doing business have led the military Services to pursue new cost
saving measures. The Services require flexibility to execute cost saving measures. The R-SA
and JWOD provisions make it difficult to achieve cost reduction targets regarding military
dining facility operations.

Two principal cost saving programs identified during this review were:

   •	 Base Operating Support Contracts

   •	 Joint Basing Strategies

Base Operating Support Contract. Some military installations have opted for Base Operating
Support (BOS) contracts. BOS contracts provide a single all-inclusive contract for the operation
of installations, bases, camps, posts, and stations. These contracts are awarded to promote
integrated and seamless quality-of-life and infrastructure support. Under a BOS contract, all
support requirements, to include food service, are bundled under one contract. The purpose of
the BOS contract is to reduce overall cost through economies of scale and associated reduction in
overhead.

When directed procurements such as JWOD and R-SA provisions enter the equation, costs
increase. During our fieldwork at a BOS installation, the contracting officer estimated that the
additional outside contractor, in his case an R-SA offeror, would drive his food service
contracting costs up by about 40 percent. This mark-up results from the prime BOS contractor
having to negotiate with the respective SLA who then subcontracts with a blind vendor. The
blind vendor partners with a commercial food service vendor that actually operates the dining
facility. Table 5 illustrates the possible additional layers of non-value-added food service
overhead after carving food service out of a BOS contract, often to accommodate an R-SA or
JWOD vendor.


                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-004
                                                 19
                        BOS                        BOS + Food Service Subcontract

                 Prime Contractor                              Prime Contractor
                                                                      SLA
                                                                Blind Licensee
                                                      Food Service Teaming Partner
              Table 5. Base Operating Support Overhead Costs Comparison




Joint Basing Strategies. Similarly, R-SA and JWOD programs potentially hamper execution of
Joint Basing Programs. The joint basing program is designed to create efficiencies and eliminate
redundancy among co-located or geographically proximate installations, consistent with the
common output level standards (COLS). 23

Because the missions at co-located or geographically proximate installations may vary, the
COLS program may be impractical for some base support requirements. However, regardless of
unique mission requirements, “feeding the troops” is a routine and standard function at all
installations. Therefore, the cost savings and efficiencies attributed to joint basing programs
applies to operation of military dining facilities. The presence of an R-SA and/or JWOD vendor
at these installations, or their introduction into the contract process, could eliminate any joint
basing efficiencies gained in the food service area by increasing costs.

The Introduction of an R-SA or JWOD Offer Into an Otherwise Competitive Environment
Drives Competitors From the Field. As previously discussed, the R-SA priority and JWOD
preference affects the commander’s ability to make value-based financial decisions about
military dining facility contracts. This occurs because:

      •	 potentially competitive bidders choose not to participate if they think an SLA or a JWOD
         vendor will be bidding on a contract; and

      •	 the commander feels pressure from the SLA to enter into direct negotiations with, or to
         award to, the SLA so as to avoid costly and time-consuming protest, arbitration, or
         litigation.

Standard contractual language appearing in most food service contract solicitations calls for full
and open competition, even if an SLA or JWOD vendor submits a proposal. However, based on
our interviews with program managers, we conclude that there is a perception within the food
service contracting community that, once an installation engages with an SLA, the contract will
go to the SLA and an R-SA vendor. Potential competitors are reluctant to compete against the

23
     Briefing, IMNE-EUS-PA, 20 Sep 2006. COLS is a DoD initiative intended to create common language and
     toolsets for common delivery of installation support applicable across all U.S. military installations in a
     host-tenant relationship. The COLS framework is intended to assist DoD Components in assessing risk while
     apportioning and managing limited resources.

                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                          20
R-SA priority and JWOD preference. Non-R-SA/JWOD bidders believe that the R-SA or
JWOD vendor will receive the contract. Because this condition reduces real competition,
installations are potentially paying more for food service contracts.

A 1999 review of U.S. Army dining facility contracts by the Army Audit Agency supports this
perception:
                   …competition may have been blunted because original solicitations for
                   proposals stated that the provisions of the act (R-SA) would apply. Potential
                   offerors therefore knew of the preference for the blind vendor, and may not have
                   submitted proposals. 24

During this 1999 review, a contracting officer stated that he was directed to forego direct
negotiation with the incumbent R-SA vendor in favor of a full and open competition process.
Once that decision was published, his office was repeatedly contacted, not by the blind licensee,
but by the blind vendor’s commercial teaming partner who “encouraged” the contracting officer
to revisit his position and “threatened” to contact his congressional representatives.

R-SA Contracts May Cost More. Food service contracts, traditionally awarded as a base year
plus three to four option periods, have resulted in escalating annual contract costs versus
declining annual contracting budgets. 25 (See Table 6.) Military installations, caught in this
resource dilemma, face decisions regarding how to best use their available funding. Should this
trend continue, installations may not be able to fund their contracts nor will they have the organic
personnel to provide an effective food service operation. Installation commanders must be able
to get the most from their contracting dollars. However, the best food service operation for the
best price requires competition. The Army Audit Agency review stated:

                   Our review showed that dining facility contracts awarded to State licensing
                   agencies for blind persons (under provisions of the Randolph-Sheppard Act)
                   cost more than contracts awarded using Federal Acquisition Regulation’s best-
                   value practices. Interviews with contracting office personnel, contracting
                   officer’s representatives, and contractor personnel indicated that the blind
                   persons associated with the contracts added no value to the contract and the
                   profits they received resulted in additional contract costs. 26

Table 6 cites examples of the additional costs of R-SA contracts (blind licensee and assistant),
above what a non-R-SA contract would cost. 27




24
     AA 99-726. 

25
     HQ, Air Mobility Command (AMC) memo, March 27, 2007, Subject: Contract Reductions. “Specifically, Air 

     Force contract services support reductions total $700M in FY07 and $6.2B across the FY07-11 time frame.”
26
     AA 99-726.
27
     AA 99-726.
                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                         21
                                        Base
               Location                  Yr        Option 1       Option 2     Option 3      Option 4        Total
        Redstone Arsenal
                 Blind Licensee         43,200       43,200        43,200          43,200      43,200        216,000
                       Assistant           N/A          N/A           N/A             N/A         N/A            N/A
        Fort McClellan
                 Blind Licensee         86,400       86,400        86,400          86,400      86,400        432,000
                       Assistant        18,260       18,260        18,260          18,260      18,260         91,300
        Fort Campbell
                 Blind Licensee        200,000      200,000       200,000       200,000       200,000      1,000,000
                       Assistant        39,600       39,600        39,600        39,600        39,600        198,000
        Fort Sam Houston*
                 Blind Licensee         72,200       36,700            N/A           N/A           N/A       108,700
                       Assistant        30,000       20,000            N/A           N/A           N/A        50,000
        Subtotal
                Blind Licensees        401,600      366,300       329,600       329,600       329,600      1,756,700
        Subtotal
                      Assistants        87,860       77,860        57,860        57,860        57,860        339,300
        Combined Total                 489,460      444,160       387,460       387,460       387,460      2,096,000
        *The Government terminated the Fort Sam Houston contract during May 1998


        Table 6. Additional Costs in Contracts Awarded Under the Randolph-Sheppard Act
        Source: Army Audit Agency (AA-726)


Military food service operations are a vital part of DoD’s morale and welfare mission and, hence,
integral to the readiness of the armed forces. Installation commanders struggle to manage budget
reductions while finding alternative methods to provide services. For example, in FY 2007,
Headquarters, Air Mobility Command (AMC) established command-wide standards for common
contracts throughout the command with the goal of reducing costs and ensuring equitable
standards of service. 28 On one hand, the installations must attempt to provide quality services
with reduced expenditures. On the other hand, R-SA and JWOD vendor involvement reduces
competition and drives costs up.

Additionally, as the Buckley arbitration (discussed in Appendix I) demonstrates, the R-SA can
present a conflict with the DoD decisions about use and closure of military facilities, allocation
of military appropriations among competing functions, and mission accomplishment. It may be
more cost-effective to close a military dining facility and provide increased Basic Allowance for
Subsistence in military pay, rather than continue to incur the expenses associated with facilities
operation and maintenance, procurement of raw food, civilian or military managers of the
operation, and any services contracts. Operation of a military dining facility involves much more
than just the services contract. The costs of the facility, utilities, and raw food often exceeds the
cost of the food services contracts. The military Services need to be able to decide whether to
contract out for dining services at all.




28
     Memorandum, Air Mobility Command, April 16, 2006, Subject: AMC Command-Wide Contract Standards.
                                                                             Department of Defense Office of Inspector General
                                                                                                      Report No. IE-2008-004
                                                             22
The R-SA substitutes an SLA for DoD in selecting and overseeing the vendor and team partners
who actually perform the services. Under the R-SA, DoD enters a “prime” contract with the
State. The blind vendor is a “subcontractor” to the State. There is no “privity” of contract
between the DoD and the blind vendor. The State can terminate and replace a blind vendor or
team partner without notifying or consulting the DoD. If the blind vendor has performance
issues, the DoD must work that with the State. Such a scenario makes DoD contract
administration, oversight, and cost control problematic.

OUSD(AT&L) is developing a legislative proposal to address these issues. However, to date,
OSD has not sent this proposal to Congress. (This proposal is addressed in a subsequent
Observation and Recommendation.)



Section 4
Randolph Sheppard Act Policies–Multiple Sources
This review identified three issues related to R-SA policies, guidance, and regulations.

      (Other sections of this report discuss the status of procurement regulations and policies.)

      •	 The Randolph-Sheppard Act policies are vague and lack measures of success.

      •	 Conflicting Randolph Sheppard Act program guidance leads to inconsistent application
         of the law.

      •	 The Randolph-Sheppard Act arbitration process should be more transparent to all 

         stakeholders. 


The Randolph-Sheppard Act Policies are Vague. DoD and the Military Departments have
promulgated guidance that implements the R-SA. 29 The departmental directives mirror the DoD
directive, which mixes guidance for property managers, appropriated fund contracting officers,
and nonappropriated fund instrumentalities. The directives do not use the term “military dining
facility” but rather the term “cafeteria,” which can lead to various interpretations about whether
the directives apply specifically to military dining facilities. 30 Additionally, the criteria and
timing outlined in the directives for granting “priority” under the R-SA are unclear because they
are based on processes and concepts that were removed from the FAR in 1996. The R-SA
regulations are out-of-date, and this can produce confusion.


29
     DoD Directive 1125.3, Vending Facility Program for the Blind on Federal Property, April 7, 1978 with
     latest Change 1 of August 22, 1991.
     Army Regulation (AR) 210-25 of 30 June 2004.
     Secretary of the Navy Instruction 4535.3A of August 1, 2005.
     Air Force Instruction 34-206 of 5 August 1994.
30
     The FY 2007 NDAA, Section 856(d) stated that “cafeteria” included mess halls and military troop dining
     facilities (See Table 7.)
                                                                       Department of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                         23
On July 31, 2007, the DoED issued their report, “Management Procedures under the Randolph-
Sheppard Act and Javits-Wagner-O’Day Act” (Appendix J) as their response to the tasking in
Section 856 of the NDAA for Fiscal Year 2007. In their report, they stated that they concurred
with the applicable findings of GAO Report GAO-07-236: “Federal Disability Assistance:
Stronger Oversight Could Help Assure Multiple Programs’ Accountability.” GAO found that no
performance goals or measures currently exist for the R-SA program and DoED conducted little
oversight of the program. As a result, GAO recommended that DoED establish goals for the R-
SA program and strengthen program monitoring and guidance.

DoED R-SA program guidance is limited to the guidance contained in 32 C.F.R. Chapter 1, Part
395, July 1, 2002. Additionally, the DoED IG report states the following. 31

      •	 DoED plans to issue to SLAs an inventory of policy directives, technical assistance
         circulars, and other written guidance previously issued by DoED relevant to the R–SA
         program. The DoED staff stated that they would place policy guidance on its Web site so
         it will be readily available to program participants, State Government agencies, Federal
         procurement officials, and property-management agencies.

      •	 DoED is working to improve their effort to provide clear guidance. They plan to issue
         new regulations and procedures regarding SLA/R-SA vendor responsibilities and to
         clarify program requirements with regard to military dining facilities. These regulations
         are currently being coordinated through DoD and the Committee for Purchase From
         People Who Are Blind or Severely Disabled (CFP or Committee).

Conflicting Randolph Sheppard Act Program Guidance Leads to Inconsistent Application
of the Law. The Congress, DoED, DoD, and the Military Departments have issued conflicting
guidance to the Military contracting community. The available guidance is contradictory and
lacks clarity. Because of the language in R-SA and JWOD statutes, DoD contracting officers
face the JWOD/R-SA dilemma.

      •	 R-SA vendors have priority. 32

      •	 JWOD vendors are a mandatory source. 33

The R-SA does not define “cafeteria.” The DoED regulations, however, at 32 CFR Chapter 395,
Part 395.1, July 1, 2002, do contain a definition of “cafeteria.” There is no clear link to “military
dining facilities.” Only in the last year did Congress define the term “military dining facility” to
include “cafeteria,” as used in the law (FY 2007 NDAA, Section 856(d)). NISH v. Cohen settled
the question of R-SA priority to perform contract “operation” of a military dining facility. The
JWOD clearly has priority over all services contracts other than “operation of a cafeteria.”



31
     United States Department of Education, Office of Inspector General report of July 31, 2007, Control
     Number ED-OIG/A19H0001. (See Appendix F.)
32
     20 U.S.C. Section 107.
33
     41 C.F.R. Section 51-5.2.
                                                                        Department of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                          24
Table 7 summarizes congressional provisions on R-SA and JWOD in various NDAAs.




         FY 2005 NDAA - Section 853(a) of the National Defense Authorization Act
    (NDAA) for Fiscal Year 2005 (Public Law 108-36), “Contracting with Employers of
    Persons with Disabilities,” made the R-SA inapplicable to mess hall services under
    existing JWOD contracts. Section 853(b) made JWOD inapplicable to mess hall
    services under existing R-SA contracts. (No poaching.)


      .




          FY 2006 NDAA – Section 848 of the National Defense Authorization Act for Fiscal
    Year 2006 (Public Law 108-375), directed DoD, DoED, and CFP to develop a joint
    statement of policy concerning application of the JWOD and R-SA to contracts for
    operation and management of military dining facilities and contracts for food services,
    mess attendant, and other services and for supporting the operation of military dining
    facilities. (See Appendix K-- DoD / DoED/ CFP Joint Policy Recommendations.)




        FY 2007 NDAA – Section 856(a) of the National Defense Authorization Act for
    Fiscal Year 2007 (Public Law 109-364), repealed the “No poaching” provisions in the
    FY 2005 NDAA, again establishing them with slightly different wording.

       Section 856(c) directed the Inspectors General of DoD and DoED to review the
    management procedures under both R-SA and JWOD.

         Section 856(d) defined “military dining facility” as “a facility owned, operated,
    leased, or wholly controlled by the Department of Defense and used to provide dining
    services to members of the Armed Forces, including a cafeteria, military mess hall,
    military troop dining facility, or any similar dining facility operated for the purpose of
    providing meals to members of the Armed forces.” (Expressed congressional intent
    that R-SA applied to military dining facilities.)

    Table 7. NATIONAL DEFENSE AUTHORIZATION ACT (NDAA)
             Randolph-Sheppard / Javits-Wagner-O'Day Provisions

Joint Policy Recommendations. As required by section 848 of the NDAA for FY 2006, a
working group comprised of representatives from DoD, DoED, and CFP submitted their report
describing the joint statement of policy to specified congressional committees on September 1,
2006 (Appendix K). This report provided a joint policy statement on August 29, 2006, for the
                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-004
                                                25
application of JWOD and R-SA to contracts for the operation and management of military dining
facilities. The joint policy statement:

   •	 developed consensus on issues where there had been long-standing confusion or 

      disagreement among parties; 


   •	 established consistency among R-SA, JWOD, and DoD’s missions, and the needs of
      the military services, including cost containment;

   •	 provided more job opportunities for disabled individuals under the R-SA and 

      JWOD; 


   •	 made application of the R-SA priority more understandable and workable for the 

      Military Departments, base commanders, contracting officers, and R-SA and 

      JWOD entities; and 


   •	 reached policy agreement on definition of key terms and concepts, reducing ambiguity
      and uncertainty in the distribution of military food service contracts to R-SA and JWOD
      offerors.

Congress, DoD, and DoED have not fully implemented the recommendations made by the
working group. To date, Congress implemented only Paragraph 3 of the joint policy statement
of August 29, 2006, establishing a “no-poaching” provision with respect to existing JWOD and
R-SA contracts in place on the date of enactment of Section 856. Even with the issuance of the
joint policy and Section 856, there is still confusion among the Military Departments about the
current applicability of the joint policy recommendations. At the urging of DoED,
OUSD(AT&L) issued a memorandum on March 16, 2007, to the procurement community stating
that the joint policy statement was not in effect until implemented in regulations (Appendix G).
One exception was Section 856(a), which was effective the date of enactment of the NDAA for
FY 2007 (no poaching).

Additional specific recommendations in the joint policy statement (Appendix K) that have not
been implemented include:

   •	 Paragraph 1: The ultimate primacy of the use of Defense appropriations to accomplish
      the national defense mission, including the military mission to maintain an in-house food
      service capability, and the need to spend Defense appropriations wisely while supporting
      socio-economic programs to the extent practicable (e.g., by requiring any contract
      provide high quality food to the troops at a cost-effective price).

   •	 Paragraph 2: The essential discretion the Secretaries of the Military Departments must
      exercise in defining requirements, assigning tasks among the workers in a facility, and
      making procurement decisions that support the readiness of the Armed Forces and the
      morale of the military community.

   •	 Paragraph 4: A bright-line standard that R-SA covers only contracts for the “operation of
      a military dining facility” (where DoD has no role other than contract administration

                                                          Department of Defense Office of Inspector General
                                                                                   Report No. IE-2008-004
                                              26
       under FAR Part 42) and that the JWOD Act governs all other food services and dining
       support services contracts.

   •	 Paragraph 5: Recognition that the mandatory subcontract provisions of the JWOD Act
      apply to SLAs and their licensed blind vendors, just as the JWOD Act applies to any
      other contractor. States are not exempt from the Federal requirement to provide jobs
      through AbilityOne nonprofit organizations to blind and severely disabled workers when
      States seek contracts that would require any other contractor to hire those same workers.

   •	 Paragraph 6: Require States to assign at least one blind person per military dining facility
      in a management role in multifacility contracts and provide adequate education, training,
      and on-the-job opportunities for a large number of blind persons to gain and exercise
      skills as food service managers.

   •	 Paragraph 7: Ensure DoD has the authority to use best commercial practices and regional
      business models, including the ability to designate individual dining facilities for
      subcontracting under the Small Business Act, JWOD Act, or other preferential
      procurement programs. SLAs are already eligible under the R-SA to bid on contracts
      under the regional, commercial model. The inability of some States to prepare a suitable
      proposal under such a solicitation should not deter the DoD’s ability to use best business
      practices.

   •	 Paragraph 8: Require maximum competition for contracts in order to assure high quality
      and reasonable price comparable to what DoD could obtain from commercial market
      sources. Accordingly, the R-SA “priority” must be determined based on the best and
      final proposal revisions after discussions with all offerors in the competitive range, in
      accordance with FAR 15.307. DoED’s regulations should not be misconstrued to permit
      sole-source negotiations without discussions with other offerors or to eliminate other
      competitors from the competitive range based only on initial proposals, unless there is a
      documented justification and approval to use noncompetitive procedures. Appropriate
      cost or pricing data (certified or uncertified) and additional supporting information shall
      be obtained to enable the DoD contracting officer to make prudent business decisions and
      determine whether the offer presents a fair and reasonable price.

   •	 Paragraph 9: Enable DoD to award contracts to other than the States when it is in the
      best interests of the Federal Government.

   •	 Paragraph 10: Promptly issues rules codifying the 2006 joint policy.

Full implementation of the joint policy recommendations requires compliance with
Administrative Procedures Act requirements and may require further legislative action by
Congress, after appropriate coordination between DoD, DoED, CFP, and the Office of
Management and Budget. (This is addressed in a subsequent Observation and
Recommendation.)

The DoED Randolph-Sheppard Arbitration Process Adversely Affects DoD Decision-
Making and Mission Accomplishment. Another issue affecting management procedures is the

                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-004
                                               27
arbitration process for settling disputes under the R-SA. In general, when a military installation
issues a solicitation for bids on a contract for military dining facility services and the SLA enters
the bidding process, the R-SA rules trigger mandatory provisions for any prospective blind
vendor who meets the contract criteria and bids within the competitive range. However, DoD
has experienced SLAs petitioning for arbitration to DoED alleging violations of R-SA, even
though the Act was not applicable to the issues at hand.

In at least one instance, the DoD was not afforded an opportunity to challenge a request for
arbitration prior to the DoED rendering a decision on whether or not to grant a hearing. This
process denies the DoD due process at this point in the proceeding.

A recent example at Buckley Air Force Base, Colorado, illustrates this point (Appendix I). A
summary of the case follows.

An Air Force Major Command issued guidance directing all of its installations to review
contracting activities to identify opportunities to reduce overall budget expenditures. One
installation determined it could eliminate the R-SA-operated military dining facility, where very
few enlisted members were stationed and eligible to eat. By closing the facility, the Air Force
could save almost $1 million in real property expenses, as well as save $1.4 million per year.
The installation notified the SLA, and advised them that the contract would not be extended
beyond the current period of performance. The installation explored a number of alternative uses
for the building, including opening an in-house snack bar or sports pub operated by non-
appropriated fund (NAF) Government employees or turning the closed facility over to the State
to operate a food concession under the R-SA. Prior to any final decisions and without
determining the installation’s final intent, the SLA claimed the base was violating their R-SA
priority. However, the installation advised the SLA that the planned facility was not a vending
facility operation within the definition of a cafeteria since the Services Division, as a
nonappropriated fund (NAF) activity, would operate it internally. As a result, the Air Force did
not plan to contract out the food service and, therefore, the R-SA priority would not apply.

The SLA sought relief in the Court of Federal Claims. The SLA requested a preliminary
injunction to prohibit the Air Force from continuing its plans to renovate the dining facility while
the arbitration process took place. The SLA filed two alternative proposed orders:

               1) Require the Air Force to complete renovations in a timely manner and when
               completed, install plaintiffs (SLA) as operators of the new facility;

               2) Enjoin the Air Force from “entering into or performing under contract or
               other arrangement for food services (including, but not limited to, operating the
               facility in-house) at the building…that contained [the cafeteria]…unless and
               until the Air Force has applied the Randolph-Sheppard Act’s priority to that
               contract or other arrangement.

The court ruled that it lack subject matter jurisdiction to hear the case and dismissed it, advising
that the SLA must first submit a formal request for arbitration to the Secretary of Education as
provided under the R-SA. The Secretary of Education granted the arbitration hearing, but did not
afford the Air Force any prior notice or opportunity to dispute the merits of the case. More than
18 months have passed. Because of the ongoing arbitration, the Air Force has not been able to
                                                                     Department of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                      28
renovate or make any decisions about a new use for the closed facility. This example illustrates
an attempt by an SLA to challenge military commanders on non-procurement matters that are
firmly within the military’s authority and outside the scope and congressional intent of R-SA.
The actions taken by the Air Force to close a facility that had become too expensive to operate
did not involve the R-SA. Therefore, the action did not constitute a violation.

In another case, the Air Force relies on its share of nonappropriated fund revenues generated by
vending machine sales of cold drinks to defray the costs of operating the post restaurant. The
SLA expressed interest in taking over the vending machines or claiming all of the
nonappropriated revenues (rather than share with the Air Force). The Air Force was willing to
step aside and let the State operate all the food and vending facilities, but the State declined the
opportunity to operate the cafeteria. Then the State filed an arbitration request, which DoED
granted.

Because of cases such as these, the question is whether the SLAs or the military Services should
have the right to operate food and vending facilities on a military installation for the benefit of
military members and their families. Stated another way, the question is whether the States
should be allowed to use the R-SA to divert Defense appropriations into State programs and
profit for their commercial teaming partners. In the interest of keeping Defense appropriations
useful for the bona fide needs and the purposes for which such funds were appropriated, a
legislative solution is needed. (Addressed in a subsequent recommendation.)

The Secretaries of the Military Departments should have discretion to define requirements and
make procurement decisions concerning contracting for military dining support and the operation
of a military dining facility. The Secretaries should have the discretion to make decisions about
the best use for buildings under their control and to ensure decisions support the readiness of the
armed forces, and the best use of taxpayer dollars to accomplish national defense. The
Secretaries should also be able to make decisions about whether and how to provide activities
on-base for the morale, welfare, and recreation of military members and their families, especially
when the families are left behind during a deployment. Decisions integral to the armed forces
and the military families should be made by DoD, not DoED nor the SLAs.

Observation 3. Current policies, across the board, should be strengthened and clarified.

Recommendation 3. Coordinate to publish for public and interagency comment appropriate
policy and regulations to implement the joint policy recommendations as reported to Congress
on August 29, 2006, by DoD, DoED, and CFP. (Office of Primary Responsibility:
OUSD[AT&L])

Observation 4. Noncompetitive statutory preferences and competing priorities (JWOD and R-
SA) inhibit creative solutions and DoD’s flexibility in managing the cost of food service
delivery. This negatively affects mission accomplishment, troop readiness, and the morale,
welfare, and recreation programs of the military community. OSD has not sought legislative
relief/clarification regarding JWOD and R-SA provisions, as applied to military dining facilities.

Recommendation 4. To resolve and clarify issues associated with contracting with employers

                                                              Department of Defense Office of Inspector General
                                                                                       Report No. IE-2008-004
                                                 29
or sponsors of persons who have disabilities or who are blind, consistent with military mission
and quality of life programs, USD(AT&L) should forward a legislative change request through
the Office of Management and Budget to Congress. This change request should enact the
provisions of the DoD, DoED, and CFP joint policy recommendations. Appendix L provides
proposed legislative language, originally developed by OUSD(AT&L), for this request. (Office
of Primary Responsibility: OUSD[AT&L]; Office of Coordinating Responsibility: Office of
the Under Secretary of Defense, Personnel and Readiness, DoD Legislative Affairs office, DoD
Acquisition Resources and Analysis, DoD General Counsel).

Management Comments: OUSD(AT&L) and the Services concurred with Recommendations 3
and 4. The full versions of Management Comments are in Appendix M.


Conclusions

Our review found numerous gaps, redundancies, flaws, and risks associated with contracting for
military dining facility services within the DoD. The overall goal for both the R-SA and JWOD
Acts is to provide meaningful jobs for disabled individuals. R-SA and JWOD program managers
can better achieve that goal by developing complementary regulations, as stated in the joint
policy recommendations (Appendix I).

DoED states that they are working to provide clearer guidance.

Neither the FAR nor the DFARS currently contain guidance to DoD contracting personnel to
help them determine when and how to apply the R-SA priority. If DoD is successful in
incorporating the joint policy provisions into the DFARS, this will allow contracting officers to
negotiate fair and reasonable prices for all military dining facility contracts.

USD(AT&L), in coordination with DoED and CFP, should develop an appropriate proposal for
legislative change to address issues associated with the JWOD, the R-SA, and their affect on
contracting for food services in military dining facilities.

We made four recommendations to OUSD(AT&L) to resolve and clarify issues associated with
contracting with employers of persons with disabilities. OUSD(AT&L) and the Services
concurred with these recommendations.




                                                            Department of Defense Office of Inspector General
                                                                                     Report No. IE-2008-004
                                                30
Appendix A–Scope and Methodology

Scope
This program assessment examined the management procedures associated with implementation
of the Randolph-Sheppard Act (R-SA) (20 U.S.C. 107 et seq.) and the Javits-Wagner-O’Day Act
(JWOD) (41 U.S.C. 46 et Seq.) within the Department of Defense (DoD) as they specifically
apply to military dining facilities. The review evaluated the degree to which policies and
procedures were established and followed within the DoD to ensure compliance with the existing
guidance in the administration and award of contracts for military dining facilities. It evaluated
the applicability of the R-SA priority to military dining facility contracting

By this assessment, the DoD OIG team answered the following questions:

   •	 Has the Department of Defense published adequate policy for balancing the requirements
      of the R-SA and JWOD in food service contracting with Federal statutes governing
      competition in contracting? If not, what can be done to accomplish this?

   •	 Do the Service contracting agencies understand and follow the policy?

We limited our examination to a review of the procedures in place for management of dining
facilities within the DoD in compliance with R-SA and JWOD. Since the GAO was tasked to
make an in-depth analysis of DoD contracts for food services, we did not evaluate the military
dining facility contract operations. We examined the management policy guidance in place for
R-SA/JWOD and other contract awards for appropriated and non-appropriated fund (NAF)
activities. We examined the DoD memoranda on program management and the basis for
contract award under both programs and the DoED guidance sent to State agencies on
administration of the programs. Our ability to review the SLAs and blind vendors was limited
by the access or information we could obtain through our DoED team-members.

To the maximum extent possible, we avoided duplication of effort with the GAO, which has
been tasked under Section 856 of the 2007 National Defense Authorization Act to conduct a
similar, but more specific review of food service contracts under R-SA and JWOD and to report
on:

   •	 The differences in operational procedures and administration of contracts awarded by the
      Department of Defense under the Randolph-Sheppard Act (20 U.S.C. 107 et seq.) and the
      Javits-Wagner-O'Day Act (41 U.S.C. 46 et seq.) on a State-by-State basis with regard to
      the relationship between State licensing agencies and blind vendors;

   •	 The differences in competition, source selection, and management processes and
      procedures for contracts awarded by the Department under the Randolph-Sheppard Act
      and the Javits-Wagner-O'Day Act, including a review of the average total cost of contract
      awards and compensation packages to all beneficiaries;

                                                            Department of Defense Office of Inspector General
                                                                                     Report No. IE-2008-004
                                                31
    •	 The precise methods used to determine whether a price is fair and reasonable under
       contracts awarded by the Department under the Randolph-Sheppard Act and the Javits-
       Wagner-O'Day Act, as required under the Federal Acquisition Regulation and the
       Defense Federal Acquisition Regulation Supplement (DFARS).

We coordinated our activities with the GAO to minimize any inconvenience to DoD commands.
However, we visited a sufficient number of military commands to get a representative view of
DoD’s management practices with respect to R-SA and JWOD.

Methodology
Site Visits. We met with the following organizations to gain an understanding of statutory and
policy issues affecting military dining facility contracting through R-SA and JWOD:

    •	 OSD: 

         Director of Defense Procurement and Acquisition Policy (AT&L) 

         Director of Resale Activities and NAF Policy (P&R) 

    •	 Deputy Assistant Secretary of the Army for Policy and Procurement
    •	 Deputy Assistant Secretary of the Navy for Acquisition Business Management
    •	 Deputy Commandant of the Marine Corps for Installations and Logistics
    •	 Deputy Assistant Secretary of the Air Force for Contracting
    •	 United States Army Installation Command
    •	 Committee For Purchase From People Who Are Blind Or Severely Disabled
    •	 National Council of State Agencies for the Blind
    •	 Blind Entrepreneurs Alliance
    •	 National Federation of the Blind

We conducted announced visits to eight military installations, including three Army, two Navy
and three Air Force installations:

    •	 Ft. Lewis (R-SA)/ McChord AFB (Small Business). Ft. Lewis and McChord AFB
       represent collocated interservice facilities with differing food service contracts. The
       bases were used in the Joint Basing Implementation Roadmap Study (JBIRS) and
       believed to offer insight as a possible model for joint contracting.

    •	 Fort Dix, NJ (R-SA) / McGuire AFB NJ (JWOD). These bases were another JBIRS site.

    •	 Fort Lee, VA (R-SA with JWOD subcontractor). R-SA contract using a JWOD as a sub-
       contractor.
    •	 Vandenberg AFB, CA (JWOD). Vandenberg AFB represented a facility where award of
       the JWOD food service contract was challenged unsuccessfully by the California State
       Licensing Agency
.
    •	 Navy Region Southwest (Small Business). Navy Region Southwest is a regionalization
       model being adopted by the Navy to consolidate Base Operating Support (BOS)

                                                             Department of Defense Office of Inspector General
                                                                                      Report No. IE-2008-004
                                                32
       contracts. This region covers facilities in San Diego and southern California, as well as
       NAS Fallon Nevada. The current food service contract exceeds $20M. We examined the
       challenges or opportunities regionalization offers for consolidation of food service
       contracting. We also considered how the contracting process addressed R-SA and JWOD
       before final award.

Standards
The assessment was conducted from March through November 2007. We derived general
standards from the “Quality Standards for Inspections” (January 2005-“Blue Book”). Standards
specific to this evaluation were set forth in the project design plan.




                                                          Department of Defense Office of Inspector General
                                                                                   Report No. IE-2008-004
                                              33
This Page Intentionally Left Blank




                           Department of Defense Office of Inspector General
                                                    Report No. IE-2008-004
               34
Appendix B–FY 2007 National Defense Authorization Act,
           Section 856
     John Warner National Defense Authorization Act (FY 2007), Section 856

 SEC. 856. CONTRACTING WITH EMPLOYERS OF PERSONS WITH DISABILITIES.

 (a) Inapplicability of Certain Laws-

 (1) INAPPLICABILITY OF THE RANDOLPH-SHEPPARD ACT TO CONTRACTS AND
 SUBCONTRACTS FOR MILITARY DINING FACILITY SUPPORT SERVICES COVERED BY
 JAVITS-WAGNER-O'DAY ACT- The Randolph-Sheppard Act (20 U.S.C. 107 et seq.) does
 not apply to full food services, mess attendant services, or services supporting the
 operation of a military dining facility that, as of the date of the enactment of this Act,
 were services on the procurement list established under section 2 of the Javits-Wagner-
 O'Day Act (41 U.S.C. 47).

 (2) INAPPLICABILITY OF THE JAVITS-WAGNER-O'DAY ACT TO CONTRACTS FOR THE
 OPERATION OF A MILITARY DINING FACILITY-

 (A) The Javits-Wagner-O'Day Act (41 U.S.C. 46 et seq.) does not apply at the prime
 contract level to any contract entered into by the Department of Defense as of the date
 of the enactment of this Act with a State licensing agency under the Randolph-Sheppard
 Act (20 U.S.C. 107 et seq.) for the operation of a military dining facility.

 (B) The Javits-Wagner-O'Day Act shall apply to any subcontract entered into by a
 Department of Defense contractor for full food services, mess attendant services, and
 other services supporting the operation of a military dining facility.

 (3) REPEAL OF SUPERSEDED LAW- Subsections (a) and (b) of section 853 of the Ronald
 W. Reagan National Defense Authorization Act for Fiscal Year 2005 (Public Law 108-375;
 118 Stat. 2021) are repealed.

 (b) Review and Report by Comptroller General of Randolph-Sheppard and Javits-Wagner-
 O'Day Contracts-

 (1) IN GENERAL- The Comptroller General shall conduct a review of a representative
 sample of food service contracts described in paragraph (2) and determine in writing the
 following:

 (A) Differences in operational procedures and administration of contracts awarded by the
 Department of Defense under the Randolph-Sheppard Act (20 U.S.C. 107 et seq.) and
 the Javits-Wagner-O'Day Act (41 U.S.C. 46 et seq.) on a State-by-State basis with
 regard to the relationship between State licensing agencies and blind vendors.

 (B) Differences in competition, source selection, and management processes and
 procedures for contracts awarded by the Department under the Randolph-Sheppard Act
 and the Javits-Wagner-O'Day Act, including a review of the average total cost of contract

                                                         Department of Defense Office of Inspector General
                                                                                  Report No. IE-2008-004
                                             35
(C) Precise methods used to determine whether a price is fair and reasonable under
contracts awarded by the Department under the Randolph-Sheppard Act and the Javits-
Wagner-O'Day Act, as required under the Federal Acquisition Regulation and the Defense
Federal Acquisition Regulation Supplement.

(2) CONTRACTS COVERED- For purposes of the review under paragraph (1), a food
service contract described in this paragraph is a contract--

(A) for full food services, mess attendant services, or services supporting the operation
of all or any part of a military dining facility;

(B) that was awarded under either the Randolph-Sheppard Act or the Javits-Wagner-
O'Day Act; and

(C) that is in effect on the date of the enactment of this Act.

(3) REPORT- Not later than March 1, 2007, the Comptroller General shall submit to the
Committees on Armed Services of the Senate and the House of Representatives a report
on the review conducted under this subsection, with such findings and recommendations
as the Comptroller General considers appropriate.

(c) Requirements for Inspectors General of Department of Defense and Department of
Education-

(1) REVIEW OF MANAGEMENT PROCEDURES- Not later than March 1, 2007, the
Inspector General of the Department of Defense and the Inspector General of the
Department of Education shall jointly review the management procedures under both the
Randolph-Sheppard Act (20 U.S.C. 107 et seq.) and the Javits-Wagner-O'Day Act (41
U.S.C. 46 et seq.). In carrying out this paragraph, the Inspectors General shall each
have access to the following:

(A) Memoranda on program management and the basis for contract award under the
programs.

(B) Guidance sent to State agencies on administration of the programs.

(C) Names of participating vendors, as well as qualifying experience and educational
background of such vendors.

(2) MEMORANDUM OF UNDERSTANDING BETWEEN INSPECTORS GENERAL- Not later
than 60 days after the date of the enactment of this Act, the Inspector General of the
Department of Defense and the Inspector General of the Department of Education shall
enter into a memorandum of understanding with each other to carry out paragraph (1).




                                                         Department of Defense Office of Inspector General
                                                                                  Report No. IE-2008-004
                                             36
(3) REPORT- Not later than one year after the date of enactment of this Act, the
Inspector General of the Department of Defense and the Inspector General of the
Department of Education shall jointly submit to the Committees on Armed Services of the
Senate and the House of Representatives a report on the review required by paragraph
(1). The report shall include--

(A) findings of the Inspectors General regarding the management procedures reviewed;
and

(B) such other information and recommendations as the Inspectors General consider
appropriate.

(d) Definitions- In this section:

(1) The term `State licensing agency' means any agency designated by the Secretary of
Education under section 2(a)(5) of the Randolph-Sheppard Act (20 U.S.C. 107a(a)(5)).

(2) The term `military dining facility' means a facility owned, operated, leased, or wholly
controlled by the Department of Defense and used to provide dining services to members
of the Armed Forces, including a cafeteria, military mess hall, military troop dining
facility, or any similar dining facility operated for the purpose of providing meals to
members of the Armed Forces.




                                                      Department of Defense Office of Inspector General
                                                                               Report No. IE-2008-004
                                          37
                          House Conference Report 109-702
Contracting with employers of persons with disabilities (sec. 856)

The Senate amendment contained a provision (sec. 873) that would extend for 1 year
the status quo for continuation and completion of existing contracts, including any
options, awarded under the Javits-Wagner- O’Day Act (41 U.S.C. 46 et seq.) and the
Randolph- Sheppard Act (20 U.S.C. 107 et seq.) programs for the operation of military
troop dining facilities, military mess halls, and other similar military dining facilities.

The House bill contained no similar provision.

The House recedes with an amendment that would establish a permanent policy
regarding the award of contracts and subcontracts for food services, mess attendant
services, and other services supporting the operation of a military dining facility under
the Javits-Wagner-O’Day and Randolph-Sheppard Acts. The amendment would require a
review and report by the Government Accountability Office on operational procedures,
competition, and determinations regarding fair and reasonable pricing for contracts
awarded under both Acts. The amendment would also require a joint report from the
Inspectors General of the Departments of Defense and Education on management
procedures implemented under the two Acts.



                       House Armed Services Committee Report
One-year extension of inapplicability of certain laws to contracting with
employers of persons with disabilities (sec. 873)

The committee recommends a provision that would extend for 1 year section 853 of the
Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005 (Public Law
108-375) to ensure the continuation and completion of existing contracts, including any
options, awarded under the Javits-Wagner-O'Day Act (41 U.S.C. 46 et seq.) and the
Randolph-Sheppard Act (20 U.S.C. 107 et seq.) programs for the operation of military
troop dining facilities, military mess halls, and other similar military dining facilities.




                                                        Department of Defense Office of Inspector General
                                                                                 Report No. IE-2008-004
                                            38
Appendix C-Department of Defense and Department of Education
           Memorandum of Understanding




          M E M O R A N D U M OF U N D E R S T A N D I N G BETWEEN THE INSPECTORS
        GENERAL OF THE DEPARTMENT OF DEFENSE A N D THE DEPARTMENT OF
            EDUCATION T O C O N D U C T A JOINT REVIEW OF M A N A G E M E N T
       PROCEDURES U N D E R THE R A N D O L P H - SHEPPARD A C T (20 U.S.C. 107 ET SEQ.)
              A N D THE JAVITS-WAGNER-O'DAY ACT (94l U.S.C. 46 ET SEQ.)


       I. REFERENCES

       A. Fiscal Year (FY) 2007 National Defense A u t h o r i z a t i o n Act ( N D A A ) , Section 856,
       " C o n t r a c t i n g With E m p l o y e r s of Persons With Disabilities."


       B. Inspector G e n e r a l Act of 1978, a s a m e n d e d (5 U.S.C, A p p e n d i x 3).


       C   D e p a r t m e n t of Education O r g a n i z a t i o n Act (20 U.S.C. 3475, 3479).


       D. R a n d o l p h - S h e p p a r d Act (20 U.S.C. 107 et seq).


       E. Javits-Wagner-O'Day Act (41 U.S.C 46 et seq).


       II. B A C K G R O U N D A N D PURPOSE


       T h e p u r p o s e of this M e m o r a n d u m of U n d e r s t a n d i n g (MOU) is to clarify the roles,
       responsibilities, a n d relationship b e t w e e n the D e p a r t m e n t of Education Inspector
       General (DoE OIG) a n d the D e p a r t m e n t of Defense Inspector General (DoD OIG) in
       accomplishing the joint review of m a n a g e m e n t p r o c e d u r e s a n n o u n c e d in Reference A.


       T h e FY 2007 N D A A , Section 856 (Reference A) explains the r e q u i r e m e n t s for D o D OIG
       a n d DoE OIG, a n d states, in part:

               Not later than March 1, 2007, the Inspector General of the Department      of
               Defense and the Inspector General of the Department      of Education    shall
               jointly  review the management     procedures under both the        Randolph-
               Sheppard Act (20 U.S.C. 107 et seq.) and the Javits-Wagner-O'Day      Act (41
                U.S.C. 46 et seq.).

               Not later than one year after the date of enactment of this Act [October
               17, 20061, the Inspector General of the Department     of Defense and the
               Inspector General of the Department   of Education shall jointly submit to
               the Committees     on Armed Services of the Senate and the House of
               Representatives  a report on the    review....




                                                                                   Department     of Defense Office of Inspector General
                                                                                                                 Report No. IE-2008-004
                                                                39
In compliance with Reference A, t h e Inspectors General of the D e p a r t m e n t of Defense
{DoD OIG) a n d D e p a r t m e n t of Education (DoE OIG) will review jointly the p r o g r a m
g u i d a n c e p r o v i d e d b y DoE a n d the m a n a g e m e n t p r o c e d u r e s e m p l o y e d by the D o D in
conforming with the R a n d o l p h - S h e p p a r d Act and the Javits-Wagner-O'Day Act with
respect to the operation of military d i n i n g facilities.


III. SCOPE


This M O U describes the responsibilities of D o D OIG a n d DoE OIG associated with
a c c o m p l i s h m e n t of the joint m a n a g e m e n t review directed b y Reference A,


IV. AGREEMENT

A. U n d e r this M O U , the D o D O I G will a s s u m e the lead for the m a n a g e m e n t review,
and assistance will be p r o v i d e d by the DoE OIG.


B. T h e scope, objectives, focus, a n d design of the m a n a g e m e n t review will be m u t u a l l y
coordinated a n d agreed u p o n by both agencies.


C. T h e DoD O I G and the DoE OIG will agree u p o n w h a t is considered acceptable,
m a r g i n a l , or unacceptable internal controls or p e r f o r m a n c e r e g a r d i n g compliance with
FAR and DFARS p r o c e d u r e s .


D. Each agency will designate a team for the review, including team leader. T h e D o D
OIG team leader will b e t h e project leader for this review, a n d the DoE OIG t e a m leader
will be the project d e p u t y . The team leaders will be responsible for overseeing the w o r k
performed by the team m e m b e r s from their respective agency, and will maintain close
coordination w i t h o n e a n o t h e r . The team leaders will collectively d e v e l o p p l a n s and
objectives for the review.

E. Each agency will be responsible for funding the travel a n d associated expenses for
team m e m b e r s from its respective agency. Insofar as possible, team travel will b e
coordinated to ensure team integrity and to minimize the d e m a n d s placed o n entities o r
facilities selected for review.


F. T h e D o D OIG and DoE OIG will archive w o r k i n g p a p e r s associated with this project.
All w o r k p a p e r s will be m a d e available to each OIG as necessary.


G. T h e D o D OIG and the DoE O I G will issue a n n o u n c e m e n t letters initiating this
project.


                                                             2




                                                                                   Department      of Defense Office of Inspector General
                                                                                                                  Report No. IE-2008-004
                                                                 40
H. As required, the team leaders m a y hold separate in-process reviews and brief the
review results a n d tentative conclusions to their respective Inspectors General, D e p u t y
Inspectors General, and a p p r o p r i a t e agency m a n a g e m e n t personnel.


I. Drafting and editing of t h e r e p o r t for this m a n a g e m e n t review will be a collaborative
effort overseen by the team leaders. The format for the r e p o r t will be mutually a g r e e d
u p o n . D o D OIG a s s u m e s responsibility for publication of the report. The respective
agencies will h a v e responsibility for distribution, as each d e e m s appropriate; however,
plans for distribution will be coordinated to avoid duplication.


J. T h e final interagency r e p o r t will b e a p p r o v e d b y both Inspectors General prior t o
issuance and will b e co-signed b y t h e m . The report will a c k n o w l e d g e the joint effort
involved.


V. C O N T A C T S


Stanley Meyer                                              Michele W e a v e r - D u g a n
Chief, Joint Operations Defense Agencies                   Director, Operations Internal A u d i t
  a n d Services IG Division                               U.S. D e p a r t m e n t of Education
Inspections & Evaluations                                  Office of Inspector General
U.S. D e p a r t m e n t of Defense                        400 M a r y l a n d A v e n u e , SW
Office of Inspector General                                Washington, D C 20202-1510
400 A r m y Navy Drive                                     202-245-6941
A r l i n g t o n , VA 22202-4704
703-604-9130

VI. EFFECTIVE DATE.


This M e m o r a n d u m of U n d e r s t a n d i n g is required by Reference A and will be effective
u p o n signature by both parties below and will expire 6 m o n t h s after publication of a
final report.




Helen Lew                             Date
Assistant Inspector General                               D e p u t y Inspector General
A u d i t Service                                           for Policy and Oversight
D e p a r t m e n t of Education                          D e p a r t m e n t of Defense




                                                                        Department   of Defense Office of Inspector General
                                                                                                    Report No. IE-2008-004
                                                     41
This Page Intentionally Left Blank




                            Department   of Defense Office of Inspector General
                                                        Report No. IE-2008-004
               42
Appendix D-Hawaii (Army) Arbitration Report
           (Docket No. R-S/97-18)

       05/03/00: Arbitration Panel Decision Under the Randolph-Sheppard Act [OSERS]                 Page 1 o f 3


       (Federal Register: Hay 3, 2000 (Volume 65, Number 86)]
       [Notices)
       [Page 25710-25711]
       From the Federal Register Online via GPO Access [wais.access.gpo.gov)
       [DOCID:frO3my00-46]




       DEPARTMENT OF EDUCATION



       Arbitration Panel Decision Under the Randolph-Sheppard            Act

       A G E N C Y : Department of   Education.

       ACTION: Notice of arbitration panel decision under the Randolph-

       Sheppard Act.




       SUMMARY: N o t i c e is hereby given that on November 17, 1998, an
       arbitration panel rendered a decision in the matter of Hawaii Division
       of Vocational Rehabilitation, Department of Human Services v. U.S.
       Department of Defense, Department of the Army (Docket No. R - S / 9 7 - 1 8 ) .
       This panel was convened by the U . S . Department of Education pursuant to
       20 U.S.C. 107d-l(b) upon receipt of a complaint filed by petitioner,
       Hawaii Division of Vocational Rehabilitation, Department of Human
       Services.

       FOR FURTHER INFORMATION: A copy of the full text of the arbitration
       panel decision may be obtained from George F. Arsnow, U . S . Department
       of Education, 400 Maryland Avenue, SW., room 3230, Mary E . Switzer
       Building, Washington DC 20202-2738. Telephone: (202) 205-9317. If you
       use a telecommunications device for the deaf (TDD), you may call the
       TDD number at (202) 205-8298.
           Individuals with disabilities may obtain this document in an
       alternate format (e.g.. Braille, large print, audiotape, or computer
       diskette) on request to the contact person listed in the preceding
       paragraph.

       Electronic Access to This Document

           You may view this document, as well as all other Department of
       Education documents published in the Federal Register, in text or Adobe
       Portable Document Format (PDF) on the Internet at either of the
       following sites:

       http://ocfo.ed.gov/fedreg.htm
       http://www.ed.gov/news.html

       To use the PDF you must have the Adobe Acrobat Reader, which is
       available free at either of the previous sites. If you have questions
       about using the PDF, call the U . S . Government Printing Office (GPO),
       toll free, at 1-888-293-6498; or in the Washington, DC, area at (202)
       512-1530.

           Note: The official version of this document is the document
       published in the Federal Register. Free Internet access to the
       official edition of the Federal Register and the Code of Federal
       Regulations is available on GPO




       http://www.cd.gov/legislation/FedRegister/other/2000-2/050300c.html                          7/10/2007




                                                                             Department   of Defense Office of Inspector General
                                                                                                         Report No. IE-2008-004
                                                         43
05/03/00: Arbitration Panel Decision U n d e r the Randolph-Sheppard Act [ O S E R S ]            Page 2 of 3



[[Page     25711]]

A c c e s s at:   http://www.access.gpo.gov/nara/index.htinl

SUPPLEMENTARY INFORMATION: Pursuant to the Randolph-Sheppard Act (the
A c t ) , (20 O.S.C. 1 0 7 d - 2 ( c ) ) , the Secretary p u b l i s h e s in the Federal
R e g i s t e r a synopsis of each arbitration panel d e c i s i o n affecting the
administration of vending facilities on Federal and other p r o p e r t y .

Background

        This dispute concerns the alleged failure of the U.S. Department of
Defense, Department of the Army (Army), to award a priority under the
Act to the Hawaii Division of Vocational Rehabilitation, Department of
Human Services, the State licensing agency (SLA), for a contract to
operate a cafeteria at Schofield Barracks, Wahiawa, Oahu, Hawaii.
        A summary of the facts is as follows: On October 29, 1996, the SLA
requested a meeting with the Army's Contracting O f f i c e r (CO) and Army
staff to discuss the possibility of direct n e g o t i a t i o n s under the Act
regarding the operation of a cafeteria facility at the Schofield
Barracks in Wahiawa, Oahu, H a w a i i .
        Subsequently, on November 6, 1996, a meeting w a s held between the
SLA and the Army's CO. At the meeting, the CO mentioned that the
p r e v i o u s cafeteria contract had b e e n solicited pursuant to the Small
Business Administration Section 8(a) set-aside program. In a May 6,
1997 letter from the Army, the SLA was informed that the Army would
continue to rely upon a memorandum from the O f f i c e of the Assistant
Secretary, Research Development and Acquisition, d a t e d April 15, 1997.
This memorandum stated that, b e c a u s e the Act did not apply to
appropriated-fund contracts, military mess hall contracts would b e
awarded based upon general procurement principles, including
preferences under the Section 8(a) set-side program. On H a y 6, 1997,
the Army solicited proposals under these general procurement
p r i n c i p l e s , thereby not awarding a priority under the Act to the SLA.
By letter dated August 21, 1997, the SLA filed with the S e c r e t a r y of
Education a request for arbitration of this d i s p u t e . A Federal
arbitration hearing on this matter was held on July 9 and 10, 1 9 9 8 .

Arbitration       Panel   Decision

    The central issue before the arbitration panel was whether the
Randolph-Sheppard Act, 20 U.S.C. 1 0 7 d - 3 ( e ) , is applicable to
appropriated-fund contracts covering military dining facilities, which
are basically used by military p e r s o n n e l . If so, is the Army then
required to permit the SLA an opportunity to bid on a contract covering
military dining facilities in Hawaii on an unrestricted basis under the
priority provisions of the Act?
    The majority of the panel ruled that, as defined in the regulations
of the Department of Education and Department of Defense, all of the
facilities covered under the agreement p r o v i d e cafeteria services,
which include a broad variety of prepared foods and beverages. These
foods are dispensed p r i m a r i l y through the use of a serving line where
the customer serves or selects food items for himself or h e r s e l f from
displayed selections.
    In this case, the military dining facilities covered under the
Hawaii contract used contractor personnel to p r o v i d e full food service,
including food preparation, serving, and cleanup s e r v i c e s . The use of
the facilities was limited to authorized military p e r s o n n e l . O n the
other hand, Randolph-Sheppard vending facilities, w h e t h e r a stand,




http:www.ed.gov/legislation/FedRegister/other/2000-2/050300c.html                                   7/10/2007




                                                                            Department      of Defense Office of Inspector General
                                                                                                           Report No. IE-2008-004
                                                          44
05/03/00: Arbitration Panel Decision Under the Randolph-Sheppard Act [OSERS]                                Page 3 of 3


a u t o m a t i c food d i s p e n s i n g m a c h i n e , or c a f e t e r i a , are open for use by
the general p u b l i c . H o w e v e r , they are used most f r e q u e n t l y by the
e m p l o y e e s working at the facility and are not s u p p o r t e d by appropriated
f u n d s , b u t rather by p a y m e n t s for g o o d s and s e r v i c e s .
        Further, the m a j o r i t y of the p a n e l noted that the Federal
G o v e r n m e n t ' s procurement p r o c e s s for goods and s e r v i c e s to be paid for
by a p p r o p r i a t e d funds is subject to p r o c u r e m e n t laws and r e g u l a t i o n s .
T h e s e laws a n d r e g u l a t i o n s seek to s t a n d a r d i z e p r o c e d u r e s for awarding
c o n t r a c t s , thereby assuring quality in m e e t i n g s p e c i f i c a t i o n s and
economy of p r i c e . E x c e p t i o n s are p e r m i t t e d by C o n g r e s s for c e r t a i n
g r o u p s , such as those w h o q u a l i f y under the S m a l l B u s i n e s s
A d m i n i s t r a t i o n or those w h o e m p l o y severely h a n d i c a p p e d o r blind
individuals under the J a v i t s - W a g n e r - O ' D a y A c t .
        The 1974 amendments t o t h e Act expanded the o p p o r t u n i t i e s for blind
persons to o p e r a t e vending f a c i l i t i e s , including v e n d i n g m a c h i n e s and
cafeterias on Federal p r o p e r t y , and required Federal a g e n c i e s to
p r o v i d e l o c a t i o n s for v e n d i n g facilities to be o p e r a t e d by blind
licensees.
        The panel ruled that if C o n g r e s s h a d i n t e n d e d t h e Act to apply to
a p p r o p r i a t e d - f u n d c o n t r a c t s , it w o u l d have included v e r y specific
language a u t h o r i z i n g those c o n t r a c t s b e c a u s e such a reading would
s u b s t a n t i a l l y change the a d m i n i s t r a t i o n of Federal p r o c u r e m e n t law.
B e c a u s e that language is not included, the best r e a d i n g of the statute
is that it w a s not intended. T h u s , w h i l e not e n t i t l e d to assert a
p r i o r i t y under the Act in b i d d i n g on an a p p r o p r i a t e d - f u n d contract for
dining facilities, the SLA would not be p r e c l u d e d from applying for a
preference under the J a v i t s - W a g n e r - O ' D a y A c t .
        One p a n e l m e m b e r d i s s e n t e d .
        The views and o p i n i o n s e x p r e s s e d by the panel do not necessarily
represent the views and o p i n i o n s of the U . S . D e p a r t m e n t of E d u c a t i o n .

        Dated: April 2 8 , 2 0 0 0 .
J u d i t h E. Heumann,
A s s i s t a n t Secretary for Special Education and R e h a b i l i t a t i v e         Services.
[FR D o c . 0 0 - 1 1 0 1 5 Filed 5 - 2 - 0 0 ; 8:45 a m ]
BILLING CODE 4000-01-U




http://www.ed.gov/legislation/FedRegister/other/2000-2/050300c.html                                          7/10/2007




                                                                                   Department     of Defense Office of Inspector General
                                                                                                                 Report No. IE-2008-004
                                                              45
This Page Intentionally Left Blank




                            Department   of Defense Office of Inspector General
                                                        Report No. IE-2008-004
               46
   Appendix E-Department of Defense, Office of the General Counsel
              Randolph-Sheppard Act Letter-November 12, 1998




                          GENERAL         C O U N S E L O F THE DEPARTMENT           OF   DEFENSE

                                                 W A S H I N G T O N , D. C.



                                                              12 NOV 19

            M E M O R A N D U M F O R G E N E R A L COUNSELS O F THE MILITARY D E P A R T M E N T S

            SUBJECT:      Applicability   o f the Randolph Sheppard Act to DoC Military Dining Facilities


                    The applicability of the Randolph Sheppard Act ("Act")' to contracts for the operation of
            military dining facilities involving appropriated funds has recently been the subject of discussion
            within the D e p a r t m e n t of Defense. This memorandum is issued to reiterate this office's opinion
            onthismatter.Asdiscussedbelow,it is my opinion that the Act is generally applicable to
            contracts involving military dining facilities. This opinion is based upon the plin meaning of
            the statute, Department of Education (DOE) guidance, and Comptroller General opinions.

                      T h e A c t was enacted i n 1936 as a program to provide opportunities for blind individuals
            TO b e c o m e economically self-sufficient. The original Act was very limited in scope and extended
            a priority to contracts in federal buildings for newsstands, snack bars, and the like. T h e A c t w a s
            amended in 1974 to expand significantly the scope o f contracts subject to the A c t ' s PRIORITIES.
            The 1974 amendment specifically included "cafeterias" in the definition of vending facilities
            subject to t h e A c t . 2 D O E , the agency charged with the administration and enforcement of the
                1
            Act, h a s determined that, generally, military diningfacilitiesarec a f e t e r i a sand a r e indeed
            included within the s c o p e of, and subject to, the Act." As recently as November 9, 1998, DOE
            confirmed the continuing vitality of its position inaLETTERto the Department of t h e Army.3




                    1 Chapter 6A of Title 2 0 , U.S.C.

                    2 2 0 U . S . C 107(e)(7).

                    3 20 U.S.C.107(a)
                       4 See Commissioner, Rehabilitation Services Administration, Department of Education
            m e m o r a n d u m of A u g u s t 14,1997 to Committee for the Purchase from the Blind and Other
            Severely Handicapped; Commissioner, Rehabilitation Services Administration, Department of
            Education ltr o f M a r c h 13, 1992 t o Executive Director, Committee for Purchase from the Blind
            and Other Severely Handicapped ('Carney letter').

                     5 See Commissioner, Rehabilitation Services Administration, Department of Education
            ltr of N o v e m b e r 9, 1996 to Assistant Secretary of the Army for Research, Development and
            Acquisition.

[Recycling symbol]


                                                                                  Department     of Defense Office of Inspector General
                                                                                                                Report No. IE-2008-004
                                                                     47
For         example,                    the
                                               Multiple Comptroller General decisions and arbitral awards have supported this interpretation.
                                                                        Comptroller General held in a June 4 , 1993 opinion that the military dining
                                                                                                                                                        1
                                                                                                                                                            2
                                               halls at Keesler A i r F o r c e Base were subject to the Act a n d dismissed protests made by a
                                               company seeking t h e contract under section 8(a) of the Small Business A c t ' U p o n
                                               reconsideration, the Comptroller General specifically ruled that the Randolph-Sheppard A c t
                                               t r u m p s t h e Small Business Act.' Later Comptroller General decisions assume that the Act is
                                               applicable t o all contracts and do not distinguish between appropriated or nonappropriated
                                               funding.1
                                                                T h e Act itself does not refer to this distinction a s germane to its applicability.

                                                        W h i l e DOEhasconsistentlytakenthepositionthatmilitarydiningfacilitiesare cafeterias
and                      are                             generally subject to the Act, it has recognized that the Act may not be applicable in those
instances                       where                               the contracts are for discrete services rather than the overall "operation" of the
                                               dining facilities. As t h e then-DOE Rehabilitation Services Administration Commissioner
stated,                "[I]f                  the                  food service contract calls upon the contractor to provide a limited number of
                                               discreet [sic] food services, and D O D personnel play an important role in the overall functioning
                                               o f the cafeteria, D O D w o u l d be viewed as operating the cafeteria on an 'in-house' basis and, as a
                                               result, t h e food service contract would not conflict with, the Randolph-Sheppard A c t . " " T h e



                                                      6 E.g. G r a n t s Janitorial and Food Services, Inc. B-275157 Comp. Gen. (January 27.
                                               1997); Triple P Services Inc. Reconsideration B-250465.8 e t al., Comp, Gen. (December                           30,1993   Department   o f th
                                               Department of Social Services, Rehabilitation Services v. U . S . Department of Defense.
                                               Department o f the Air Force. Case N o . R-S/97-3 (1998)(Barron, Hilker, Mayer, Arb.).


                                                           7 Department of the Air Force-Reconsideration, 7 2 C o m p . Gen. 2 4 1   (1993).
                                                     8 Triple P Services Inc.-Reconsideration B-250465.8 et. al. Comp. Gen. (December
                                               30,1993).

                                                         9 See e.g. Grants Janitorial and Food Services, I n c . B-275157, C o m p . Gen. (January 27,
                                               1997); Mississippi State Department of Rehabilitation Services, B-250783.8.Comp.Gen.
                                               (September 7 , 1 9 9 4 ) ; G o o d Food Service, Inc.,-Recommendation B-257526.3, Comp. Gen. (July
                                               1 1 , 1994) ( T h e Comptroller General noted in this opinion that in a prior decision he determined
                                               that the A c t was applicable to appropriated fund procurements and stated, " W e d i d not
                                               distinguish between a p p r o p r i a t e d and non-appropriated funds in the above decision because the
procurement               was                         conducted                     with appropriated funds. T h u s , we were not called upon t o discuss
                                               t h e application of t h e Randolph-Sheppard Act to APROCUREMENTACTinvolving t h e expenditure of
appropriated                                                      funds.").

                                                       10 Carney letter, Commissioner, Rehabilitation Services Administration, Department of
                                               Education undated ltr to Assistant Secretary of Defense (Force Management a n d Procurement).

                                                           11 C a r n e y letter, at page 3.




                                                                                                                        Department    of Defense Office of Inspector General
                                                                                                                                                     Report No. IE-2008-004
                                                                                                     48
                                                                                                            3
Commissioner      noted that such determinations are fact-specific and must be made o n a case-by­
case basis.12 A recent arbitration case involving the Air Forced i n i n gfacilities at Barksdale Air
Force B a s e is illustrative of such case-by-case decisions.13 The arbitrators determined that
although the Air F o r c e contracted out certain mess attendant functions, it retained the overall
"operation" of t h e dining facility and operated it on an in-house basis." Thus, the contract was
not subject to t h e priority provisions of the Act.15

                                                               16
         In addition to the consistent advice of this office, on at least two occasions The Office of
t h e Assistant Secretary of Defense (Force Management Policy) has issued policy statements that
                                                                                         17
military dining facilities are indeed subject to the priority provisions of the A c t . As the then-
Deputy Assistant Secretary o f Defense for Personal Support, Families & Education stated in a
January 19, 1993 letter to Congressman H . Martin Lancaster.

        " A f t e r considerable review and discussion with DOE, I have concluded that, on balance,
        t h e provisions of the Randolph-Sheppard Act pertaining to c a f e t e r i a s are applicable to the
        Keesler A F B dining facilities solicitation... Also, the priority given to blind vendors in
        t h e operation of cafeterias on federal property b y the statute and DOE'S regulations is not




        12 Carney letter, at p a g e 2.
        13
        LouisianaDepartmentofSocialServices,RehabilitationServicesv. U.S. Department
of Defense, Department of the Air Force, Case No. R-S/97-3( 1 5 9 8 ) B a r r o n ,Hilker,Mayer,
Arb.)

        14 Id. at p a g e 11

        15 Id. at p a g e 14.

             16 See Deputy General Counsel (Personnel and Health Policy) memorandum of June 11,
1993 for Assistant General Counsel (Military Affairs). Department of the Air Force and Chief,
General Litigation Division, O f i c e o f The Judge Advocate General of the Air Force; Deputy
General C o u n s e l (Personnel a n d Health Policy) memorandum of February 17, 1993 for Assistant
G e n e r a l C o u n s e l (Military Affairs). Department of the Air Force and Chief, General Litigation
Division, Office o f T h e Judge Advocate General of the Air Force

            17 See D e p u t y Assistant Secretary of Defense (Pesonnel Support, Families & Education)
ltr of J a n u a r y 19, 1993 toR e p r e s e n t a t i v eH. Martin Lancaster, Director Personnel Support
P o l i c y & Services,ODASD(PSF&E)memorandumofAugust7,1992forAssociate Deputy
Assistant Secretary o f the Air Force (Contracting).




                                                                          Department     of Defense Office of Inspector General
                                                                                                        Report No. IE-2008-004
                                                      49
                                                                                                                     4

       dependent on whether the cafeteria is an appropriated fund activity or a nonappropriated
       fund activity."18

       The then-Director, Personnel Support Policy £ Services (Personnel Support, Families &
Education). Office of the Assistant Secretary o f Defense (Management and Personnel) made the
same point in a n August 7, 1992 memorandum for the Associate D e p u t y Assistant Secretary of
the Air Force (Contracting):

        The position advanced in your memorandum that the Randolph-Sheppard Act does not
       apply to theacquisitiono f contractual food services at military dining facilities is not
       supported in light of t h e statutes, and the implementing regulations. The provision in
       the R a n d o l p h - S h e p p a r d A c t Air establishing a priority for the operation of the cafeterias
       by b l i n d licensees is implemented whenever a solicitation for a cafeteria contract is
       contemplated          b y a federal manager. With the expansive definition of cafeteria in
       regulations, the dining hall food service contracts are definitely cafeteria contracts.
       Further, since t h e present issue concerns military dining halls, these contracts meet the
        o t h e r criteria o f   being contracts   contemplated   byfederalpropertymanagers.

        Thus, the assertion that the Act does not apply to military dining facilities cannot
withstand analysis. Accordingly, I request that, to the extent that your respective Military
Departments m a y have taken contrary positions in pendingarbitralo r other proceedings, you
promptly withdraw that position in faver of the DoD legal position set forth in this
memorandum.     Additionally, please take steps to ensure that y o u r clients are advised of t h e
Department's position and that a l l of your Service issuances and activities conform to that
position.

         Y o u r cooperation i s appreciated. If this office can provide further assistance, please
contact P a u l s. Koffsky, Deputy General Counsel for Personnel and Health Policy, o r
C o m m a n d e r M . D . N e w m a n of h i s staff at (703) 697-9341.




                         Judith A. Miller 





        18 D e p u t y Assistant Secretary of Defense (Personnel Support, Families & Education) ltr
of January 19, 1993 to Congressman H. Martin Lancaster at page 1.

       19 Director, Personnel Support Policy & Services, O D A S D ( P S F & B ) memorandum of 

August 7 , 1 9 9 2 for Associate Deputy Assistant Secretary of the A i r Force (Contracting) 





                                                                              Department      of Defense Office of Inspector General
                                                                                                             Report No. IE-2008-004
                                                          50
                                                                                                        5
C o p y to:
Acting ASD(FMP)
E x e c u t i v e Director. M W R & Resale Activities
Director, Defense Procurement, OUSD(A&T)
J u d g e Advocate General o f the Military Departments
Counsel t o t h e Commandant of the Marine Corps
Staff J u d g e A d v o c a t e t o t h e Commandant o f the Marine Corps




                                                                            Department   of Defense Office of Inspector General
                                                                                                        Report No. IE-2008-004
                                                        51
This Page Intentionally Left Blank




                            Department   of Defense Office of Inspector General
                                                        Report No. IE-2008-004
                52
Appendix F-State Licensing Agency Set-Asides



               RANDOLPH-SHEPPARD STATE LICENSING AGENCIES-FUNDS SET-ASIDE FROM THE NET PROCEEDS

                                 STATES THAT DO                AMOUNT OF                     DATE OF RECENT
   STATES THAT DO NOT HAVE       HAVE SET-ASIDE                SET-ASIDE                     DETERMINATION
                                                              PERCENTAGE
           SET-ASIDE
  REGION I

  CONNECTICUT                   MAINE               10%                                    10/20/1997

                                MASSACHUSETTS       0% (authority, but not choosing to
                                                    collect)
                                NEW     HAMPSHIRE   10%                                    6/4/1985

                                RHODE ISLAND        1.5%                                   1/14/1999

                                VERMONT             0% (authority, but not choosing to     6/25/1997
                                                    collect)




                                 STATES THAT DO                 AMOUNT OF                     DATE OF RECENT
   STATES THAT DO NOT HAVE       HAVE SET-ASIDE                  SET-ASIDE                    DETERMINATION
          SET-ASIDE                                            PERCENTAGE

  REGION II

  NEW JERSEY                    NEW YORK            $18,000 + = 20%

                                PUERTO RICO         5%




  REGION III

  WEST VIRGINIA                 DELAWARE            $0-5,000 =
 10%                        7/10/1991
                                                    5-10,000 =
 15%
                                                    10,000+ =
20%

                                DISTRICT OF         2 1 % (actual)
                                COLUMBIA            $0-36,000 = 28% (approved, but not
                                                    collecting at this time)
                                                    36,000+ = 33% (approved, but not
                                                    collecting at this time)

                                MARYLAND            3%                                     8/31/1995

                                PENNSYLVANIA        15% of 20% of the net proceeds
                                                    5% of vending machine income
                                                    2% of lottery sale income

                                                    figured monthly.                       9/19/1977
                                VIRGINIA
                                                    $0-1,500 = 0% (below fair min.)
                                                    0-1,500 = 5% (made fair min.)
                                                    1,500.01-3,000 = 20%
                                                    3,000.01-4,000 = 30%
                                                    4,000.01-10,000 = 40%
                                                    10,000.01+ = 45%




                                                                        Department    of Defense Office of Inspector General
                                                                                                     Report No. IE-2008-004
                                                      53
                           STATES THAT DO                AMOUNT OF                   DATE OF RECENT
 STATES THAT DO NOT HAVE   HAVE SET-ASIDE                 SET-ASIDE                  DETERMINATION
            SET-ASIDE                                   PERCENTAGE

REGION IV

SOUTH CAROLINA             ALABAMA            11%                                  11/17/1999

                           FLORIDA            5%                                  4/272001

                           GEORGIA            12%                                  11/3/1995

                           KENTUCKY           5%                                   3/29/1998

                                                                                   (initial approval 1989)
                           MISSISSIPPI        18%
                                                                                   9/20/1996
                           NORTH CAROLINA     17%

                                              figured monthly                      1983
                           TENNESSEE
                                              $0-300 =
 10%
                                              300+ =
 13%
                                              14% effective 7/1/2005
                                              approved in 2004




                             STATES THAT DO                AMOUNT OF                      DATE OF RECENT
 STATES THAT DO NOT HAVE     HAVE SET-ASIDE                 SET-ASIDE                     DETERMINATION
                                                          PERCENTAGE
            SET-ASIDE
REGION V

INDIANA                     ILLINOIS           12%                                    9/6/1990

                            MICHIGAN            10%                                   original approval -1978

                            MINNESOTA          Figured monthly                        12/27/1990
                                               1st $100 = 2%
                                               2nd 100 = 4%
                                                   rd
                                               3 100 = 6%
                                                   th
                                               4    100 = 8%
                                               5th 100 = 10%
                                                   th
                                               6    100 = 12%
                                               7th 100 = 14%
                                               over $700 = 16%

                            OHIO
                                               0-1,000= 10%
                                               1,000-2,500=15%
                                               2,500 + = 20%


                            WISCONSIN
                                                15%




                                                                 Department   of Defense Office of Inspector General
                                                                                             Report No. IE-2008-004
                                               54
                              STATES THAT DO                   AMOUNT OF                            DATE OF RECENT
   STATES THAT DO NOT HAVE    HAVE SET-ASIDE                    SET-ASIDE                           DETERMINATION
          SET-ASIDE                                           PERCENTAGE

 REGION VI

 LOUISIANA                   ARKANSAS             15%                                             9/16/1993

                             NEW MEXICO           5%                                              1997

                             OKLAHOMA             figured annually                                1997
                                                  $0-4,999 = 0 %
                                                  5,000-14,999 = 6%
                                                  15,000-24,999 = 10%
                                                  25.000+ = 12%

                             TEXAS                figured monthly                                 10/29/2003
                                                  $1-999 = 2 %
                                                  1,000-1,499 = 3 %
                                                  1,500-1,999 = 4 %
                                                  2,000-5,999 = $80+18%
                                                  6,000+ = $800+24%

 REGION VII

 IOWA                        KANSAS               20%                                             11/5/1999

                             MISSOURI             13%                                             1/27/1995

                             NEBRASKA             13%                                             8/18/2003




                             STATES T H A T D O                 AMOUNT OF                            DATE OF RECENT
  STATES THAT DO NOT HAVE    HAVE SET-ASIDE                     SET-ASIDE                            DETERMINATION
                                                               PERCENTAGE
              SET-ASIDE
R E G I O N VIII

MONTANA                      COLORADO             First $100 = 1 0 %                               2/25/1981
                                                  Max. 1 3 %
NORTH DAKOTA
                             SOUTH DAKOTA         Figured monthly                                  3/17/1975
                                                  $0-200 =
 0
                                                  201-400 =
 1 0 %
                                                  401-600 =
 $ 2 0 + 1 5 % over 4 0 0
                                                  601-800 =
 $ 5 0 + 2 0 % over 6 0 0
                                                  801-1,000 = $90+30% over 800
                                                  1,000+ = $ 1 5 0 + 4 0 % over 1000

                                                  10%                                              2001
                             UTAH
REGION IX

HAWAII                       ARIZONA              Figured monthly                                  7/29/1990
                                                  First $400 = 2 %
                                                  401-500 = $ 8 + 5 %
                                                  501-600 = $ 1 3 + 1 0 %
                                                  601-700 = $23+15%
                                                  701+ = $ 3 8 + 2 0 %

                             CALIFORNIA           6% m a x                                         6/1/2004

                                                  figured monthly                                  8/17/2001
                             NEVADA
                                                  $0-1,100 = 2 % of net proceeds
                                                  1,101-1,350 = $ 2 5 + 5 % over 1100
                                                  1,351-1.800 = $ 3 5 + 1 0 % over 1350
                                                  1 , 8 0 1 - 2 2 5 0 = $ 8 0 + 1 5 % over 1800
                                                  2,251-2,800 = $ 1 5 0 + 2 0 % over 2 2 5 0
                                                  2,801-3,600 = $ 2 6 0 + 3 0 % over 2 8 0 0
                                                  3,601 -5000 = $ 5 0 0 + 4 0 % over 3600
                                                  5,000+ = $1045+50% over 5000




                                                                            Department        of Defense Office of Inspector General
                                                                                                             Report No. IE-2008-004
                                                       55
This Page Intentionally Left Blank




                            Department   of Defense Office of Inspector General
                                                        Report No. IE-2008-004
                56
Appendix G-Applicability of the Javits-Wagner-O'Day Act and
           Randolph-Sheppard Act to Military Dining Facilities-
           March 16, 2007



                            OFFICE OF T H E U N D E R SECRETARY OF               DEFENSE
                                           3000 DEFENSE PENTAGON
                                          WASHINGTON DC 2 0 3 0 1 - 3 0 0 0




                                                                                      MAR 16 2007



          DPAP/P

          MEMORANDUM FOR DIRECTORS, DEFENSE AGENCIES
                         DEPUTY ASSISTANT SECRETARY OF THE ARMY
                            (POLICY AND PROCUREMENT), ASA(ALT)
                         DEPUTY ASSISTANT SECRETARY OF THE NAVY
                           (ACQUISITION MANAGEMENT), ASN(RDA)
                         DEPUTY ASSISTANT SECRETARY OF THE AIR FORCE
                           (CONTRACTING), SAF/AQC
                         EXEECUTTVE DIRECTOR, ACQUISITION, TECHNOLOGY
                           AND SUPPLY DIRECTORATE (DLA)
                         DIRECTOR, ADMINISTRATION AND MANAGEMENT
                         DIRECTOR ARMY CONTRACTING AGENCY

          SUBJECT:      Applicability of the Javits-Wagner-O'Day Act and the Randolph-Sheppard
                        Act to Military Dining Facility Contracts

                   Pursuant to section 848 of the National Defense Authorization Act for Fiscal Year
           2006 (Public Law 109-163), the Department of Defense (DoD), the Department of
           Education (ED), and the Committee for Purchase From People Who Are Blind or
           Severely Disabled (CFP), submitted a report describing the joint statement of policy to
           specified congressional committees on September 1, 2006. This joint statement of policy
           represents the agreement between DoD, ED, and the CFP concerning the application of
           the Javits-Wagner-O'Day (JWOD)Acl(4I U.S.C. 48 et seq) and the Randolph-
           Sheppard Act (R-SA) (20 U.S.C. 107 et seq) programs to contracts for the operation and
           management of military dining facilities and to contracts for food services, mess
          attendant and other services supporting the operation of military dining facilities. The
          joint policy should not be cited in individual solicitations until it is implemented in
          complementary regulations by the ED and DoD. The exception is the provision of the
          joint policy, which was enacted as section 856 of the John Warner National Defense
          Authorization Act for Fiscal Year 2007 (Public Law 109-364).

                 Section 856, entitled "Contracting with Employers of Persons with Disabilities,"
          repeals subsections (a) and (b) of section 853 of the Ronald W. Reagan National Defense
          Authorization Act for Fiscal Year 2005 (Public Law 108-375), and addresses the
          applicability of the JWOD Act and R-SA to the operation of military dining facility




                                                                              Department   of Defense Office of Inspector General
                                                                                                          Report No. IE-2008-004
                                                        57
contracts and military dining facility support services as of the date of enactment
(October 17, 2006). The law states —

       (1) The R-SA does not apply to full food services, mess attendant services,
           or services supporting the operation of a military dining facility that, as
           of the date of the enactment of this Act, were services on the
           procurement list established under section 2 of the JWOD Act.
       (2) The JWOD Act does not apply at the prime contract level to any
           contract entered into by the DoD as of the date of the enactment of this
           Act with a State licensing agency under the R-SA for the operation of a
           military dining facility.
       (3) The JWOD Act shall apply to any subcontract entered into by a DoD
           contractor for full food services, mess attendant services, and other
           services supporting the operation of a military dining facility.

       My staff point of contact for the above is Ms. Susan Pollack, (703) 697-8336 or
susan.pollack@osd.mil.




                                           Shay D. Assad
                                           Director, Defense Procurement
                                             and Acquisition Policy




                                             2




                                                               Department   of Defense Office of Inspector General
                                                                                           Report No. IE-2008-004
                                              58
Appendix H1–Total Cost DoD Food Service Contracts
Data provides by OUSD (AT&L)/DPAP

                    Prime Contract Data (Base Contract Plus Option Years) Provided by the MILDEPS - As of September 2005
                                                                                                                                    # of
                                       # of                                                         # of Sm
                                                                       # of R-SA                                   Large            Lg
    MILDEP                 JWOD       JWOD           R-SA                          Small Business     Bus                                         TOTAL
                                                                       Contracts                                  Business         Bus
                                     Contract                                                       Contract
                                                                                                                                   Cont.

Navy                   $99,004,305     16           $23,750,341           5         $104,883,616       16                    $0       0        $227,638,262
Air Force            $309,395,751      23          $220,355,545           13        $151,918,287       24                    $0       0        $681,669,583
Army                   $85,464,742     19       $1,206,528,217*           28        $161,759,982       56          $1,298,068         1      $1,455,051,009
Marine Corps        $0(Ref Note 1)      0                     $0          0        $0(Ref Note 2)       0       $880,911,609          1        $880,911,609
Total                $493,864,798     58**       $1,450,634,103         46***       $418,561,885       96       $882,209,677          2      $3,245,270,463
Total % of $                  15%                               45%                          12.9%                       27.1%                           100%
Total % of #                           28%                              23%                            48%                           1%
Includes Update to Fort Benning Contract provided on April 21, 2006.

                                                                   

**JWOD prime contracts employ approximately 3200 blind or disabled workers.




                                                                              

***R-SA prime contracts employ some number below 46 blind vendors, this number has not been confirmed by the DoED.




                                                                                                                     

NOTE 1: The USMC Regional Food Service Contracts (RGFSCs) provide subcontracting opportunities for seven JWOD non-profit entities at 19




                                                                                                                                                           

mess halls, earning approximately $24,400,000.00.
                                                     





NOTE 2: The USMC RGFSCs provide subcontracting opportunities for four small business concerns at 33 mess halls, earning approximately




                                                                                                                                                       

$28,350,000.00.
                   





Analysis Summary:
                       





    •	 R-SA prime contracts comprise 45% of Total DoD Food Service Contract Dollars or $1.4 billion dollars, and 23% of total number of food
       service contracts.
    •	 JWOD prime contracts comprise 15% of Total DoD Food Service Contract Dollars or $493 million dollars, and 28% of total number of
       food service contracts.
    •	 Small Business prime contracts comprise 12.9% of Total DoD Food Service Contract Dollars or $418 million dollars, and 48% of total
       number of food service contracts.
    •	 Large Business prime contracts comprise 27.1% of Total DoD Food Service Contract Dollars or $882 million dollars, and 1% of total
       number of food service contracts.
                                                                                                            Department of Defense Office of Inspector General
                                                                                                                                     Report No. IE-2008-004
                                                                           59
Appendix H2–Summary of DoD Food Service Contracts
Data provided by OUSD (AT&L)/DPAP


              Department of Defense Prime Contracts for Military Dining Facilities

                                          Current as of September 2005


                                    Army       Air Force           Navy              Marine               Total
                                                                                     Corps

    JWOD                             19             23               16                   0                 58

    R-SA                             28             13                5                   0                 46

    Small Business                   56             24               16                   0                 96

    Large Business                   1               0                0                  1*                  2

    Total                           104             60               37                   1                202

    *Contract divided into two regional efforts for the East and West coasts.




                                                                          Department of Defense Office of Inspector General
                                                                                                   Report No. IE-2008-004
                                                         60
Appendix I–Buckley Air Force Base Analysis 


R-SA Mission Creep, A Case Study

With the movement of Randolph-Sheppard Act (R-SA) interest into the military dining facility
arena, we have observed the phenomenon usually associated with military operations of “mission
creep.”

Recent attempts have been observed where State licensing agencies (SLAs) have asserted a R-
SA priority where none exists. In a recent, and as yet unresolved case, the Colorado Department
of Vocational Rehabilitation (DVR), the SLA for Colorado, asserted a R-SA priority at Buckley
Air Force Base, Colorado. This assertion put forward where in a situation where the R-SA
priority does not attach.

Buckley AFB CO: In 1999, the Air Force awarded a full food service military dining facility
contract under the Randolph-Sheppard program to the Colorado Department of Vocational
Rehabilitation (DVR) to operate the High Frontier Dining Facility (“cafeteria”) at Buckley Air
Force Base (“Buckley”) in Colorado 34 . Colorado DVR, in turn, assigned a blind vendor to
operate the cafeteria. During the period that Colorado DVR operated the cafeteria, it was funded
with appropriated funds. Military personnel and select civilians with meal cards were authorized
to obtain food at the cafeteria. Also, as at most military bases, other than initial entry points or
dedicated training facilities, military personnel were permitted to opt out of the meal plan and
instead received a meal stipend they could use to purchase food wherever they chose.

In March of 2006, the Comptroller for the Air Force, issued a memorandum forecasting future
budgetary reductions, he directed all Air Force Space Command units, including Buckley, to
review their current contracting activity with a view toward reducing the amount of money that
the Air Force was spending on contracting. In response to this directive, Buckley officials
identified contracts that they determined would have the “least effect” on the Air Force’s mission
if eliminated. Overall, Buckley determined that it could reduce spending by $2.1 million by
eliminating certain identified contracts, including the contract for the operation of the cafeteria,
which alone was projected to generate savings of $1.4 million. Accordingly, the Air Force
notified Colorado DVR by letter dated July 25, 2006, that it did not intend to exercise any further
options under the cafeteria contract and that the contract would thus expire by its terms on
September 30, 2006. The Air Force represented that the closing was “due to lack of funding and
not because of any other reason.”

Concurrent with its decision to allow the Colorado DVR contract to expire by its terms, the Air
Force began to explore the idea of establishing some other type of food service outlet in the same
space. Under the proposal, Air Force Services would operate the facility on an “in-house” basis,
i.e., with Government employees.


34
  State of Colorado, Department of Law, Office of the Attorney General letter of February 14, 2007, subj: Request
expeditious appointment of an arbitration panel regarding the cafeteria at Buckley Air Force Base.
                                                                      Department of Defense Office of Inspector General
                                                                                               Report No. IE-2008-004
                                                        61
The Air Force conducted focus groups and explored various concepts for the proposed dining
facility. The Air Force considered concepts ranging from a “casual dining” restaurant and bar to
what was described as a “food court.” The Air Force elected to proceed to the extent that it
undertook planning to renovate the space and, at one point, estimated that the new facility would
re-open on October 27, 2006. 35

After discovering the plans to establish another type of a food service facility, Colorado DVR
contacted the Air Force, advising it that Colorado DVR sought to invoke its statutory priority in
the operation of the facility. Colorado DVR indicated that it was amenable to the Air Force’s
proposed concepts and offered to operate what it understood to be a “sports bar” for the Air
Force. Colorado DVR also indicated that it had available funds to assist the Air Force in paying
for the facility renovations and for any necessary equipment.

In view of previous interpretations of the application of the R-SA to military dining facilities, the
follow-on food service operation planned for Buckley AFB did not constitute a “cafeteria.” The
Department of Education’s (DoED) own regulations at 34 C.F.R. part 395 provide the following
definition:

                 Cafeteria means a food dispensing facility capable of providing a
                 broad variety of prepared foods and beverages (including hot
                 meals) primarily through the use of a line where the customer
                 serves himself from displayed selections…

The contemplated Sports Bar concept would not have met DoEDs basic criteria of a cafeteria as
indicated above.

The Air Force responded to Colorado DVR on September 18, 2006, advising that the planned
facility would not be a vending facility operation. The envisioned facility would be operated “in-
house” by the Services Division as a Nonappropriated Fund (NAF) activity and would not be
contracted out. As this was not a contract operation or a vending facility within the meaning of
the provisions of the Randolph-Sheppard Act, the priorities of the act do not apply.

On September 20, 2006, Colorado DVR formally requested that the Department of Education
(“DOE”), the agency responsible for administering the Randolph-Sheppard Act, institute
arbitration to determine the applicability of the Randolph-Sheppard Act to the proposed
operation of the new dining facility. The Colorado DVR also filed a motion with the Court of
Federal Claims (COFC) for a preliminary injunction “requiring the Air Force to take action
allegedly necessary to maintain the status quo until such time as the Randolph Sheppard
arbitration…is complete.” 36 . Colorado DVR requested such a preliminary injunction because
they alleged that “Randolph-Sheppard arbitrations almost always take over a year to complete”
and they further alleged that, without an injunction, “Colorado DVR and the vendor will be
irreparably harmed” in the meantime.


35
   Colorado Department of Human Services, Division of Rehabilitation, et. al. v. United States, 74 Fed CL. 339

(2006). 

36
   74 Fed CL. at 342. 

                                                                       Department of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                        62
In its request for arbitration to DoED Colorado DVR’s claims were based upon:

        1. The Air Force’s alleged failure to accord the statutory priority required by the
        Randolph-Sheppard Act in favor of blind vendors, and

        2. The Air Force’s undertaking to renovate a Federal building without providing space
        for a Randolph-Sheppard vending facility, allegedly in violation of 20 U.S.C. §
        107a(d)(1). On October 26, 2006, after hearing oral argument, the Court requested that
        plaintiffs submit proposed orders setting forth the precise terms of preliminary injunction
        they seek. On November 2, 2006, plaintiffs filed two alternative proposed orders. The
        first order would require the Air Force to complete the renovations in a timely manner
        and, when completed, install plaintiffs as the operators of the new facility. In the Court’s
        view, such an order appeared to go beyond preservation of the status quo pending the
        outcome of the arbitration. The second proposed order would enjoin the Air Force “from
        entering into or performing under any contract or other arrangement for food services
        (including, but not limited to, operating the facility ‘in-house’) at the building . . . that
        contained [the cafeteria] . . .unless and until the Air Force has applied the Randolph-
        Sheppard Act’s priority to that contract or other arrangement.” The Court interpreted the
        intent of the second proposed order to be to require the Air Force to either cease its plans
        to renovate and re-open the dining facility, or to proceed as if the Randolph-Sheppard Act
        priority applied notwithstanding the Air Force’s intention to operate the proposed facility
        on an in-house basis rather than pursuant to contract. Under the second order, the Court
        understood that the Air Force would have the option to: (1) leave the space unoccupied,
        (2) negotiate a contract with Colorado DVR for the operation of the facility, 34 C.F.R. §
        395.33(d),

        3. That the Air Force elected not to formally solicit bids or offers for the operation of the
        facility and award the contract to Colorado DVR if it its proposal was judged to be in the
        competitive range, id. § 395.33(b), or

        4. Request that the Secretary of the DOE approve a “limitation” on the Randolph-
        Sheppard priority. See 20 U.S.C. § 107 (“Any limitation on the placement or operation
        of a vending facility based on a finding that such placement or operation would adversely
        affect the interests of the United States shall be fully justified in writing to the Secretary .

The COFC declined to provide injunctive relief determining that the Colorado DVR had not
exhausted administrative remedies (arbitration) under the R-SA.

Via letter of March 5, 2007, the Department of Education notified Buckley AFB that they had
approved the Colorado DVR arbitration request.37



37
  U.S. Department of Education, Office of Special Education and Rehabilitative Services, Rehabilitation Services
Administration letter of March 5, 2007, subj: Colorado Department of Human Services, Division of Vocational
Rehabilitation v. United States Department of Defense, Department of the Air Force, Case No. R-S/06-13.
                                                                      Department of Defense Office of Inspector General
                                                                                               Report No. IE-2008-004
                                                        63
In response, the Air Force provided a reclama to DoED challenging the decision to grant
Colorado DVR arbitration in this case. The basic arguments presented by the Air Force were 38 :

     •	 That the operation in question was not a “cafeteria” within the meaning of the R-SA – It
        was a bar/pub operation.

     •	 That the state, in its request, sought to displace the Air Force from internally running the
        newly-opened, temporary, week-ends only, bar/pub operation on the base.

     •	 That the Air Force had offered the State the opportunity to serve breakfast and lunch
        meals in a building on an interim basis until they (AF) could determine the best long-term
        arrangement. An offer that the State declined stating that they did not have the funds to
        cover the high costs of such an operation




38
  Department of the Air Force, Headquarters Air Force Legal Operations Agency (HQ AFLOA), letter of March 7,
2007, subj: State of Colorado’s 14 February 2007 Request for Appointment of an Arbitration Panel – Buckley Air
Force Base (AFB).
                                                                    Department of Defense Office of Inspector General
                                                                                             Report No. IE-2008-004
                                                      64
Appendix J-Department of Education Inspector General
           Report-July 31, 2007



                                UNITED STATES DEPARTMENT OF EDUCATION
                                               OFFICE OF INSPECTOR GENERAL




                                                   July 31, 2007

                                                                               Control Number
                                                                               ED-OIG A19H0001
         John H. Hager
         Assistant Secretary
         Office of Special Education and Rehabilitative Services
         U.S. Department of Education
         400 Maryland Avenue, SW
         Washington, DC 20202

         Dear Mr. Hager:

         This Final Report, entitled Management Procedures under the Randolph-Sheppard Act and
         Javits-Wagner-O'Day Act, presents the results of our review. The purpose of the inspection was
         to review the Department of Education's (Department) oversight of the Randolph-She ppard and
         Javits-Wagner-O'Day (JWOD) programs.




                                               BACKGROUND


         The Randolph-Sheppard program provides blind persons with opportunities for remunerative
         employment and self-support through the operation of vending facilities on federal and other
         properties. The Randolph-Sheppard Act gives priority to blind persons in the operation of
         vending facilities on federal properly, to include cafeterias, snack bars, and automatic vending
         machines. The program is voluntary, with 49 of 50 states opting to operate the program.

         Under the Randolph-Sheppard program, state licensing agencies (SI As) recruit, train, license
         and place blind individuals as operators of these vending facilities. By law, SLAs are agencies
         providing vocational rehabilitation (VR)services to individuals who are blind in each state.
         These agencies receive grant funds for VR services from the Department. The Rehabilitation
         Services Administration (RSA) within the Office of Special Education and Rehabilitative
         Services (OSERS) administers the program.

         The Javits-Wagner-O'Day {JWOD) program, in part, provides employment opportunities to
         individuals who are blind or have other severe disabilities. The Federal Government purchases
         commodities and services from nonprofit agencies employing such individuals through the
         JWOD program. The Committee for Purchase From People Who Are Blind or Severely
         Disabled (CFP) is an independent Federal agency that administers the JWOD program.
         It is comprised of 15 Presidentially-appointed members 11 represent Governmental agencies;
         4 are private citizens. The Department is represented on the CFP.




                                                                          Department    of Defense Office of Inspector General
                                                                                                       Report No. IE-2008-004
                                                        65
Final Report
ED-OIG A19H0001                                                                                       Page 2 of 6

Section 856(c) of the John Warner National Defense Authorization Act for Fiscal Year 2007
required the Inspectors General of the Department of Defense (DoD-OIG) and the Departmet of
education (ED-OIG) to jointly review the management procedures under both the Randolph-
Sheppard Act and the JWOD Act. This report includes the results of the ED-OIG review only.
DOD-OIG will be issuing a separate report at a later date that will provide the results of its
management review of the Department of Defense's (DOD) implementation of the two Acts with
regard to military facilities.

On January 26, 2007. the Government Accountability Office (GAO) issued a report entitled.
"Federal Disability Assistance: Stronger Federal Oversight Could Help Assure Multiple
Programs' Accountability." GAO reviewed four employment-related programs aimed at helping
people with disabilities obtain jobs_ including the Randolph-Sheppard and JWOD programs.
Specifically, GAO assessed the extent to which (1) performance goals and measures have been
established for these programs and (2) the agencies responsible have established adequate
procedures for overseeing program implementation and assuring laws and regulations are
followed. G A O found that no performance goals or measures currently exist for the Randolph-
Sheppard program, and the Department conducted little oversight of the program. As a result
G A O recommended that the Department establish goals for the Randolph-Sheppard program and
strengthen program monitoring and guidance.




                                      INSPECTION RESULTS


We determined GAO recently reviewed the Department's oversight of the Randolph-Sheppard
          1
program. As such, we considered the duplication of effort when planning our inspection in
accordance with the President's Council on Integrity and efficiency (PCIE) Quality Standards
for Inspections (2005).2 In addition, we determined the Department is not responsible for the
administration of the JWOD program: therefore, we did not review and cannot comment on that
program's management procedures.

Overall, our review of management procedures under the Randolph-Sheppard Act did not
identify concerns beyond those recently reported by GAO. To address these concerns, we found
the Department is developing goals and objectives to improve the program's management,
accountability, and performance. In addition, we found the Department is currently engaged in
rulemaking to clarify program requirements in the key area of military food service contracting.
The Department has been working with DoD and the CFP to clarify how the priority afforded
blind individuals under the Randolph-Sheppard Act must be applied to the operation of DoD
cafeterias. Because our results were similar to those reported by GAO, we have no new
recommendations for the Department.




1
 GAO-07-236: "Federal Disability Assistance: Stronger Federal Oversight Could Help Assure Multiple Programs'
Accountability," issued January 2007.
2 Page 12 of the PCIE Quality Standards for Inspections (2005) states the standard for inspection planning includes
coordinating inspectionworkand avoiding duplication.




                                                                           Department     of Defense Office of Inspector General
                                                                                                         Report No. IE-2008-004
                                                        66
Filial Report
ED-OIG/A19H0001                                                                             Page 3 of 6

In its response to the draft report, OSERS concurred with the finding. The complete text of the
response is included as an attachment to this report.

FINDING- Improvements Are Needed in Management Procedures Under the Randolph
S h e p p a r d Act

Lack of Performance Goals for the Randolph-Sheppard Program

The GAO report found the Department did not have Government Performance Results Act goals
for the Randolph-Sheppard program, and neither the Randolph-Sheppard Act nor its
implementing regulations require them. In its report, GAO stated that according to Department
officials, no formal performance goals currently exist, but they were under development.

During our review the Department provided an internal workplan, which describes the goals and
objectives it is developing to improve the management, accountability, and performance of the
Randolph-Sheppard program, these goals and objectives include: demonstrating efficient and
effective administration of the Randolph-Sheppard Act: determining the cost, benefits and
effectiveness of the Randolph-Sheppard program; obtaining detailed information on military
food service contracts; and engaging in rulemaking to clarify program requirements in the area of
military food services. The Department has obtained input from stakeholder groups to assist
with determining performance goals and outcome measures, and the slate data collection forms
will be revised to collect information necessary to support and measure the program goals
established.

Limited Oversight of the Randolph-Sheppard Program

The GAO report found the Department provided little oversight of the Randolph-Sheppard
program. Specifically, GAO determined that the Department had no formal procedures for
evaluating state programs and had performed few on-site monitoring reviews of SLAs in recent
years.

In response to the GAO report, the Department staled it would develop an annual monitoring
plan, to include on-site monitoring of a minimum of four programs per year. Randolph-
Sheppard program monitoring will be coordinated with activities to monitor VR programs. At
the time of our review, the Department was completing final monitoring reports for four states
and the District of Columbia. Department staff informed us they had previously tried to perform
four to five site visits per year, but due to a lack of staff and funds, the site visits had not been a
priority.

GAO also reported the Department relied primarily on self-reported state data for its monitoring
of the Randolph-Sheppard program and did not test the accuracy or routinely analyze the data it
collects. As a result, the GAO report concluded the Department could not assess trends in
performance, identify possible best practices, or help states that may need assistance.

Department staff informed us that in the past, a grantee of the Department was collecting and
reporting on the Randolph-Sheppard program data submitted by the states. The Department
informed us that it learned the grantee's data was incomplete and did not include information on
large contracts, and therefore it began collecting the information in-house. Department staff said




                                                                    Department   of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                  67
Final Report
ED-OIG/A19H0001                                                                        Page 4 of 6

a comprehensive report has been compiled for the FY 2003 data, and it has the data for FYs 2004
through 2006. However, the Department has not yet cleared the FY 2003 report for release.

GAO also reported that the Department had not provided clear guidance to states on emerging
issues that could have nationwide implications. Instead. GAO said the Department responded to
individual state concerns, which results in states having different policies.

During our review, one area we noted where states had differing policies was with regard to
vendor eligibility and training. We reviewed the websites of states with prime contracts for
military dining facilities and found disparity among state requirements. For example, not all
states listed the same requirements for a high school diploma or equivalent, minimum-age, or
minimum reading and math level. We also noted differences among the states with regard to the
length of vendor training. One state's website stated the training program was 12-weeks,
whereas another state's program was approximately 30-weeks.

States are not currently required to have identical policies and requirements for vendors. The
regulations implementing the Randolph-Sheppard Act allow each state to establish and maintain
objective criteria for licensing qualified applicants. According to Code of federal Regulations
(CFR) Title 34, section 395.7. (2006) "The issuance and condition of licenses," the criteria must
include provisions to assure that licenses will be given only to individuals who are determined by
the SLA to be: 1) blind; 2) a U.S. citizen: and 3) certified by the state VR agency as qualified to
operate a vending facility. In addition, the regulations do not specify the length of training that
must be provided to blind individuals. According to 34 CFR 395.11, 'Training program for
blind individuals,'' the SLA "shall ensure that effective programs of vocational and other training
services...shall be provided to blind individuals as vocational rehabilitation services."

In May 1997, the RSA Commissioner issued training performance standards to the state VR
agencies. The standards incorporated the National Restaurant Association's programs that
provide the national training and certification requirements for the restaurant industry. The
National Automatic Merchandising Association provided input and support through its well-
established training program and certification requirements. RSA encouraged their use to
facilitate overall program improvement, to reduce the need for training of vendors who move
from one stale to another, and 10 promote uniformity in the administration of the program by the
states. However, there was no requirement that the standards be adopted in whole or in part.

Department staff stated the true operation of the Randolph-Sheppard program is at the state
level, and noted that some states would claim a hardship if RSA imposed new training
standards, because it did not offer grants specifically for this purpose. States would likely need
to move funds from other VR programs to support more extensive training. Staff also said they
believe flexibility is exactly what was desired when the program was created, in part due to
stales having different regulations with respect to food safety certifications. The training, in
theory, is intended to produce the skills perceived necessary to be successful in a particular
program.

The Department has been working to improve its efforts to provide clear guidance. On August
29, 2006, the Department, DoD, and CFP submitted a Joint Report to Congress, as required by
Section 848 of the National Defense Authorization Act for FY 2006. This report provided a joint
policy statement for the application of the JWOD Act and Randolph-Sheppard Act to contracts




                                                                 Department   of Defense Office of Inspector General
                                                                                             Report No. IE-2008-004
                                                68
Final Report
ED-OIG A19H0001                                                                        Page 5 of 6

for the operation and management of military dining facilities. The joint analysis was performed
to reach an agreement on issues where there had been long-standing confusion or lack of
agreement among parties. The Department is in the process or drafting new regulations to
implement the joint policy report and clarify program requirements with regard to military food
service facilities. These regulations are currently under review at DoD. DoD has been tasked
with drafting complementary regulations.

In addition the Department plans to issue to SLAs an inventory of policy directives, technical
assistance circulars, and other written guidance previously issued by the Department relevant to
the Randolph-Sheppard program Department staff stated policy guidance will also be placed on
the ed.gov website, so it will be easily available to program participants, state government
agencies, federal procurement officials and property-managing agencies.

Conclusion

As a result of its findings, GAO recommended that the Secretary of Education provide more
effective leadership of the Randolph-Sheppard program by: establishing performance goals:
being more proactive in disseminating clear, consistent, and routine guidance; and strengthening
monitoring of SLA and Randolph-Sheppard program performance- Because our findings were
similar to those of G A O , we have no new recommendations for the Department.

OSERS Comments

In its response to the draft report. OSERS concurred with the finding.




                  OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of our inspection was to review the Department's oversight of the Randolph-
Sheppard and JWOD programs. We subsequently determined the Department is not responsible
for the administration of the JWOD program: therefore, we did not perform any further review of
this program.

To accomplish our objective, we conducted interviews with Department officials to gain an
understanding of how the Randolph-Sheppard program is administered and monitored. We
reviewed federal regulations that established and implemented the program as well as
Department guidance provided to SLAs. We reviewed prior GAO and Congressional reports.
We also reviewed documentation maintained by OSERS relating to the Randolph-Sheppard
program. This included site visit reports, annual reports, information memoranda, and a
technical assistance circular. Further, we reviewed the websites of 25 states identified as having
prime contracts for military dining facilities as of September 2005. Of these 25 states, 11 had
information on their websites pertaining to vendor eligibility and or training requirements.




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                                69
Final Report
ED-OIG A19H0001                                                                       Page 6 of 6

The fieldwork for our inspection was conducted at Department offices in Washington, D.C.,
during the period December 2006 through March 2007. Our inspection was performed in
accordance with PCIE Quality Standards for Inspections.




                            ADMINISTRATIVE MATTERS


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Michele Weaver-Dugan at (202) 245-6941.
                                                   Sincerely,


                                                    George A. Rippey /s/
                                                    Acting Assistant Inspector General
                                                    for Audit




Allachment

cc:   Edward Anthony, Acting Commissioner, Rehabilitation Services Administration
       Melanie Winston, Audit Liaison Officer




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               70
                        UNITED STATES DEPARTMENT OF EDUCATION

                       OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

                                                                                                     THE ASSISTANT SECRETARY




                                                                                   JUL 1 3 2007


Michele Weaver-Dugan
Director, Operations Internal Audit Team
U . S . Department o f Education
Office o f Inspector General
4 0 0 Maryland A v e n u e . S.W.
Washington, D C 2 0 2 0 2




Dear M s . Weaver-Dugan:



Thank you for the opportunity to review the Draft R e p o r t - M a n a g e m e n t Procedures
Under the Randolph-Sheppard Act and Javits-Wagner-O'Day Act, E D - O I G / A 1 9 H 0 0 0 1 .
We concur with the draft report. M y office provided technical and editorial suggestions
we understand will be incorporated into the final report.

Your report contains no n e w recommendations for the Department because o f your
recognition o f the prior related work done b y the Government Accountability Office and
the management improvements the Office o f Special Education and Rehabilitative
Services is presently implementing for the Randolph-Sheppard program.

We appreciate your interest in improving the effectiveness o f the Department's program
providing services to individuals with disabilities.



                                                                 Sincerely.




                                                              John H. Hager




cc: Edward Anthony




                               4 0 0 MARYLAND AVE., S.W.. WASHINGTON. D . C . 2 0 2 0 2 - 2 5 0 0
                                                      www.ed.gov

       Our mission is to ensure equal access to education   and to promote educational   excellence throughout   the nation.




                                                                                    Department         of Defense Office of Inspector General
                                                                                                                      Report No. IE-2008-004
                                                            71
This Page Intentionally Left Blank




                           Department of Defense Office of Inspector General
                                                    Report No. IE-2008-004
               72
Appendix K-Department of Defense, Department of Education, and 

           Committee for Purchase Joint Policy
           Recommendations (with Analysis)




      SECTION 848 OF THE NATIONAL DEFENSE AUTHORIZATION
      ACT FOR FISCAL YEAR 2006 JOINT POLICY STATEMENT:
      APPLICATION OF THE JAVITS-WAGNER-O'DAY ACT AND THE
      RANDOLPH-SHEPPARD ACT TO THE OPERATION AND THE
      MANAGEMENT OF MILITARY DINING FACILITIES CONTRACTS


      ANALYSIS REQUESTED AT THE SEPTEMBER 19, 2006, MEETING
      WITH THE SENATE HELP COMMITTEE AND PARTICIPATING
      AGENCIES:


      DEPARTMENT OF DEFENSE, MR. SHAY D. ASSAD, DIRECTOR,
      DEFENSE PROCUREMENT AND ACQUISITION POLICY

      DEPARTMENT OF EDUCATION, MR. JOHN H. HAGER,
      ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND
      REHABILITATIVE SERVICES

      COMMITTEE FOR PURCHASE FROM PEOPLE WHO ARE BLIND
      OR SEVERELY DISABLED, MR. LEE WILSON, EXECUTIVE
      DIRECTOR




                                         Department   of Defense Office of Inspector General
                                                                     Report No. IE-2008-004
                                 73
The following provides analysis of the Section 848 joint policy report,
produced in response to a Senate HELP Committee request made on
 September 19, 2006. This analysis of the policy report was developed
jointly by the Department of Defense, the Department of Education, and
the Committee for Purchase From People Who Are Blind or Severely
Disabled. Each of the ten sections of the report is followed by an analysis
designed to provide background information on the reason or reasons for
the section, the thinking behind the approach chosen, and the effect of the
section. New policy is identified. Existing statutory and regulatory
provisions are discussed and clarified, because it has become apparent
through comments on the policy report that there may be some
misunderstandings in the field about current requirements, particularly in
differentiating among statutory, regulatory, subregulatory and policy
domains and provisions.


           CONTRACTING FOR MILITARY DINING FACILITY OPERATION, 

                FOOD SERVICES AND OTHER SUPPORT SERVICES 



  Section 848 of the National Defense Authorization Act of Fiscal Year 2006 (Public Law                            109-163)
  Committee for Purchase From People Who Are Blind or Severely Disabled (CFP) to develop a
 joint statement of policy concerning application of the Javits-Wagner-O'Day (JWOD) Act (41
 U.S.C. 48 et seq) and the Randolph-Sheppard Act (R-SA) (20 U.S.C. 107 et seq) to contracts for 

  operation and management of military dining facilities and contracts for food services, mess 

  attendant and other services supporting the operation of military dining facilities. A taskforce 

  comprised of representatives from DOD, ED, and the CFP met weekly and engaged in almost 

  daily discussions by electronic mail and telephone to develop a joint statement of policy pursuant 

 to Section 848. The taskforce also solicited public comments through a notice in the Federal 

  Register, and approximately 240 comments were received. The taskforce memorialized their 

  agreement in the following joint statement of policy. 




 Analysis Overview

 The goals of the Section 848 joint policy report were to:

      • Provide a responsive report to Congress as required by Section 

 848 of the National Defense Authorization Act for Fiscal Year 2006. 




                                                  2




                                                                   Department   of Defense Office of Inspector General
                                                                                               Report No. IE-2008-004
                                                   74
      . Reach as much multi-Departmental administrative agreement as
possible on issues where there had been long-standing confusion, or lack
of agreement among the parties. The history of high-level debate on
these conflicts in military food service contracting extends back to the
1990's, including discussions at the Office of Federal Procurement
Policy. No solutions were obtained at that time.

     • Develop a policy statement that is consistent with the Randolph
Sheppard Act (R-SA), the Javits-Wagner-O'Day Act (JWOD), DoD's
mission, and the needs of the military services, including cost
containment.

      . Provide more job opportunities for blind individuals (R-SA) and
individuals with severe disabilities or who are blind (JWOD).

      . Make the application of R-SA priority more understandable and
workable for the military departments, base commanders, contracting
officers, and R-SA and JWOD entities.

      • Reach policy agreement to define key terms and concepts and
reduce ambiguity and uncertainty in the distribution of military food
service business to R-SA and JWOD offerors.

The parties agreed to draft regulations that will implement the terms of
the Joint Policy Statement.


                             JOINT STATEMENT OF POLICY

It is the joint policy of the DOD, ED and the CFP (hereinafter "the Parties") that —

    I.	 Defense appropriations shall be used to accomplish the defense mission. This mission
        shall be carried out by providing value and accountability to the taxpayers as well as
        supporting socioeconomic programs to the maximum extent practicable under the law.
        The DOD has a military mission to maintain some level of in-house food service and
        military dining facility managerial capabilities to enable forward deployment operations,
        training, rotation and career progression. Contract services must enable DOD to feed the
        troops high quality food at a cost effective price.


                                                3




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               75
Analysis

     • Section 1 describes the conceptual framework within which
DoD expends its appropriations to meet the needs of the warfighter
while also satisfying the requirements of the R-SA and JWOD programs.

      • Section 1 states that the military departments have inherent
authority to define their requirements and that procurement decisions
must support the readiness of the Armed Forces. It reflects the reality
that food services are a major DoD operational cost item and DoD is
subject to budgetary constraints, while also recognizing that DoD
complies with various set-aside, priority, and socioeconomic preference
programs. Section 1 emphasizes that military food service needs may
vary in timing and volume at given locations due to troop deployments
and other operational reasons. The references to high quality and cost-
effectiveness paraphrase the Randolph-Sheppard Act and the regulations
concerning "Operation of cafeterias by blind vendors" at 34 CFR
395.33(a). Section 1 reflects no change in policy.


  2. The Secretaries of the Military Departments concerned, as defined in 10 U.S.C.
     §101 (a)(9), shall have the discretion to define requirements (e.g., contract statements of
     work, assignment of tasks and functions among workers in a facility) and make
     procurement decisions concerning contracting for military dining support services and the
     operation of a military dining facility and shall ensure that procurement decisions support
     the readiness of the Armed Forces.


Analysis

      • This section is an extension of the first section and provides the
legal basis for the role of the service Secretaries. Section 2 reflects no
change in policy. The Title 10 distinctions are important to DoD.


  3. The Parties recommend that legislation (See Attachment 1) should be submitted that
     creates a "no-poaching" provision maintaining the current distribution of contract
     opportunities as outlined in this paragraph. The Procurement List protects the jobs of



                                              4




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               76
      people who are blind and/or severely disabled, and does not conflict with the R-SA
      opportunities of blind vendors who may employ these workers through a JWOD
      nonprofit agency. The R-SA shall not apply to any requirement for military dining
      support services identified on the Procurement List, or to any contract, purchase order,
      agreement or other arrangement for operation of a military dining facility that is a
      requirement identified on the Procurement List and was being provided by a JWOD
      nonprofit agency as of the date of enactment of the "no-poaching" provision. The JWOD
      shall not apply at the prime contract level to any contract for operation of a military
      dining facility entered into with a State licensing agency as of the date of enactment of
      the "no-poaching" provision, for example, Fort Lee, Fort Carson, and Kirtland AFB
      prime contracts. As contracts with State licensing agencies expire, the DOD will solicit
      competitive proposals under the R-SA.


Analysis

      • Section 3 may have been overtaken in part by statutory change.
The John Warner National Defense Authorization Act for Fiscal Year
2007 (NDAA FY07) provides "no poaching" protections to R-SA
military food service contracts in effect on the date of enactment, and
commits DoD to ensuring the continued opportunity for State R-SA
agencies to compete for future contracts and maintain existing work.
The NDAA FY07 also clarifies that the "no-poaching" protection for
current JWOD military food service contracts applies to those services
on the Procurement List at the time of enactment.

      • Section 3 establishes new policy protection for existing R-SA
food service contracts by specifying that JWOD will not seek that work
as a prime contractor even if the requirement is on the Procurement List.
This includes specific mention of several locations where former JWOD
prime contractors were displaced by R-SA agencies. Public comment
taken during the development of the policy report supported the "no
poaching" provision (i.e., the maintenance of existing market share), and
these sentiments were expressed by both R-SA and JWOD sources.

   4. For contracts not covered by the "no-poaching" provision:

       a. The contracts will be competed under the R-SA when the DOD solicits a contractor to
exercise management responsibility and day-to-day decision-making for the overall functioning



                                              5




                                                                     Department   of Defense Office of Inspector General
                                                                                                 Report No. IE-2008-004
                                                    77
of a military dining facility, including responsibility for its staff and subcontractors, where the
DOD role in the contract is generally limited to contract administration functions described in the
Federal Acquisition Regulation (FAR) Part 42 (48 CFR, Chapter 1, Part 42),

        b. In all other cases, the contracts will be set aside for JWOD performance (or small
businesses if there is no JWOD nonprofit agency capable or interested) when the DOD needs
dining support services, (e.g., food preparation services, food serving, ordering and inventory of
food, meal planning, cashiers, mess attendants, or other services that support the operation of a
dining facility) where DOD food service specialists exercise management responsibility over and
above those contract administration functions described in FAR Part 42.

        c. The presence of military personnel performing dining facility functions does not
necessarily establish the inference that the Government is exercising management responsibility
over that particular dining facility.


Analysis

      • Section 4.a recognizes DoD's legal obligation to foster
competition in contracting, while recognizing the SLAs' right to
compete for new contracts for operation of military dining facilities.
This is an explicit recognition that the R-SA applies to such new work.
Section 4.a. reflects an important policy agreement concerning what
constitutes "operation of a cafeteria," a term not currently defined in
Randolph-Sheppard regulations or heretofore agreed to by ED and DoD.
Lack of agreement concerning what constitutes operation of a cafeteria
has created confusion when applying the R-SA. The parties believe that
when Federal regulations incorporate the definition, courts should grant
it deference if litigated, since both ED and DoD established the
definition pursuant to the policy statement of the Section 848 Report
mandated by Congress.

      • Section 4.b describes JWOD and SBA set-asides for contractual
services provided to DoD when the R-SA priority does not apply.

     . Section 4.c is designed to safeguard the R-SA priority for
operation of a cafeteria by clarifying that, in some cases, military
personnel may be present, and working in the facility, without



                                                6




                                                                  Department   of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                 78
compromising the ability of an R-SA agency to compete for the prime
contract for the operation of the cafeteria. This is new policy.

      • It should be noted that State R-SA agencies do not have
authority to provide military dining support services as limited
contractual services. The R-SA role in military food service is for the
operation of an (entire) military dining facility (cafeteria), for which
these agencies have a procurement priority. JWOD providers furnish a
wider range of goods and services, preferentially purchased by the
government after the government's requirements have been specified
and the CFP assesses cost and supply chain factors and adds the goods
or services to the Procurement List. JWOD providers may serve as food
service prime contractors or providers of support services. These current
statutory differences are mentioned for clarity and context, because there
are indications that they may not be uniformly understood. The policy
report did not compare or address differences in statutory authority
because those differences are not matters of administrative policy.


  5.	 In accordance with FAR Part 8, if dining support services are on or will be placed on the
      Procurement List, any State licensing agency that is awarded a contract for operation of
      that military dining facility under the R-SA shall award a subcontract for those services.


Analysis

      • Section 5 reflects no change in policy. It restates an existing
requirement that may not have been well-understood or honored in all
cases where a State R-SA agency, (or any prime contractor), is operating
a military dining facility. If appropriate support services are on the
Procurement List in the geographic area of the contract, any prime
contractor (including all commercial contractors and R-SA State
agencies) is obligated to subcontract for those services. FAR Part 8,
which explains the effect of the Procurement List, and 41 CFR Chapter
51, which directs subcontracting to JWOD non profit agencies, apply to
all contractors entering into Federal appropriated fund prime contracts.



                                               7




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               79
  6.	 In order to promote economic opportunities for blind vendors and to increase the number
      of blind persons who are self-supporting, the R-SA requires that State licensing agencies
      provide blind persons education, training, equipment and initial inventory suitable for
      carrying out their licenses to operate vending facilities in federal buildings. The Parties
      believe that the R-SA program should encourage to the maximum extent possible the
      employment of people who are blind. Accordingly, through its rule-making procedures
      ED will encourage State licensing agencies that assert the R-SA "priority" for a multi-
      facility contract for operation of military dining facilities to assign at least one blind
      person per military dining facility in a management role.


Analysis

      • The general statement of policy in Section 6 is consistent with
the intent and first authorized purpose of Section 107(a) of the R-SA,,
which is to provide blind persons with remunerative employment. The
number of blind individuals employed through the R-SA has been
declining. The parties would like to see the number increase.

       . Department of Education regulations governing the R-SA
program require State agencies to provide training programs for blind
individuals, including upward mobility training for all blind licensees.
R-SA State agencies are in all cases the same agencies funded by the
Department of Education to provide vocational rehabilitation services,
i.e., employment services and training services, to individuals who are
blind, to assist them in obtaining an employment outcome.

       • DoD has noted that blind vendors are often not identifiable or
discernibly active participants in the performance of military dining
facility contracts, particularly multi-site contracts, awarded under the R­
SA priority. Section 6 is designed to promote employment for a larger
number of blind individuals and to help ensure that work is performed
by blind individuals in operating military dining facilities.


  7.	 The DOD shall continue to be able to use the "Marine Corps model" for regional
      contracts for operation of military dining facilities at several installations or across State
      lines. In this model, the DOD may designate individual dining facilities for subcontract
      opportunities under the Smalt Business Act, JWOD or other preferential procurement


                                                 S




                                                                   Department    of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                 80
     programs, and may designate some facilities in which military food service specialists
     may train or perform cooking or other dining support services in conjunction with
     contractor functions. State licensing agencies are eligible under the R-SA to bid on
     contracts based upon this model.


Analysis

      • Section 7 does not change existing policy. When the Marine
Corps re-competes its food service contracts, the solicitation(s) will be
subject to the R-SA. The contracts now in effect were competed subject
to the R-SA.

      • As noted previously, the military departments have the authority
to define their food service requirements and make procurement
decisions to support the readiness of the Armed Forces. The parties
recognize that contracts involving food services in more than one State
would require cooperation between or among R-SA agencies, because
the statute specifies that administering agencies are agencies of State
government, i.e., those agencies in all cases funded by the Department of
Education to provide vocational rehabilitation services. This is a
structural feature of the program. Such coordination is certainly possible
and allowable. There is no Federal bar to a State vocational
rehabilitation agency providing services to a resident of another State,
but the question of multi-state or cross-State operations in the R-SA has
not been carefully considered.


  8.	 M E T H O D OF AFFORDING T H E RANDOLPH-SHEPPARD " P R I O R I T Y . " — Defense Department
     contracts for the operation of a military dining facility must be awarded as the result of
     full and open competition, unless there is a basis for direct negotiations (e.g., the only
     source available to provide the services is a State licensing agency, or an exception to the
     Competition in Contracting Act applies). When competing such contracts, contracting
     officers shall afford State licensing agencies a priority under the R - S Act when (1) the
     State licensing agency has demonstrated that it can provide such operation at a fair and
     reasonable price, with food of high quality comparable to that available from other
     providers of cafeteria services and comparable to the quality and price of food currently
     provided to military service members; and (2) the State licensing agency's final proposal
     revision, or initial proposal if award is made without discussions, is among the highly
     ranked final proposal revisions with a reasonable chance of being selected for award. In



                                               9




                                                                 Department   of Defense Office of Inspector General
                                                                                             Report No. IE-2008-004
                                                81
     this context, the term "final proposal revision" is a reference to the description in FAR
     Subpart 15,307. The term "fair and reasonable price" means that the State licensing
     agency's final proposal revision does not exceed the offer that represents the best value
     (as determined by the contracting officer after applying its source selection criteria
     contained in the solicitation) by more than five percent of that offer, or one million
     dollars, whichever is less, over all performance periods required by the solicitation.


Analysis

      • Section 8 restates as policy a combination of statutory and
regulatory provisions and references the language now used in DoD to
describe what had been commonly or historically termed the
"competitive range" from which competing contract proposals would be
selected. The parties intend to develop consistent and complementary
regulatory language so that DoD and ED policy officials, DoD
contracting officers, and R-SA entities will have a clear, shared
understanding of how the R-SA priority is to be afforded. The
Department of Education is expected to be able to regulate more
promptly than DoD because amending DoD procurement regulations is a
complicated task.

      • The "fair and reasonable price" cost criteria of one million
dollars, or five percent, whichever is less, is new policy agreement.
Food service costs are a major operational cost for base commanders.
DoD is under heavy budget pressure. There are hundreds of JWOD
entities, commercial food service contractors and 8(a) firms. This is a
large potential universe of food service providers and the direct and
indirect competition for military business contributes to the containment
of DoD's costs. In contrast, the powerful R-SA priority is afforded to a
single agency of government in each State. The combination of a
monopoly service provider coupled with a powerful statutory priority
does not foster cost containment. Typically, a State R-SA agency will
partner with a commercial food service company in order to pursue
military dining facility contracts. The agency may be approached by
commercial food service company interested in military dining facility
contracts, or the agency will select a commercial food service company


                                              to




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               82
with which to pursue military contracts. Either way, the commercial
food service company provides the institutional food service staff,
experience, and expertise DoD demands, and prepares the complex DoD
contract proposals on behalf of the State. Because only the proposal
submitted by the State R-SA agency has the statutory priority, other
offerors may be discouraged from competing. This does not support
cost containment. If multiple offerors are competing, DoD contracting
officers may be faced with threats of arbitration, litigation, and delay if
the State R-SA proposal is not accepted, even if costs are high.
Presently, there is no clear yardstick to support decision-making.

       • DoD is understandably concerned about costs. However, the
parties have agreed to give proposals submitted by R-SA entities the
 specified financial advantages not given to any other offerors, to honor
the priority and to make application of the priority a clear matter for
 DoD contracting officers. The priority is in all non-financial respects
unqualified and preserved. The parties have agreed that the additional
costs DoD would incur in contracting with State R-SA agencies would
be deemed "fair and reasonable" up to levels of one million dollars, or
 five percent, which ever is less. The parties agree that this approach,
when incorporated in regulation, would likely be given substantial
deference if litigated, particularly as it has been agreed upon as part of
joint process undertaken at statutory direction.

   9.	 The contracting officer may award to other than the State licensing agency when the head
       of the contracting activity determines that award to the State licensing agency would
       adversely affect the interests of the United States and the Secretary of Education
       approves the determination in accordance with the R-SA.


Analysis

       . There is no policy change in Section 9. Section 107(b) of the R­
SA, and the Department of Education's regulations governing the R-SA
state that the Secretary of Education must approve a determination
submitted by an agency that awarding to a State R-SA agency would


                                              11




                                                               Department   of Defense Office of Inspector General
                                                                                           Report No. IE-2008-004
                                               83
adversely effect the interests of the U.S. (see 34 CFR Sec 395.30 (b)). It
should be noted that the Secretary of Education has never received a
DoD request to approve a determination of adverse interest to the U.S.
The parties agreed, when updating regulations, to clarify what criteria
the contracting officer would use to determine if awarding to a State:
Licensing Agency is not in the best interests of the U.S. DoD has
expressed the view that the contracting officer would make such a
determination only in very unusual circumstances and in instances that
pertain to national security.

   10. The Parties will promptly implement complementary regulations reflecting the joint
       policy herein. In addition, the Parties believe that statutory changes as described in
       Attachment 1 will implement the joint policy regarding "no poaching." We believe these
       actions will significantly clarify and improve the application of JWOD and R-SA to
       military dining facilities contracts.


Analysis

     • Regulations are needed to implement the policy agreements
reached. The "no poaching" language has been changed in the NDAA
FY07.



                                     End Analysis




                                             12




                                                              Department   of Defense Office of Inspector General
                                                                                          Report No. IE-2008-004
                                              84
Appendix L-Legislative Proposal: Enact Joint Policy
           Recommendations



   SEC.       .    C O N T R A C T I N G             W I T H       E M P L O Y E R S            O F P E R S O N S             W I T H


                   DISABILITIES


                   (a) G E N E R A L , — T i t l e      10, U n i t e d S t a t e s C o d e , C h a p t e r 1 4 1 , is a m e n d e d b y i n s e r t i n g


                   t h e f o l l o w i n g s e c t i o n after s e c t i o n 2 3 9 6 :


          " § 2397.        CONTRACTING FOR MILITARY DINING HALl SERVICES A N D OPERATION O F


          MILITARY DINING FACILITIES.


                       " ( a ) N E E D S O F T H E D E P A R T M E N T . — T h e defining of r e q u i r e m e n t s and the m a k i n g


          of p r o c u r e m e n t decisions c o n c e r n i n g contracting for military dining support services and


          t h e o p e r a t i o n o f a m i l i t a r y d i n i n g f a c i l i t y shall b e w i t h i n t h e d i s c r e t i o n o f t h e S e c r e t a r y


          c o n c e r n e d , w h o shall ensure t h e p r o c u r e m e n t decision supports t h e readiness of t h e


          armed forces.


                      "(b) DEFINITIONS.                   In t h i s s e c t i o n


                                   " ( 1 ) T h e t e r m "military d i n i n g facility" m e a n s a facility o w n e d , operated,


                       leased, or w h o l l y controlled by the Department of Defense and used to provide


                       dining services to m e m b e r s of the a r m e d forces, including an entire cafeteria, a


                       military m e s s hall, a military troop d i n i n g facility, or any similar d i n i n g facility


                       o p e r a t e d for t h e p u r p o s e o f p r o v i d i n g m e a l s t o m e m b e r s o f t h e a r m e d f o r c e s ;


                                   " ( 2 ) The term "operation of a military dining facility" means the exercise


                       o f m a n a g e m e n t r e s p o n s i b i l i t y a n d d a y - t o - d a y d e c i s i o n - m a k i n g b y a c o n t r a c t o r for


                       the overall          functioning        o f a m i l i t a r y d i n i n g f a c i l i t y , i n c l u d i n g r e s p o n s i b i l i t y for its




                                                                                                         Department        of Defense        Office of Inspector   General
                                                                                                                                                 Report No.    IE-2008-004
                                                                                85
           staff and subcontractors. In the c o n t e x t o f D e p a r t m e n t of Defense contracting, t h e


           t e r m " o p e r a t i o n of a military d i n i n g facility" m e a n s " o p e r a t i o n o f a cafeteria" as


           used in the R a n d o l p h - S h e p p a r d Act (20 U.S.C. 107d-3(e)). T h e D e p a r t m e n t of


           D e f e n s e r o l e in a c o n t r a c t f o r t h e o p e r a t i o n o f a m i l i t a r y d i n i n g f a c i l i t y is l i m i t e d


           to c o n t r a c t a d m i n i s t r a t i o n functions d e s c r i b e d in F A R Part 42 ( 4 8 C F R 42).                              The


           t e r m "operation of a military dining facility" does not refer to dining support


           s e r v i c e s in a m i l i t a r y d i n i n g facility w h e r e D o D f o o d service specialists exercise


           m a n a g e m e n t responsibility and day-to-day decision-making over any part of the


           f a c i l i t y , i n c l u d i n g t h e d i n i n g f a c i l i t y staff, o r d e r i n g s u b s i s t e n c e i t e m s r e q u i r e d f o r


           m e a l preparation, the preparation of m e a l s , the serving of m e a l s , or dining facility


           clean-up;


                        "(3) The term "dining support services" means any food preparation


           services, food serving, ordering or inventory of food, m e a l planning, cashiers,


           mess attendant services, or other services that support the operation of a military


           d i n i n g facility;


                        " ( 4 ) T h e t e r m " P r o c u r e m e n t L i s t " refers to t h e list of r e q u i r e m e n t s t h a t


           h a v e b e e n r e s e r v e d f o r a w a r d t o n o n p r o f i t e n t i t i e s t h a t is e s t a b l i s h e d u n d e r t h e


           a u t h o r i t y o f s e c t i o n 2 o f t h e J a v i t s - W a g n e r - O ' D a y A c t ( 4 1 U . S . C . 4 7 et               seq.);


                        "(5) T h e t e r m "State licensing a g e n c y " refers to any a g e n c y designated
           u n d e r section 2(a)(5) of the R a n d o l p h - S h e p p a r d A c t (20 U.S.C. 107a (a)(5)); a n d
                        " ( 6 ) T h e t e r m " S e c r e t a r y c o n c e r n e d " h a s t h e m e a n i n g g i v e n t h a t t e r m in
           s e c t i o n 101(a)(9) o f this title.

           "(c)    SERVICES PURCHASED PURSUANT TO THE J A V I T S - W A G N E R - O ' D A Y                                                 ACT.—


T h e R a n d o l p h - S h e p p a r d A c t ( 2 0 U . S . C . 1 0 7 et seq.)              does not apply to any requirement


for services d e s c r i b e d in p a r a g r a p h s (1) a n d (2).




                                                                                                   Department        of Defense       Office of Inspector   General
                                                                                                                                          Report No.    IE-2008-004
                                                                           86
                          "(1) A n y dining support services for a military dining facility; a n d


                          " ( 2 ) O p e r a t i o n o f a m i l i t a r y d i n i n g facility t h a t w a s p r o v i d e d b y a


             q u a l i f i e d n o n p r o f i t a g e n c y in c o m p l i a n c e w i t h s e c t i o n 3 o f t h e J a v i t s - W a g n e r -


             O ' D a y A c t a s o f t h e d a t e o f e n a c t m e n t o f this A c t .


             "(d) S U B C O N T R A C T R E Q U I R E M E N T S . — I f dining support services for a military


d i n i n g facility a r c o n o r will b e p l a c e d o n t h e P r o c u r e m e n t List, a n y S t a t e l i c e n s i n g


a g e n c y t h a t is o r h a s b e e n a w a r d e d a c o n t r a c t f o r o p e r a t i o n o f t h a t m i l i t a r y d i n i n g f a c i l i t y


under the R a n d o l p h - S h e p p a r d Act shall award a subcontract for those services as


p r e s c r i b e d b y t h e P r o c u r e m e n t List.


             "(c) S E R V I C E S P R O C U R E D P U R S U A N T T O T H E R A N D O L P H - S H E P P A R D                      ACT.—Except


a s p r o v i d e d in s u b s e c t i o n s ( c ) a n d ( d ) , t h e J a v i t s - W a g n e r - O ' D a y A c t ( 4 1 U . S . C . 4 6 et


seq.) d o e s n o t a p p l y at t h e p r i m e c o n t r a c t l e v e l t o a n y c o n t r a c t e n t e r e d i n t o w i t h a S t a t e


l i c e n s i n g a g e n c y u n d e r t h e R a n d o l p h - S h e p p a r d A c t for o p e r a t i o n o f a m i l i t a r y d i n i n g


facility.


             "(f) M I N I M U M S T A N D A R D S . — T h e              official i d e n t i f i e d in t h e O f f i c e o f F e d e r a l


Procurement Policy Act (41 U.S.C. 421) responsible for Defense procurement policy


s h a l l i s s u e p r o c u r e m e n t r e g u l a t i o n s s e t t i n g s t a n d a r d s f o r q u a l i f y i n g a State l i c e n s i n g


a g e n c y ' s offer in r e s p o n s e t o a s o l i c i t a t i o n for o p e r a t i o n o f a m i l i t a r y d i n i n g f a c i l i t y t o b e


e n t e r e d i n t o t h e c o m p e t i t i v e r a n g e a n d j u d g e d s u i t a b l e for a w a r d o f a c o n t r a c t . A t a


m i n i m u m , s u c h r e g u l a t i o n s shall r e q u i r e t h e S t a t e l i c e n s i n g a g e n c y t o :


                          " ( 1 ) l i m i t e x e c u t i v e c o m p e n s a t i o n so t h a t n o e m p l o y e e o r e x e c u t i v e


             officer o f a S t a t e - l i c e n s e d b l i n d v e n d o r or b u s i n e s s e n t i t y p e r f o r m i n g a c o n t r a c t or


             c o n t r a c t s for o p e r a t i o n o f a d i n i n g facility o r f a c i l i t i e s m a y b e c o m p e n s a t e d b y




                                                                                                         Department        of Defense Office of Inspector General
                                                                                                                                          Report No. IE-2008-004
                                                                                87
            t h a t v e n d o r or e n t i t y at a rate e x c e e d i n g E x e c u t i v e S c h e d u l e L e v e l I e s t a b l i s h e d in

            S e c t i o n 5 3 1 2 o f Title 5, U n i t e d S t a t e s C o d e ; a n d


            " ( 2 ) c o n d u c t a t r a i n i n g a n d m e n t o r s h i p p r o g r a m to i n c l u d e , at a m i n i m u m , f o r m a l

            e d u c a t i o n and o n - t h e - j o b t r a i n i n g a n d a r e g u l a r g r a d u a t i o n for as m a n y b l i n d

            v e n d o r t r a i n e e s as can be f u n d e d w i t h t h e s e t - a s i d e o r o t h e r fee c h a r g e d b y t h e

            State, but not less than o n e b l i n d v e n d o r p e r m i l i t a r y d i n i n g facility.


            "(g)      Method        of      Awarding        RANDOLPH-SHEPPARD PRIORITY.—(1) When a


M i l i t a r y D e p a r t m e n t e l e c t s to c o n t r a c t for o p e r a t i o n a m i l i t a r y d i n i n g facility on a

m i l i t a r y installation, a State l i c e n s i n g a g e n c y m a y r e c e i v e a priority t o o p e r a t e such

facility w h e n t h e State l i c e n s i n g a g e n c y can p r o v i d e s u c h o p e r a t i o n at a r e a s o n a b l e price

with food o f a h i g h q u a l i t y c o m p a r a b l e with that a v a i l a b l e from o t h e r p r o v i d e r s o f

cafeteria s e r v i c e s and c o m p a r a b l e t o t h e q u a l i t y a n d price o f food c u r r e n t l y p r o v i d e d to

m i l i t a r y s e r v i c e m e m b e r s , w h e t h e r b y an e x i s t i n g c o n t r a c t or o t h e r w i s e . T h e R a n d o l p h -

S h e p p a r d A c t d o e s not c r e a t e a federal p r o c u r e m e n t s e t - a s i d e for t h e o p e r a t i o n o f m i l i t a r y

d i n i n g facilities. D e f e n s e D e p a r t m e n t c o n t r a c t s for t h e o p e r a t i o n o f a m i l i t a r y d i n i n g

facility m u s t b e a w a r d e d as t h e result o f full a n d o p e n c o m p e t i t i o n , unless there is a basis

for direct n e g o t i a t i o n s (e.g., t h e only s o u r c e a v a i l a b l e t o p r o v i d e t h e s e r v i c e s is a State

l i c e n s i n g a g e n c y , or an e x c e p t i o n to t h e C o m p e t i t i o n in C o n t r a c t i n g Act a p p l i e s ) .


                       " ( 2 ) D e t e r m i n i n g t h e r e a s o n a b l e c o s t s and q u a l i t y o f food j u s t i f y i n g a w a r d
            o f a c o n t r a c t to a State l i c e n s i n g a g e n c y :
                                    " ( A ) E x c e p t as p r o v i d e d in s u b p a r a g r a p h ( C ) b e l o w , t h e priority

                        will be afforded if the f o l l o w i n g c o n d i t i o n s are satisfied:


                                                 "(i) The State l i c e n s i n g a g e n c y ' s final p r o p o s a l r e v i s i o n is

                                     a m o n g t h e h i g h l y r a n k e d final p r o p o s a l r e v i s i o n s w i t h a r e a s o n a b l e




                                                                                                    Department        of Defense        Office of Inspector   General
                                                                                                                                            Report No.    IE-2008-004
                                                                             88
                               c h a n c e o f b e i n g selected for award. In this context, receipt o f final

                               p r o p o s a l r e v i s i o n s is a reference to that t e r m as d e s c r i b e d in

                               f e d e r a l Acquisition R e g u l a t i o n ( F A R ) Subpart 15.307:

                                             "(ii) T h e State licensing a g e n c y c a n p r o v i d e cafeteria
                               services at a fair and r e a s o n a b l e p r i c e , w i t h food o f high quality
                               c o m p a r a b l e to that available from other providers o f cafeteria
                               services and c o m p a r a b l e to the quality and price o f food currently
                               p r o v i d e d to military service m e m b e r s ;
                                             "(iii) T h e term "fair a n d r e a s o n a b l e p r i c e " m e a n s that t h e

                               State licensing a g e n c y ' s final proposal revision d o e s not e x c e e d

                              the lowest price acceptable offeror's final proposal revision by

                               m o r e t h a n five percent o f t h a t lowest price acceptable offer, o r o n e

                               million dollars, w h i c h e v e r is less, o v e r a l l p e r f o r m a n c e p e r i o d s

                               required b y the solicitation; and

                                             " ( i v ) In e v a l u a t i n g t h e " q u a l i t y " o f t h e services p r o p o s e d b y
                              the Stale licensing a g e n c y , the c o n t r a c t i n g officer m a y c o n s i d e r
                              such things as sanitation practices, m e n u variety, personnel,
                              staffing (e.g.. t h e State licensing a g e n c y plan t o e m p l o y blind and
                              severely d i s a b l e d w o r k e r s pursuant to the criteria established for
                              contracts u n d e r t h e J a v i t s - W a g n e r - O ' D a y Act, and t r a i n i n g
                              p r o g r a m s to i n c l u d e formal education and on-the-job training), and
                              t r a n s p a r e n c y of a c c o u n t i n g practices (e.g., e x p l a n a t i o n o f v e n d o r
                              and subcontract profit or fee; e x p l a n a t i o n o f State set-aside f e e s :
                              executive c o m p e n s a t i o n p l a n s ) .
                                "(B)      T h e c o n t r a c t i n g officer has the discretion m a k e no a w a r d or
                 t o a w a r d to o t h e r t h a n the State licensing agency w h e n t h e head o f the
                 c o n t r a c t i n g activity d e t e r m i n e s that a w a r d to the State licensing a g e n c y
                 w o u l d adversely affect t h e interests o f t h e U n i t e d States a n d t h e Secretary
                 o f the Military D e p a r t m e n t c o n c e r n e d a p p r o v e s t h e d e t e r m i n a t i o n .
          "(h) The p r o c u r e m e n t decisions o f a military d e p a r t m e n t , i n c l u d i n g w h e t h e r t o

issue a solicitation or w h e t h e r t o a w a r d a contract subject to t h e R a n d o l p h - S h e p p a r d Act,

are p r o c u r e m e n t decisions subject to t h e exclusive bid protest authority o f t h e

G o v e r n m e n t Accountability Office u n d e r the C o m p e t i t i o n in C o n t r a c t i n g Act (31 U . S . C .




                                                                                                   Department        of Defense Office of Inspector General
                                                                                                                                    Report No. IE-2008-004
                                                                            89
       3551 et seq.) and shall not be subject to arbitration or litigation under the Randolph-

       Sheppard Act."'.

       (b) C L E R I C A L A M E N D M E N T .   The table o f sections at the beginning of chapter 141 of

such title is amended b y inserting after the item           relating   section 2396 the following new item:

                 " 2 3 9 7 . Contracting for Military Dining Hall Services and Operation of Military

       Cafeterias.".

       (e) C O N F O R M I N G A M E N D M E N T S . —


                 (1) Section 107d-1 o f title 20, United Slates Code, is a m e n d e d by inserting at the

       end the following new subparagraph (c):

                            "(c) Paragraphs (a) and (b) in this section shall not apply to "operation of a

                 military dining facility as that term is defined in section 2 3 9 7 of title 10."

                 (2) Section 107d-3(e) of title 20. United States C o d e , is amended after

       "cafeterias" by insetting "(other than operation o f military dining facility as that term is

       defined in section 2397 of title 10)"."




                                                                                Department   of Defense   Office of Inspector   General
                                                                                                              Report No.    IE-2008-004
                                                                90
                                   Section-by-Section Analysis

        This proposal implements the joint policy developed by the Department of Defense
(DoD), the Department of Education (ED), an the Committee for the People Who Are Blind or
Severely Disabled (CFP) in response to Section 848 of the National Defense Authorization Act
of Fiscal Year 2006 (Public Law 109-163). This proposal clearly defines which DoD food
service requirements are subject to the R-S Act and which DoD food service requirements are
covered by the JWOD Act.

        This proposal unequivocally assigns to blind vendors under the R-S Act all prime
contract opportunities to operate military dining facilities where the Government is contracting
for such services, subject to grand-fathering of any such contracts currently being performed by
JWOD workers as of the date of enactment.

         This proposal protects the jobs of blind or severely disabled workers for services
identified on the JWOD Procurement List. The R-S Act does not address jobs of blind or
severely disabled workers for specific services supporting a cafeteria operation.

       This proposal clearly defines how DOD is to afford the R-S Act "priority" to assure
comparable quality and a fair and reasonable price. This proposal establishes standards for
accountability, transparency and cost controls necessary for an appropriated funds procurement
program.

        This proposal will have no impact on any other agency because only DOD uses
appropriated funds to purchase services from State licensing agencies under the R-S Act. Also,
this proposal will have no effect on nonappropriated fund vending concessions to which the R-S
Act applies.

        Section (a) of this proposal codifies the governing law as section 2397 of title 10. United
Slates Code. Section (b) makes a clerical change to add the new Section 2397 to the table of
sections contained in Title 10, Chapter 141.

         Section (c) makes conforming amendments to title 20. Section 107d-l of title 20 is
amended to conform to the new section 2397(h) of title 10. making hid protests under the
Competition in Contracting Act the exclusive review for contracts for operation of a military
dining facility. Section 107d-3(e) of title 20 is amended to conform to the new section 2397(1) of
title 10. requiring the Director of Defense Procurement and Acquisition Policy to issue
regulations under the OFPP Act with regard to appropriated fund contracts for operation of a
military dining facility and dining support services. Through these amendments and section
2397, DoD becomes responsible for administering the DoD R-S Act program using appropriated
funds and applying the unique standards of the proposed new section 2397 of title 10, DoEd will
remain responsible for all other federal agency programs using nonappropriated funds. DoD has
amply demonstrated its commitment to both the JWOD and R-S Act programs. Additionally.
DoD has a core capability in education and training. The current situation of bifurcated




                                                                   Department    of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                91
responsibilities between DoD and DoEd has not resulted in efficient oversight. Therefore, the
administrative responsibility for R-S contracts using Defense appropriations must be
consolidated in just one federal agency: DoD.

        Subsection (a) of the proposed new section 2397 of title 10 ensures the military mission
is given first priority in contracting decisions. Priorities for blind vendors and employment
preferences for blind and disabled workers come into play only after the DoD has determined
that the dining Facility need not he operated directly and has determined that the military mission
permits contracting in whole or in part.

         Subsection (b) of section 2397 provides definitions, including "operation of a military
dining facility." This definition equates to the definition informally used by DoD for almost 20
years, in coordination with the Department of Education and the Committee for Purchase front
People Who Are Blind or Severely Disabled. The definition of "operation of a military dining
facility" focuses on the management and day-to-day decision-making that arc at the heart of
operating an establishment where customers are served and the operator bears the risk of his
entrepreneurial decisions. This definition recognizes that it is the mission of DoD to operate its
own dining halls and have military members who are trained and capable of making decisions
for food services in deployed settings. By dividing DoD dining facilities into those DoD
operates and those it does not, this definition resolves the confusion that exists in recognizing the
difference between JWOD and R-S Act contract opportunities.

        Subsection (e) of section 2397 protects the jobs of blind or severely disabled workers for
services on the Procurement List. The Procurement List is the objective standard identifying
specific jobs to be performed by blind or severely disabled workers.

        Subsection (d) requires R-S Act prime contractors to comply with the same rules all
commercial offerors must meet regarding subcontracts with agencies that employ blind and
severely disabled workers when those jobs are placed on the Procurement List.

        Subsection (e) protects prime contract opportunities for the R-S Act program. This
applies to R-S Act contracts and follow-on contracts. Therefore, the R-S Act program will enjoy
the same degree of protection provided for the JWOD Procurement list. JWOD sources will be
limited to providing support services (e.g.. food preparation, cooking, custodial, and cashiers)
when an R-S Act source has the prime contract.

         Subsection (f) requires the Director of Defense Procurement and Acquisition Policy (the
official identified in the Office of Federal Procurement Policy. 41 U.S.C, 421(d)) to issue
procurement regulations for DoD establishing minimum standards of accountability,
transparency, cost controls and actual education and training for blind persons operating
cafeterias under the R-S Act. The minimum standards will include requiring Stales to train and
assign at least one blind person in a cafeteria management role per military dining facility in
contracts under the R-S Act. Doing so will best serve the public policy objective of expanding
opportunities for blind persons to be trained and employed as cafeteria managers. The cap on
executive compensation follows the example in past Department of Defense Appropriations Acts




                                                                   Department    of Defense Office of Inspector General
                                                                                                Report No. IE-2008-004
                                                 92
for other types of contracts, selling maximum compensation at the same level as the Secretary of
Defense and other cabinet level officers. This is considered fair and reasonable executive
compensation for R-S vendors and their commercial partners since DoD provides the food,
menus, customers, facilities, utilities, equipment, security, and trash removal. The DoD bears the
risk of loss from food waste and food spoilage. The DoD is responsible for the cost of correcting
customer complaints. Therefore, it is reasonable to cap the executive compensation and profit
associated with these R-SA contracts.

        Subsection (g) explains the mechanics of how the priority under the R-S Act will he
afforded in DoD source selections, consistent with the federal Acquisition Regulation (FAR).
Subsection (g) incorporates into the proposed new section 2397 the standards currently found in
Department of Education regulations with regard to comparing the cost and quality of the State
licensing agency's offer with that available from other market sources. In Subsection
(g)(2)(A)(iii) DoD seeks a cap on the dollar differential it is required to pay under this
preferential program. In days of a stressed military budget and contingency operations. DoD
cannot afford to shift precious Defense appropriations to State educational programs when those
funds arc needed to purchase supplies and services directly for Soldiers, Sailors. Airmen, and
M alines.

         Subsection (h) of the proposed new section 2397 normalizes the review of procurement
decisions under the Competition in Contracting Act (CICA). Currently, DoD's procurement
decisions regarding contracts for operation of a military dining facility can be subjected to bid
protests to the GAO under CICA, protests to the Court of federal Claims (COFC) under C I C A
arbitration under the R-S Act. and litigation in federal District Courts under the R-S Act. This
results in duplicative jurisdiction over the same subject matter, allowing appeals to the Court of
 Appeals for the federal Circuit (CAFC) from COFC decisions as well as appeals to any of the
numbered Circuit Courts reviewing decisions of the district courts. The GAO and COFC have
unique expertise in reviewing federal agency procurement decisions using appropriated funds.
Other than the recent foray into R-S Act contracts, the district courts have little or no expertise
reviewing appropriated fund contracting, because exclusive jurisdiction was consolidated under
CICA and vested in GAO and COFC/CAFC. The R-S Act created an arbitration process because
GAO and COFC/CAFC have no jurisdiction over nonappropriated fund concession arrangements
under the R-S Act. The R-S Act arbitration process and review by federal district courts was
meant to fill a gap with respect to nonappropriated fund concessions. There is no gap with
respect to appropriated fund contracts: CICA vested that jurisdiction exclusively in GAO and
COFC/CAFC. DoD seeks relief from duplicative fronts of litigation with potentially different
jurisdictional and procedural rules with respect to DoD appropriated fund contracts

         This proposal is needed because only a statutory change will assure finality in resolving
the long-standing confusion of when to apply the JWOD and R-SA programs to the operation
and management of military dining facilities. The proposed new section of law will provide
clear, fair guidance for all parties affected by contracting for military dining facility operation
and dining support services.




                                                                  Department   of Defense Office of Inspector General
                                                                                              Report No. IE-2008-004
                                                 93
This Page Intentionally Left Blank




                           Department of Defense Office of Inspector General
                                                    Report No. IE-2008-004
               94
Appendix M-Management Comments




                      OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                      3 0 0 0 DEFENSE P E N T A G O N
                                     WASHINGTON, D C 2 0 3 0 1 - 3 0 0 0



                                               MAR 18 2008




      M E M O R A N D U M FOR DEPUTY ASSISTANT INSPECTOR GENERAL FOR
                                INSPECTIONS A N D EVALUATIONS

      THROUGH:       DIRECTOR, ACQUISITION RESOURCES A N D ANALYSIS

      SUBJECT: Response to DoDIG Draft Report on " D o D Assessment of Contracting with
               Employers of Persons with Disabilities" (Project No. D2007-DIPOE1­
               0109.00)


             This is to provide the USD(AT&L) response to the recommendations in the
      subject draft report.

      Recommendation 1: Establish a Federal Acquisition Regulation (FAR) to govern the
      R-SA contracting process. (OPR: DoED; OCR: OUSD(AT&L)/DPAP).

      Response: Concur. We agree that a procurement regulation is needed to address the
      Randolph-Sheppard Act (R-SA) in DoD contracting. The appropriate place to
      incorporate the R-SA as applied to military dining facility contracts is in the Defense
      Federal Acquisition Regulation Supplement (DFARS). Accordingly, the following
      revision to this recommendation is offered for your consideration. "Establish a Defense
      Federal Acquisition Regulation Supplement (DFARS) rule to govern D o D ' s contracting
      process under the R-SA. (OPR: OUSD(AT&L)/DPAPSS; OCR: OFPP)."

      Recommendation 2: Pending publication of a federal acquisition regulation to govern
      the R-SA contracting process, ensure compliance across DoD with the provisions of
      N I S H vs. Rumsfeld. (OPR: OUSD(AT&L)/DPAPSS).

      Response: Concur. The decision in the stated case made the distinction of when the R-
      SA and J W O D Act applied to military dining contracts. For the longer term, the DFARS
      rule resulting from recommendation one will address the Court's decision. DoD has
      already addressed the Court's decision in the short-term. Specifically, I issued a
      memorandum to DoD procurement officials on March 16, 2007, to implement section
      856 of the National Defense Authorization Act for Fiscal Year 2006 (Public Law 109¬
      163) which enacted and addresses the applicability of the JWOD Act and the R-SA to the
      operation of military dining facility contracts and military dining support services. Based
      on the above, recommendation number two is not necessary.




                                                                           Department   of Defense Office of Inspector General
                                                                                                       Report No. IE-2008-004
                                                         95
Recommendation 3: Continue to monitor the "per meal" costs associated with the
various types of military dining facility contracts. Take appropriate steps to mitigate
contracts and costs that are out of the competitive range, while considering appropriate
"quality" offsets. Provide USD(AT&L) an impact statement in FY 2009. (OPR:
OUSD(AT&L)/DPAPSS; OCR: CFP, DoED).

Response: Concur. We agree that monitoring of the contract performance is important,
however, monitoring the "per meal" cost may not achieve the desired outcome given that
there are different types of contracts and requirements needed to fulfill military
operations at the various DoD installations. Also, the "per meal" costs will vary due to
the Service Contract Act that may result in increased wages in a given State. It is DoD
policy to compete requirements at every opportunity which results in fair and reasonable
prices. In discussions with offerors, a contracting officer may request cost or pricing data
or other supporting information to determine price reasonableness. Accordingly, the
following revision to this recommendation is offered for your consideration. "Issue
policy reminding DoD contracting officers to obtain appropriate cost or pricing data and
supporting information in order to determine whether any offer for a military dining
facility solicitation presents a fair and reasonable price, as required by 10 U.S.C. 2306
and FAR Subpart 15.4, regardless of whether contracts are awarded through competitive
procedures or without full and open competition. Request a R-SA field be added to the
Federal Procurement Data System-Next Generation to allow for reporting of R-SA
contract actions. (OPR: OUSD(AT&L)/DPAPSS; OCR: OFPP)."

Recommendation 4: Issue appropriate procurement policy, regulations, and
implementing procedures related to the R-SA and the award of contracts for military
dining facility operations and services. (OPR: DoED; OCR: OUSD(AT&L)/DPAP).

Response: Concur. In November 2006, DoD opened DFARS case 2006-D064 to
incorporate the joint policy statement into the Defense procurement regulations.
However, in February 2007, the DoD Office of General Counsel determined the case
could not proceed further without the Department of Education (DoED) publishing the
updated R-SA regulations. In August 2007, the DoD and DoED agreed to a draft version
of the R-SA regulations and internal coordination of the regulations was to begin at
DoED. I am concerned that eighteen months have passed and the DoED has not revised
the R-SA regulations that pertain to military dining contracts in accordance with the joint
policy. DoD can no longer wait for DoED to complete their internal review process, and
we are reviewing alternatives for issuing procurement guidance and proceeding with the
DFARS case. We recommend the following revisions for your consideration.
"Coordinate for formal publication for public comment and interagency coordination,
appropriate policy and regulations to implement the joint report to Congress dated
August 29, 2006, by the Department of Defense, the Department of Education, and the
Committee for Purchase From People Who Are Blind or Severely Disabled. (OPR:
OUSD(AT&L)/DPAPSS; OCR: DoED, CFP, OFPP)."


                                                                                           2




                                                                Department   of Defense Office of Inspector General
                                                                                            Report No. IE-2008-004
                                               96
Recommendation 5: Issue arbitration policy and procedures that are transparent to both
OSD, the Military Departments and the SLAs. (OPR: DoED; OCR:
OUSD{AT&L)/DPAP).

Response: Concur. The Department of Education has arbitration policies and
procedures in place that the Military Departments and State Licensing Agencies may
request when arbitration is initiated. Accordingly, this recommendation is not necessary.

Recommendation 6: To resolve/clarify issues associated with contracting with
employers of persons with disabilities, OUSD(AT&L) should forward a legislative
change request to Congress, Appendices N 1 , N 2 , and N3 provide proposed legislative
language under three separate scenarios, (OPR; OUSD(AT&L)/DPAP; OCR: DoED,
CFP, Congress).

Response: Concur. For accuracy of the terminology, a revised recommendation is
provided for your consideration, "To resolve/clarify issues associated with contracting
with employers or sponsors of persons who are blind or have disabilities consistent with
military mission and quality of life programs, USD(AT&L) should forward a legislative
proposal to Congress. Appendices N I , N2, and N3 provide proposed legislative language
under three separate scenarios. (OPR: OUSD(AT&L)/DPAPSS; OCR: OUSD(P&R),
DoD ASD/Legislative Affairs, DoD ARA, DoD OGC, OMB)."

Recommendation 7: Congress should review the designation of the Department of
Education as the executive agent for the Randolph-Sheppard Act and validate the status
quo or determine if a procurement centric entity is more appropriate to manage R-SA
activities. (OPR: Congress; OCR: DoED, OUSD(AT&L)/DPAP).

                                                                             h
Response: Non-Concur. Based on discussions with your office on March 10t , we have
agreed that this recommendation be withdrawn.

       Thank you for the opportunity to provide comments on the draft report. My point
of contact for this matter is Ms. Susan Pollack, (703)697-8336, susan.pollack@osd.mil.




                                     Shay D. Assad
                                     Director, Defense Procurement,
                                       Acquisition Policy, and
                                       Strategic Sourcing



                                                                                         3




                                                               Department   of Defense Office of Inspector General
                                                                                           Report No. IE-2008-004
                                               97
                                    THE JOINT STAFF
                                     W A S H I N G T O N , DC




Reply ZIP Code:                                                     DJSM-1095-07
20318                                                               2 6 December 2 0 0 7


MEMORANDUM FOR THE INSPECTOR GENERAL OF THE DEPARTMENT OF
               DEFENSE

Subject: Coordination o n Draft Report "DOD A s s e s s m e n t of Contracting with
         Employers of P e r s o n s with Disabilities'

                                                                          1
1. Thank you for the opportunity to c o m m e n t on the draft report.         The Joint
Staff c o n c u r s in the draft a s written.

2. The Joint Staff point of contact is Commander Bill Reich, USN; J - 4 / S V D ;
703-571-9803.




                                            WALTER L. SHARP
                                            Lieutenant General, USA
                                            Director, J o i n t Staff

Reference:
1 IG, DOD, m e m o r a n d u m , undated, "Report on the DoD A s s e s s m e n t of
    Contracting with Employers of Persons with Disabilities [Project No.
    D2007-DIPOE1-01O9.00)"




                                                                  Department    of Defense Office of Inspector General
                                                                                               Report No. IE-2008-004
                                                        98
                            DEPARTMENT OF THE ARMY
                       OFFICE OF THE ASSISTANT SECRETARY
                        MANPOWER AND RESERVE AFFAIRS
                       EQUAL EMPLOYMENT OPPORTUNITY AND CIVIL RIGHTS
                                2511 JEFERSON DAVIS HIGHWAY
                                   ARLINGTON, V A 22202-3926




SAMR-EOCR                                                              20 February 2008


MEMORANDUM FOR Assistant Inspector General for Inspections and Evaluations,
Department of Defense (ATTN: LtCol Hammond), 400 Army Navy Drive, Arlington, VA
22202-4704

SUBJECT: Report on the DoD Assessment of Contracting with Employers of Persons
with Disabilities (Project No. D2007-DIP0E1-0109.00)


1. Reference DODIG memorandum dated 21 November 2007, subject as above, and
OSD Control Tasker Control ID number 80211070, Army suspense, 20 February 2008.

2. This office was tasked by DACS-ZDV-HR to review and comment on the draft IG
report with a direct reply to DoDIG. The Deputy Assistant Secretary of the Army for
Equal Employment Opportunity and Civil Rights concurs with no comment.

3. Please direct any questions to Ms. Moya, Director for Programs for Individuals with
Disabilities, at (703) 604-0616, DSN: 664-0616, or e-mail: movaer@hqda.army.mil.




                                  RAMON SURIS-FERNANDEZ
                                  Deputy Assistant Secretary of the Army
                                     (Equal Employment Opportunity and Civil Rights

Copy Furnished:
DACS-ZDV-HR (Arvesta Roberson)




                                          Recycling Symbol


                                                             Department   of Defense Office of Inspector General
                                                                                         Report No. IE-2008-004
                                            99
                                           DEPARTMENT OF THE AIR FORCE
                                                   WASHINGTON, DC




O F F I C E OF THE ASSISTANT S E C R E T A R Y


         MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                        ATTN: DEPUTY INSPECTOR GENERAL FOR AUDITING

         FROM: SAF/AQC

         SUBJECT. Air Force Response to Department of Defense Inspector General (DoDIG)
                  Drift Report. Project No. D2007-DIPOE1-0109.00. DoD Assessment of Contracting
                  WithEmployersof Persons With Disabilities

                 This is in reply to your memorandum requesting that the AssistantSecretaryof the Air
         Force provide comments on the subject draft report dated November xx, 2007. Having reviewed
         the report we note there are no recommendations for immediate Air Force action,butrather that
         all acquisition related recommendations arc directed to OUSD(AT&L). We have no comments
         in responsetothis report but will work with OUSD(AT&L) as it implements any policy or
         procedural changes resulting from the report

                Ms. Betsy Ann Matich, SAF/AQCP, commercial (703) 588-7026 or DSN 425-7026 is my
         point of contact for this                     report.



                                                             CHARLIE E.WILLIAMS,JR.
                                                             Deputy Assistant Secretary (Contracting)
                                                             Assistant Secretary {Acquisition)




                                                                         Department    of Defense Office of Inspector General
                                                                                                      Report No. IE-2008-004
                                                       100
Meyer, Stanley E., OIG D o D

From:                 Black, Michael K CIV [michael.k.black@navy.mil]
Sent:                 Thursday, December 06, 2007 5:59 PM
To:                   Meyer, Stanley E., OIG DoD; Crystal Focus
Cc:                   Caplan, Morris Officer NAVSUP NAVSUPHQ; Cooper, Diana AAUSN-NAVIG; Davis, Celinda
                      K CIV NAVSUPHQ
Subject:              DRAFT DODIG AUDIT REPORT ON THE DOD ASSESSMENT OF CONTRACTING WITH
                      EMPLOYERS OF PERSONS WITH DISABILITIES (PROJECT NO. D2007-DIP0E1-0109.00)


Mr. Meyer;

NAVSUP is providing a negative response      (no comments) to the subject draft audit report.

Please call or e-mail if you have questions.         Thank you.

VR;
Michael K. Black
Deputy Inspector General/Director of Audits Office of the Inspector General Naval Supply
Systems Command (SUP-91A)
Voice: (717) 605-7246/DSN 430-7246
FAX: (717) 605-1102/DSN 430-1102
E-Mail: michael.k.black@navy.mil




                                                               Department   of Defense Office of Inspector General
                                                                                           Report No. IE-2008-004
                                               101
                                      DEPARTMENT OF THE NAVY
                      DEPUTY NAVAL INSPECTOR GENERAL FOR MARINE C O R P S MATTERS
                               INSPECTOR GENERAL O F THE M A R I N E C O R P S
                                      WASHINGTON, D . C . 2 0 3 8 0 - 1 7 7 5


                                                                                           5000
                                                                                           CMC-IG
                                                                                           20 Dec    07

From:     Inspector G e n e r a l o f the M a r i n e C o r p s
To:       Inspector G e n e r a l , D e p a r t m e n t o f D e f e n s e

Subj:     R E P O R T ON D E P A R T M E N T O F D E F E N S E A S S E S S M E N T OF   CONTRACTING
          W I T H EMPLOYERS O F P E R S O N S W I T H D I S A B I L I T I E S
           (PROJECT N O . D 2 0 0 7 - D I P O E 1 - 0 1 0 9 . 0 0 )

1.      T h e Inspector G e n e r a l o f     the M a r i n e    Corps     (IGMC)       concurs
w i t h o u t comment.

2.      Coordination and r e v i e w w a s m a d e w i t h H Q M C - L B          (Contracting),
P o i n t of contact M r . J o h n M a r t i n .

3.      T h e IGMC point of c o n t a c t for t h i s m a t t e r is Major Matt                   Green,
D i r e c t o r , Readiness D i v i s i o n at c o m m e r c i a l (703) 695-3090.

                                                    Very     Respectfully




                                                    R. D A V I D HO:
                                                    Deputy




                                                                             Department    of Defense Office of Inspector General
                                                                                                          Report No. IE-2008-004
                                                         102
Appendix N–Installations Visited


Department of the Army
Fort Dix, New Jersey
Fort Lee, Virginia
Fort Lewis, Washington
Installations Management Command, Arlington, Virginia

Department of the Navy
Commander, Navy Region Midwest, Great Lakes, Illinois
Commander, Navy Region Southwest, San Diego, California

Department of the Air Force
McChord Air Force Base, Washington
McGuire Air Force Base, New Jersey
Vandenberg Air Force Base, California




                                                        Department of Defense Office of Inspector General
                                                                                 Report No. IE-2008-004
                                           103
This Page Intentionally Left Blank




                           Department of Defense Office of Inspector General
                                                    Report No. IE-2008-004
               104
Appendix O–Acronym List 


AMC                	   Air Mobility Command
AR         	           Army Regulation
BOS            	       Base Operating Support
CFP                    Committee for Purchase from People Who Are Blind or Severely
                       Disabled
COFC 	                 Court of Federal Claims
COLS          	        Common Output Level Standards
CONUS           	      Continental U.S.
CRSA          	        Commissioner of Rehabilitative Services Administration (DoED)
DFARS 	                Defense Federal Acquisition Regulation Supplement
DoD        	           Department of Defense
DoDD          	        Department of Defense Directive
DoDIG 	                Department of Defense Inspector General
DoED          	        Department of Education
DoEDIG 	               Department of Education Inspector General
FAR        	           Federal Acquisition Regulations
GAO         	          General Accountability Office
GC       	             General Counsel
HUBZone	               Historically Underutilized Business Zone
JWOD           	       Javits-Wagner-O’Day
NAF        	           Nonappropriated Fund
NDAA 	                 National Defense Authorization Act
NIB 	                  National Industries for the Blind
NPO        	           Nonprofit Organization
OGC 	                  Office of General Counsel
OSD 	                  Office of the Secretary of Defense
OSERS 	                Office of Special Education and Rehabilitative Services (DoED)
OUSD(AT&L) 	           Office of the Under-Secretary of Defense, Acquisition, Technology, and
                       Logistics
R-SA               	   Randolph-Sheppard Act
SBA            	       Small Business Administration
SLA            	       State Licensing Agency




                                                           Department of Defense Office of Inspector General
                                                                                    Report No. IE-2008-004
                                              105
Appendix P–Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics) 

Under Secretary of Defense (Personnel and Readiness) 

Under Secretary of Defense (Comptroller) / Chief Financial Officer 

General Counsel of the Department of Defense 

Assistant Secretary of Defense (Legislative Affairs) 

Assistant Secretary of Defense (Public Affairs) 


Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations
Commandant of the Marine Corps
Naval Inspector General
   Deputy Naval Inspector General for Marine Corps Matters

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense Federal Organizations
Office of Management and Budget
Committee for Purchase from People Who Are Blind or Severely Disabled




                                                          Department of Defense Office of Inspector General
                                                                                   Report No. IE-2008-004
                                             106
Department of Education

Inspector General
Office of Special Education and Rehabilitative Services
Rehabilitation Services Administration

Congressional Committees
Congressional Committees and Subcommittees, Chairman and Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations
Senate Committee on Health, Education, Labor and Pensions




                                                          Department of Defense Office of Inspector General
                                                                                   Report No. IE-2008-004
                                              107
The Mission of the OIG DoD



The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department’s mission
and to serve the public interest.




Team Members



The Joint Operations, Defense Agencies, and Service Inspectors General Division, Inspections
and Evaluations Directorate, Office of the Deputy Inspector General for Policy and Oversight,
Office of the Inspector General for the Department of Defense prepared this report. Personnel
who contributed to the report include Stanley E. Meyer – Division Chief, Lieutenant Colonel
Henri T. Hammond (USAF) – Team Leader, Commander Von W. Freeman (USN), and Beverly
L. Cornish.




Additional Report Copies



Contact us by phone, fax, or e-mail:
  Inspections and Evaluations directorate, Deputy Inspector General for Policy and Oversight
  COM: 703.604.9130 (DSN664.9130)
  FAX: 703.604.9769
  E-MAIL: crystalfocus@dodig.mil
  Electronic version available at: www.dodig.mil/Inspections/IE/Reports
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
